<html>
<title> - INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                                  
 
                    INTERIOR, ENVIRONMENT, AND RELATED
                     AGENCIES APPROPRIATIONS FOR 2019

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              SECOND SESSION

                                 ______
                                

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES
       
       

                    KEN CALVERT, California, Chairman

  MICHAEL K. SIMPSON, Idaho                  BETTY McCOLLUM, Minnesota
  TOM COLE, Oklahoma                         CHELLIE PINGREE, Maine
  DAVID P. JOYCE, Ohio                       DEREK KILMER, Washington
  CHRIS STEWART, Utah                        MARCY KAPTUR, Ohio
  MARK E. AMODEI, Nevada
  EVAN H. JENKINS, West Virginia

  
  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.



               Dave LesStrang, Darren Benjamin, Betsy Bina,
                   Jaclyn Kilroy, and Kristin Richmond
                            Subcommittee Staff

                                  ____

                                  PART 6

                                                                   Page
  Department of the Interior............
                                                                      1
  Smithsonian Institution...............
                                                                    149
  Indian Health Service.................
                                                                    181
  Environmental Protection Agency.......
                                                                    243

                                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ___________

          Printed for the use of the Committee on Appropriations

                              ____________
 
                    U.S. GOVERNMENT PUBLISHING OFFICE                   

   30-666                  WASHINGTON : 2018
                            
                            
                            
                            
                            
                            
                            



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\           NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama           MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                    PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho             JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas           ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                 DAVID E. PRICE, North Carolina
  KEN CALVERT, California               LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                    SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida            BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania         BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                   TIM RYAN, Ohio
  KEVIN YODER, Kansas                   C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska            HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida             CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee     MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington     DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                  MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California          GRACE MENG, New York
  ANDY HARRIS, Maryland                 MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                  KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  <SUP>\1\}</SUP>Chairman Emeritus  
  

                   Nancy Fox, Clerk and Staff Director
                                   (ii)
                                   
                                   
                                   
                                   
                                   
                                   
                                   


  INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2019

                              ----------                         


                                         Wednesday, April 11, 2018.

                       DEPARTMENT OF THE INTERIOR

                               WITNESSES

HON. RYAN ZINKE, SECRETARY OF DEPARTMENT OF THE INTERIOR
OLIVIA BARTON FERRITER, DEPUTY ASSISTANT SECRETARY, BUDGET, FINANCE, 
    PERFORMANCE, AND ACQUISITION, DEPARTMENT OF THE INTERIOR
DENISE A. FLANAGAN, DIRECTOR, OFFICE OF BUDGET, DEPARTMENT OF THE 
    INTERIOR

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. The committee will come to order.
    Before we begin, I want to take a moment and announce that 
yesterday the Metropolitan Water District of Southern 
California voted to provide additional funds to build the Cal 
WaterFix, which I know you are aware of, Mr. Secretary. It is a 
big deal. I am happy that the project is moving forward. 
Providing consistent water supply to the people of Southern 
California has been a long-term goal of mine, and I know a lot 
of people feel the same way. So, we are making progress.
    Now on to the business of the day. This morning, I would 
like to welcome to the subcommittee the 52d Secretary of the 
Interior, Ryan Zinke. Joining the Secretary this morning is 
Olivia Ferriter, the Deputy Assistant Secretary for Budget, 
Finance, Performance, and Acquisition, as well as Denise 
Flanagan, Director, Office of Budget.
    Our hearing today will address the fiscal year 2019 budget 
priorities for the Department of the Interior. We look forward 
to you outlining your goals for the Department and discussing a 
variety of important issues with us this morning.
    We are very pleased to have recently completed work on the 
fiscal year 2018 budget. The Interior division of the omnibus 
made tremendous strides by providing over $500 million to 
address longstanding deferred maintenance needs across the 
Department's various bureaus.
    Within Indian Country, we provided funding to increase 
school construction, law enforcement, road maintenance, and 
water settlements. We allocate an additional $255 million to 
the National Park Service, with an emphasis on park operations 
and deferred maintenance. Also, we provided $530 million to 
fully fund the Payments in Lieu of Taxes, the so-called PILT 
program.
    But, as you know, Mr. Secretary, last year's challenges 
remain this year's challenges. As we approach the fiscal year 
2019 budget, we will continue addressing the maintenance 
backlog in our national parks, across the various Interior 
bureaus, meeting our legal and moral obligations throughout 
Indian Country, funding PILT, and numerous other challenges. 
This subcommittee remains committed to working with the 
Department to seek solutions to these and many other issues.
    Overall, the President's fiscal year 2019 budget request 
provides $10.6 billion in discretionary funding for the 
Department of the Interior programs under this subcommittee's 
jurisdiction, which is $2.4 billion below the fiscal year 2018 
enacted level. In fiscal year 2018, Congress clearly had some 
priorities that were not included in your budget request, and I 
suspect that may be the case again this year.
    In bipartisan fashion under both Republican and Democratic 
Chairmen, this subcommittee has made a concerted effort to 
address the greatest needs throughout Indian Country. 
Education, healthcare, and law enforcement issues continue to 
be nonpartisan subcommittee priorities, particularly those that 
are on the GAO high-risk list. We welcome your active 
involvement working with us and our American Indian and Alaskan 
Native brothers and sisters.
    Another challenge facing the Department and the 
subcommittee is the Endangered Species Act. The ESA is a well-
intended statute to save numerous species from extinction, but 
actually recovering and delisting species remain a challenge 
and an increasing source of frustration for States and many 
local communities. This frustration is demonstrated in many 
ways, including the number of ESA riders which we have had on 
our appropriation bills in recent years.
    The path forward is through partnerships in the field 
rather than as adversaries in courtrooms and hearing rooms. The 
subcommittee has heard from States and nongovernmental partners 
that are willing and able to take on larger roles under the ESA 
when the Federal Government treats them as equal partners. 
Flexibilities already inherent in the ESA make these 
partnerships possible, and the subcommittee is working on a 
bipartisan basis to foster more of them. We appreciate the Fish 
and Wildlife Service's willingness to change from within, but 
we also need your continued leadership. We need conservation 
without conflict.
    I am glad to see that the USGS budget includes full funding 
for Landsat 9 and proposes funding for domestic and critical 
minerals inventory. However, again, it proposes to eliminate 
the earthquake warning system despite the fact that the West 
Coast, and my home State of California, are counting on the 
survey to develop this technology. It is safe to say that this 
subcommittee won't agree to eliminate this program. Instead, I 
hope you will work with us to ensure that fiscal year 2018 
funding is spent effectively and appropriately and that you 
will provide the subcommittee with the data we need to make 
informed decisions for fiscal year 2019.
    Lastly, we look forward to hearing the latest on your 
proposal to reorganize the Department under a framework of 
common regional boundaries across the Department bureaus. I 
applaud your effort to identify efficiencies and reduce 
redundancies. I also want to stress the importance of seeking 
input from many stakeholders at the Federal, State, tribal, and 
local level and even Members of Congress who are affected by 
such changes.
    In closing, again this year I want to express my 
appreciation to your outstanding professional staff. Our 
subcommittee couldn't do its work without your budget shop, the 
various bureaus, and the talented people sitting next to you 
and behind you. Thanks to each of you for all that you do.
    And, with that, I am happy to yield to the gentlelady from 
Minnesota, Ms. McCollum, for any opening remarks she would like 
to make.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you, Mr. Chairman.
    Secretary Zinke, thank you for being with us this morning.
    We are here to discuss President Trump's second budget.
    Two months ago, Congress passed a bipartisan budget 
agreement to increase nondefense discretionary spending for 2 
years. Three weeks ago, the fiscal year 2018 omnibus bill was 
enacted into law with both Democratic and Republican votes. 
This omnibus sent a clear message that Congress rejects 
President Trump's reckless proposals, which would exploit our 
natural resources, starve our Federal agencies of the funding 
they need to meet their critical missions, and jeopardize a 
legacy we would leave for future generations.
    The proposed reduction of $2.5 billion for Interior is 
staggering. To me, it indicates a deliberate disregard for that 
agreement.
    It is disappointing but not surprising that worthwhile 
investments that we made across the bureaus, including the 
highest funding levels in years to address the maintenance 
backlogs in our national parks and other Federal lands, are 
being undone. President Trump's first year in office has been 
remarkably damaging to our environment, public health, and 
natural resources, and today we will discuss some of those 
damaging policies.
    The national monuments review has proven to be a sham, with 
preconceptions that benefit the fossil fuel industry. Last 
year, you said, and I quote, ``Bears Ears really isn't about 
oil and gas.'' Investigative reporting by The New York Times 
has found gaining access to oil, natural gas, and uranium 
reserves played a central role in shrinking Bears Ears by 
nearly 85 percent.
    Your staff also developed projections on coal deposits to 
justify reducing the Grand Staircase monument by 47 percent.
    The pristine and diverse ecosystems protected in the Arctic 
National Wildlife Refuge is threatened by a relentless and 
hasty pushing for drilling. This irresponsible proposal was 
pushed through in the Republican tax scam--yet another one of 
the bill's giveaways to big corporations and billionaires. And 
even the tax bill explodes the Federal deficit by nearly $2 
trillion. The revenue claimed from drilling in ANWR is totally 
unsupported by the data.
    The reckless push to mine and drill in our public lands is 
also hitting my home State, where sulfide ore mining poses a 
critical risk to the Voyageurs National Park and the Boundary 
Waters Wilderness Canoe Area. Officials in the Interior 
Department recently renewed grants to a Chilean mining company 
as a nondiscretionary right to renew two mining leases on the 
doorsteps of the country's most visited national wilderness.
    I am not even going to get into your flawed rollout of the 
5-year offshore leasing plan and how you promised to remove 
areas before the comment period was even over.
    Although the outcry on these policies has been great, the 
harm done by the Trump administration extends beyond drilling 
and mining issues. It has impacted the integrity of science, 
access to our parks, and now threatens to disrupt the entire 
Interior Department as you propose to create a new 
organizational model with no foundational analysis.
    The Department's science programs provide data and tools to 
inform sound science in making decisions to address complex 
challenges such as drought, natural disasters, and climate 
change. Scientific integrity is essential to ensure that there 
is no bias or preconceived agenda in the information issued by 
the Department.
    And I am particularly concerned that senior leadership at 
the Department requested the U.S. Geological Survey to violate 
its policies regarding USGS data.
    Furthermore, the Center for Investigative Reporting found 
the National Park Service deleted every mention of climate 
change from drafts and the long-awaited report on sea-level 
rise and storm surge. These findings contradict your March 
testimony before the Senate Energy and Natural Resources 
Committee in which you stated there were no instances when DOI 
changed even a comma in a report. You even challenged any 
member to find an altered document, and now we have that proof.
    This clear interference of political leadership is forcing 
employees to violate their scientific integrity policies, and 
it must stop.
    I am very disappointed in the way that you rolled out your 
proposal to dramatically increase the fees at the 17 national 
parks with little analysis or consideration of public access. 
Tens of thousands of Americans voiced their opposition through 
public comment periods, and, thankfully, so far, sir, you have 
listened.
    You have stated that you want to reorganize the Department 
for the next 100 years and are proposing 13 new regions. But I 
have serious concerns, and I have asked to talk to you about 
this numerous times. You are not able to share any analysis on 
the effects of the proposal. You have had no formal public 
input. You have not solicited comments from other agencies. And 
you have not conducted meaningful tribal consultation. I have 
heard this directly from the tribes.
    Mr. Secretary, you must do better.
    The department that serves the American public, that tells 
the story of America, should reflect America's diversity and 
should never marginalize minorities. In June, when you 
reassigned 33 career senior executives, almost half of them 
were minorities, 40 percent were women, 30 percent were Native 
Americans. This apparent discrimination is wrong.
    Mr. Secretary, your task is to protect, preserve, and use 
resources wisely for the benefit of the American people today 
and for future generations, and right now I personally do not 
feel you are living up to that mission.
    For the record, I want to be clear: There is a place for 
responsible resource development on our public lands. But it 
must be balanced, and it must be sustainable. I find it 
alarming that this administration continues to prioritize 
energy dominance and profits for the fossil fuel industry over 
the protection of our national treasures, conservation of our 
natural habitat, and our responsibilities to the American 
people. This budget is unacceptable.
    But, Mr. Chairman, I am pledging to work with you to ensure 
that the Department of the Interior has the necessary funding 
so that all Americans can continue to enter into our natural 
lands and our cultural resources for today and for future 
generations.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you, and I appreciate your testimony.
    And next we are joined today by our distinguished chairman 
of the full committee, Chairman Frelinghuysen, and thank him 
for taking the time to contribute to this important 
conversation.

               Opening Remarks of Chairman Frelinghuysen

    The Chairman. Well, thank you.
    Mr. Calvert. Mr. Chairman, you are welcome.
    The Chairman. Thank you, Mr. Chairman, for the time. I want 
to thank you and Mrs. Lowey on my behalf for your leadership of 
this important committee.
    And, of course, I also welcome our Secretary of the 
Interior, Ryan Zinke, a former Member and colleague, back. We 
welcome your testimony and hearing your frank and candid views 
on many issues.
    As I say at every meeting, the power of the purse resides 
here on the Hill. We have done, through your leadership, Mr. 
Chairman, and Ms. McCollum's, good work for the 2018 budget. As 
well, we can anticipate the same type of devotion of you and 
your staff and your committee towards the 2019 product.
    When I travel across the 11th Congressional District in New 
Jersey, the Department of the Interior's strong presence cannot 
be missed. We have two national historic parks--actually, the 
oldest in the country, established in my hometown in 1933, 
called the Morristown National Historical Park. We also have 
the Thomas Edison National Historical Park in West Orange. 
Additionally, we have the National Wildlife Refuge System's 
Great Swamp Wildlife Refuge, which--let this fact be known--was 
established by my father when he was a Member of Congress.
    There is no conflict in our neck of the woods about the job 
that the Department of the Interior is doing. There may be 
conflict in the West, but in our neck of the woods, Mr. 
Secretary, we hold the people who work for the Department of 
the Interior in high regard. I just want you to know that.
    And may I say, I am concerned that there are cuts across 
the Park Service and particularly in the area of Fish and 
Wildlife. I, personally, will be taking a very close look at 
that. Hopefully, the committee will as well.
    Lastly, I would say, apropos of some of the remarks that 
have been given, New Jersey has a shoreline of about 127 miles. 
All members of our congressional delegation have opposed, 
historically, for the last 20 or 30 years, offshore drilling. I 
understand the administration may have contrary views, but I 
hope that in the coming weeks and perhaps with the benefit of 
your testimony this morning that you recognize, obviously, the 
concerns that many of us have on the East Coast of the United 
States, that we don't want oil drilling in our neck of the 
woods.
     Mr. Chairman, I will yield back the balance of my time.
    Mr. Calvert. I thank the gentleman.
    I am also pleased to see the ranking member of the full 
committee, Mrs. Lowey, is here today. I am happy to yield the 
gentlelady her time.

                     Opening Remarks of Mrs. Lowey

    Mrs. Lowey. Thank you, Mr. Chairman.
    I would like to thank Chairman Calvert and Ranking Member 
McCollum for holding this hearing. And I welcome Secretary 
Zinke before the subcommittee.
    Secretary Zinke, it has been a little over a year since you 
took your oath of office. Despite your testimony last year 
indicating a commitment to preserving America's public lands 
for generations to come, your actions have strayed from that 
promise.
    Under your leadership, the Department of the Interior has 
brushed off expressed opposition from Native Americans in order 
to reduce the size of two important national monuments, Bears 
Ears and Grand Staircase-Escalante; proposed drilling in the 
Arctic National Wildlife Refuge and in Atlantic waters; 
weakened protections for endangered species; proposed to 
significantly raise entrance fees at national parks, which I am 
thankful you are reconsidering; and worked to unravel 
environmental protections and important steps to combat climate 
change.
    If funding must be cut so severely that we jeopardize our 
environment, conservation efforts, and the accessibility of our 
National Parks, some of our most precious resources, then I 
expect that the same would be true of your travel arrangements 
and the accoutrements in which you surround yourself. Doors 
costing $139,000, about which you did not notify this 
committee, in contravention of section 710 of the Financial 
Services and General Government Appropriations bill, and 
extravagant trips have violated trust with this institution and 
with American taxpayers.
    I am disappointed that your budget reflects a continued 
adherence to your misguided priorities. For instance, some of 
your actions, like flying a flag when present at the Department 
or handing out commemorative coins with your name on them, 
indicate that perhaps your ego has gotten in the way of doing 
the business of the people.
    The fiscal year 2019 budget proposes a reduction of $2.5 
billion to your department, a 19-percent reduction from the 
fiscal year 2018 omnibus. This second Trump administration 
budget would eliminate several programs of importance, such as 
the National Heritage Areas in your Interior budget as well as 
the National Endowments for the Arts and Humanities and the 
Woodrow Wilson Center.
    I certainly could go on to list the many aspects of your 
budget that value political agenda and mismanagement above the 
interest of the taxpayers, but my time is limited.
    With that, I look forward to your testimony.
    Mr. Calvert. I thank the gentlelady for her testimony.
    And, with that, Mr. Secretary, you may proceed with your 
opening statement.

                   Opening Remarks of Secretary Zinke

    Secretary Zinke. Well, I thank you, Mr. Chairman, Ranking 
Members, even though the openings were false and misleading and 
blatantly untruthful.
    Having said that, thank you for the opportunity to testify 
in support of President Trump's fiscal year 2019 budget for 
Department of the Interior.
    With your permission, I would like to make my entire 
opening statement for the record.
    Mr. Calvert. Without objection.
    Secretary Zinke. The President has made it clear about his 
priorities and is keeping his promises to the American people.
    This budget supports one of those promises in a big way: 
rebuilding our infrastructure. It calls for the largest 
investment in public lands infrastructure in American history. 
And I will repeat that. It calls for the largest investment in 
public lands infrastructure in American history.
    Our public lands, we agree, are our greatest treasures. 
They have suffered serious neglect over the years, and 
Interior's deferred maintenance backlog is $16 billion. And 
$11.6 billion of that belongs in the National Park Service, and 
I can give you 11.6 billion reasons why Congress has not been 
able to fix it.
    The President's budget proposes legislation for a new 
Public Lands Infrastructure Fund to address the deferred 
maintenance problem. This legislation is our top priority. The 
Fund would provide up to $18 billion over 10 years for 
maintenance and improvements in our national parks, our 
national wildlife refuges, and Bureau of Indian Education-
funded schools.
    It would be funded from energy revenues, all energy 
revenues, on public lands, similar to the Land and Conservation 
Fund. I repeat: all energy, across the board. I believe it is a 
fair proposition to say if you are going to gain wealth from 
energy development on public lands, the public lands should in 
fact be preserved and protected from those activities.
    In 2006, 330 million visitors to our parks spent an 
estimated $18.4 billion in local regions nationwide, supporting 
about 318,000 jobs. Clearly, recreation trends are up. All 
Americans should have the opportunity to enjoy our national 
parks, but we need to invest in our infrastructure to go along 
with our record-setting numbers. Quite frankly, many of our 
parks are being loved to death.
    The Public Lands Infrastructure Fund would also support 150 
Bureau of Education schools in 23 States, where the school 
maintenance backlog is about $634 million. Some 48,000 American 
Indian students and their families rely on the Interior to 
deliver a quality education in a safe work environment, but our 
schools are notoriously in poor condition. American Indian 
children deserve a world-class education too.
    This budget also presents the opportunity to reorganize the 
Department for the next 100 years. I look forward to going into 
that in some detail. The budget includes $18 million to shift 
resources to the field and establish unified regional 
boundaries for Interior's bureaus.
    In planning for this reorganization, we continue to take 
into account feedback from Congressional Members, Governors, 
and Interior employees, conservation groups, and all 
stakeholders. We are basing these new boundaries on science, to 
include such things as watersheds, wildlife corridors, 
ecosystems, so we can better manage our public lands and waters 
in a more coordinated way based on the American conservation 
ethic of best science, best practice, greatest good, longest 
term.
    This budget also recognizes American strength relies on 
American energy. Under President Trump, we are pursuing energy 
dominance. Today, I am happy to report this country is 
producing about 10.6 million barrels a day. First time in 60 
years, we are a net exporter of liquid natural gas. We are soon 
to become the largest oil and natural gas producer in the 
world.
    This budget requests a $43 million increase for American 
energy development to continue our revenue growth from 
production. President Trump's tax cuts and smart regulation are 
helping to grow the economy and increase our energy portfolios 
so we can achieve American prosperity.
    Our total budget request for fiscal year 2019 is $11.7 
billion. This budget clearly lays out the Administration's top 
priorities of strongly supporting the American people and 
rebuilding our infrastructure, fixing our schools, achieving 
energy dominance, and being fiscally responsible. I remind you 
that the budget deficit is about $1 trillion this year.
    With that, thank you for your continued support of the 
Department. I appreciate your hard work. And I appreciate a 
cordial and fruitful discussion with all members.
    [The statement of Secretary Zinke follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
                             REORGANIZATION

    Mr. Calvert. Well, I thank the gentleman for coming here 
today. We have a number of things that we would like to 
discuss.
    Last September, the Department unveiled a reorganization 
proposal that you mentioned in your opening testimony. You 
contemplated establishing common regional office boundaries 
across the Department of the Interior bureaus. As I understand 
it, your goal is to improve coordination and decisionmaking 
among the Department's bureaus.
    I applaud your efforts to identify efficiencies and reduce 
redundancies within the Department. I also want to stress the 
importance of seeking input and providing feedback from those 
that are potentially affected. People would like to hear from 
you about all of this, both from the Federal, State, tribal, 
and local level, as this moves forward.
    Can you update the subcommittee on the present status of 
your efforts to reorganize the Department? And what specific 
goals or outcomes are you seeking to achieve?
    Secretary Zinke. Well, thank you.
    Imagine an Interior Department organization that hasn't 
been reorganized in 150 years. Welcome to Interior.
    Let me explain one of the problems. Let's say you have a 
trout and a salmon in the same stream. Let's say upstream you 
have a dam, downstream you have irrigation, and if that stream 
passes by a U.S. Forest Service holding.
    At present, this is how we are managing it: The salmon are 
managed by Department of Commerce through NMFS. The trout are 
managed by the Fish and Wildlife Service. Upstream, water 
temperature and flow is often the Army Corps of Engineers, 
although it sometimes can be Bureau of Reclamation, depending 
on the dam. Downstream, irrigation is generally Bureau of 
Reclamation. When it passes a Forest Service holding, the 
surface is Department of Agriculture through U.S. Forest 
Service. Subsurface is BLM through me.
    Same stream, same activity. You can have multiple 
biological opinions produced by different bureaus with 
different missions, independently produced, and two or three of 
them are going to be in conflict.
    The chart you have is presently how Interior is managed. 
Looking at that, I challenge you to figure out how Interior can 
get things done currently.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Secretary Zinke. So this is what we did. We asked USGS to 
strip current boundaries and go by science to look at things 
like watersheds, wildlife corridors, and holdings, based on 
science. They had about 13 different variables. Then we took 
the pure science and we brought in our senior SES, our senior 
civil career professionals, and they murder-boarded it, and 
they made recommendations.
    Even though I didn't agree with every recommendation, I 
took every recommendation, and we came with--next slide, 
please--we came up with unified boundaries. There are 13. They 
are similar in some cases to State lines, but mostly they 
follow a watershed line.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
      
    Secretary Zinke. Within those new boundaries, they are 
unified so Fish and Wildlife and National Parks and Bureau of 
Reclamation can be in the same geographical units. Then we are 
focusing on three areas: recreation, NEPA, and permitting. It 
is our intent to do those jointly.
    Recreation is an $887 billion industry. And things like 
trail systems, bike systems should connect. We should have a 
system that is supporting and in harmony with recreation, 
rather than just doing it by isolated assets. Similarly, with 
permitting, you have to have all stakeholders at the table. And 
NEPA is similar. We need all stakeholders.
    So where we are in the process is we looked at our current 
problem, we identified that we needed to be more joint in these 
decisions. Then, on the basis of science, USGS developed the 13 
regions. Then we had the SES review of that. We brought the 
Governors in. A Governors' concern was BLM. We decided we are 
going to keep the State directors for the BLM because that is 
an important relationship.
    I have talked to Simon Roosevelt and Gifford Pinchot III, 
and we are having a roundtable of conservationists take a look 
at it. We want to do it right, and we want to make sure we 
coordinate with you before we go forward on it.
    This is where we sit currently. It is 13 regions. Just 
trying to unify our regions. This is not a new idea. We fight 
forest fires jointly. Certainly the United States military 
overseas conducts its operations in a joint manner. There is no 
reason why Interior can't move to this model.

                              CONSULTATION

    Mr. Calvert. Before I move on to the ranking member, is the 
Department engaged in any substantive consultation with 
Governors, tribes, and State and local officials affected by 
this reorganization?
    Secretary Zinke. We are.
    And the tribal nations, they are sovereign. We are 
beginning consultation, and whether or not they adopt this 
model is really up to them. I have always said that I believe 
the nations are sovereign, and it is a partnership, it is a 
relationship.
    I think it is to their advantage to join, especially in 
recreation, NEPA, and permitting. But we will enter a 
consultation, and whether or not BIA--which is unique in 
Interior, because BIA is the people department, unlike some of 
our other departments that manage lands or wildlife, the people 
department. It is yet undetermined whether or not they will be 
incorporated into that.
    Mr. Calvert. I want to make sure we get feedback from the 
tribes and other constituencies, especially the tribes, because 
I have heard from a few that feel that they are not part of the 
process. So I have your assurance that they will be and that 
you are going to stay in touch with them?
    Secretary Zinke. And, again, whether or not the BIA gets 
incorporated into this model will be up to the results of the 
consultations and the nations.
    Mr. Calvert. I am looking at this map real quick. The 
Navajo Tribe, for instance, moves over to several of these 
proposed basins. Those issues will make it more complex.
    But, with that, Ms. McCollum.

                             REORGANIZATION

    Ms. McCollum. I do have some questions on reprogramming. I 
am just going to make a point to say that when we talked in 
December, I said I would like to have someone come in and brief 
me and talk to me about this. I have been available. And I 
guess maybe we can finally do it now that I have a map in my 
hand for the first time.
    But I just want to make one comment before I go to the 
question that I want to get to. Being from one of the Great 
Lakes States, knowing how the Governors from the Great Lakes 
work together and knowing how all the water districts work 
together up there and the tribes work together under the Great 
Lakes region, I am baffled a little bit by this draft map 
breaking up the Great Lakes the way it does. But we can get 
into that in more detail later.

                             REPROGRAMMING

    I wanted to talk about direct spending and reprogramming. 
Congress has provided significant increases to the Department 
in the fiscal year 2018 bill. A statement that accompanies the 
bill provides direction on how the Department is supposed to 
spend the money.
    So I would like you to comment on the way that you are 
going to adhere to the directives in the explanatory statement. 
Will you ensure that appropriate programs receive the funding 
levels that had been congressionally directed?
    We have also included extensive direction about 
reprogramming requirements and stated our intention to include 
the bill language in fiscal year 2019. Are you familiar as of 
today of what these requirements are? And will you commit to 
working with the committee to develop language in order to 
avoid any barriers to implementation?
    Secretary Zinke. Well, you know, I follow the law. We had a 
conversation about a grant process. I have a stack of IG 
reports on my desk about grants. The intent of Congress should 
be followed on distribution of grants. But I also have an 
obligation to make sure, when the grants are given, that we 
follow up to ensure money was actually spent delivering on 
congressional intent, and we follow up on it. In a lot of 
cases, we have not followed up on grants. As well as, the grant 
process, there were some deep and very concerning conflicts of 
interest with how grants were awarded. I will share the IG 
reports on it. So we have changed the process.
    The other thing on grants, particularly with the climate-
change grants we talked about, is they are not asking for the 
grants until we get funded. What we needed to do--and we have 
taken the process of pre-clearing those, so when they get 
funding, those grants can be actually executed. What was 
occurring is the grants were not being submitted to the 
headquarters until we had funding, and then all of a sudden, 
you know, the process--everything was being held up. We have 
reversed that trend. If they are pre-approved and in the 
priority of the congressional intent, then we should be able to 
get them out.
    It is not my job to dismantle congressional intent. It is 
my job to execute congressional intent. And if we have any 
questions, that is where a dialogue comes back and forth.

                               MONUMENTS

    Also, I might mention about Bears Ears. I am a geologist. I 
can assure you oil and gas in Bears Ears was not part of my 
decision matrix. A geologist will tell you there is little, if 
any, oil and gas. There is no proposal that I have seen to mine 
uranium in the former area of Bears Ears. The geology is clear 
on that.

                                 TRAVEL

    I won't go into line by line of some of the other comments, 
but--I certainly can. I am willing to discuss anything with 
you. I can assure you, I follow the law. I look at best 
practices. I make sure every time we look at things--on my 
travel schedule, by the way, you will find--and the report is 
coming up--that I followed every law, regulation, procedure, 
policy across the board. Every time I travel, it is reviewed by 
career ethics officials and approved prior. It is approved and 
looked at by legal folks.
    The previous Secretary, for instance, on travel, took 80 
trips, over $1 million. And Sally Jewell, whether she took 
commercial or charter planes to hike, you know what? She was 
approved to do that, because hiking in some of our areas is 
exactly what a Secretary should do.
    I took three trips for $17,000, and it was the only 
available transportation available--only transportation 
available to meet the schedule.
    I understand we live in a political environment, back and 
forth, but on every case I follow the exact policy, regulation, 
and procedure.
    Ms. McCollum. Mr. Chair, that was not my question. Is this 
counting against my time?
    Mr. Calvert. I will not count it against your time.
    Ms. McCollum. Thanks, Mr. Chairman.
    In fairness so everybody gets to ask a question, I hope we 
have a second round, because I would like to get more into a 
couple other issues. Thank you.
    Mr. Calvert. OK. Thank you.
    Mr. Amodei.
    Mr. Amodei. Thank you, Mr. Chairman.
    Mr. Secretary, first of all, I want to thank you for kind 
of acting as a life coach during a lonely 2 hours in the Salt 
Lake airport a few months ago when I expressed some frustration 
with the general state of affairs in my life--of course, not 
yours. But anyhow. So I want to publicly say thank you for 
helping a non-Navy guy out, for a former Army JAG. I appreciate 
that.
    And having said that, I also want to say thank you for 
being responsive in terms of hooking me up with Mr. Tanner. 
Although he is from Utah, he has been a very able guy, and I 
have enjoyed the exchange we have had.
    I have enjoyed the fact that I had a chance to visit with 
Ms. Combs in your office recently to talk about the 
reorganization stuff.

                             REORGANIZATION

    And I heard you say again today, so I won't say anything 
else about it--I am happy to hear that we are talking about the 
importance of BLM State directors. And so we will leave it at 
that.
    You know, as I listen to the chairman of the whole 
committee talk about the importance of what is going on in New 
Jersey--and that is very important--and other parts around the 
Nation, I do feel an obligation to go, well, with all due 
respect, one of your bureaus, the Bureau of Land Management, 
owns the equivalent of about 25 or 30 New Jerseys in my State.
    And I say that to say that the mission of the Bureau in my 
State is phenomenally important because the jurisdiction that 
your folks have there is about seven times that of the 
Governor, the legislature, every county commission, and every 
city council. So those people are very, very important when we 
talk about multiple use and land management for basically 
everything they do in their mission except probably timber, 
although we do have trees in Nevada, and offshore issues 
because we don't have any coastline.

                               BLM BUDGET

    So, having said that, I would like to ask for an 
opportunity, obviously not during this hearing, to get with Ms. 
Ferriter and talk about the need for--because we have done some 
work in terms of what staffing looked like a decade ago, what 
it looks like now, most of which was not during your tenure. 
But it is like, hey, it is important that, to the extent we 
have budgeted positions, to do things on the non-fire side of 
the house. And I am not a guy who says more money is the answer 
to everything, but it is like, if we need personnel to do the 
mission, then I think that is the statement.
    So I want to get a little deeper, obviously not in this 
hearing, into how that looks in terms of regular operations of 
the Bureau in Nevada. So how that looks with what we did with 
the Omni as a starting point, and then what we are talking 
about doing with this year's--although I know when it gets to 
the Senate that that is a different planet, and I will just 
leave that at that.
    But, having said that, I really want to sit down and go, 
hey, so how do we--so, quite frankly, if there are four real 
estate positions in western Nevada, that those are filled and 
that those people are doing their job. Nobody leave the room 
and said that I expect the Bureau to give everybody a yes or 
something like that, but we do expect realistic timeframes when 
you talk about fulfilling the mission.

              SOUTHERN NEVADA PUBLIC LANDS MANAGEMENT ACT

    And I notice in your statement that you have a reference to 
SNPLMA and doing some stuff with some of those funds. And I 
will just join in the chairman's comments about another program 
that, while I am all for looking at everything, I am probably 
going to urge that the committee not to strip the SNPLMA funds 
out of the account because they are unobligated. And I know 
that will come as a shock to your staff and everything else.

                        OFFICE OF THE SOLICITOR

    The final thing I would like to do is I would like to get 
together and speak with your appropriate folks, and maybe that 
is the Under Secretary, but, quite frankly, I have a concern 
about solicitor operations in my State. Because, quite frankly, 
the solicitor isn't in my State. And so, no offense to the 
chairman here, who lives in the Golden State, but you know 
what? Having a solicitor in Sacramento making decisions that 
affect Las Vegas, Elko, Winnemucca, that have to interpret 
Nevada water law, sometimes that kind of gets left out.
    And so, while I appreciate the value of legal advice, being 
a recovering lawyer myself, I just have a concern about, quite 
frankly, that there is a lot of district managers going, oh, 
the solicitor and whatever said this and so end of discussion. 
And then I end up calling up Mr. Steed or somebody else like 
that to say, hey, can we have somebody take a 360-degree look?
    So, with that, I will make it real hard on you. Do you have 
any objection to me borrowing Ms. Ferriter or discussing with 
your folks the solicitor stuff?
    And if you don't, I will yield back, Mr. Chairman.
    Mr. Calvert. I thank the gentleman--as a matter of fact, 
all three of you.
    Secretary Zinke. No, I don't have any objection to any 
member of this committee, both sides, you know, fully engaging 
the staff on issues. Up front, I don't know all the answers. I 
have really good people around me that work hard, and we will 
get there.
    But, as a former Member, I think it is important that we do 
have a dialogue. Even though we may agree or disagree, we 
shouldn't agree to disagree, and that we should be cordial and 
we should work for common goals. I don't think there is anyone 
on this committee that doesn't love public lands. I don't think 
there is anyone on this committee that doesn't want to see 
better management of public lands, long term, greatest good.
    With that, your comment was, just to answer real shortly, 
we are short in the field. Every time I go out, we are too 
short in the field, we are too long in the headquarters. The 
decisions, a lot of times, are made in D.C., which don't 
reflect local priorities. Asian carp, for instance, if you are 
in the Michigan watershed area, Asian carp is a big deal. So is 
zebra mussels. Not so much in D.C.

                             REORGANIZATION

    Part of the idea about the reorganization is to go based on 
science and the watersheds as a baseline, wildlife corridors, 
and try to push those important decisions and the priority down 
within different regions so things like Asian carp can be 
addressed, as important as it is, within these new unified 
regions.
    When you had the fish and the trout scenario--and every 
bureau has different priorities and is structurally different. 
We need to get the stakeholders working jointly, I think, in 
the three areas--recreation, NEPA, and permitting--so we can 
make better positions sooner.
    Mr. Calvert. Thank you.
    Ms. Pingree.

                          OFFSHORE DEVELOPMENT

    Ms. Pingree. Thank you, Mr. Chair.
    Thank you very much, Mr. Secretary, for being with us 
today. And in the spirit of friendliness, I think I mentioned 
to you once that my first visit to Montana was the Bob Marshall 
Wilderness. I went on a pack trip. And the thing that struck me 
was the similarities between our State, even though you have 
mountains and, where you are landlocked, we have oceans. I do 
think you bring a perspective of a rural State and some of the 
same concerns. I think we have a lot of similarities within our 
natural resource space and other issues.
    But I want to focus my question on the thing you don't have 
in Montana, which is offshore oil drilling.
    So I sent a letter, along with the Democrats on the 
committee--I am happy to give you another copy of it--and that 
was just to ask you to explain a little more about the process 
that we are going through to do this. We have had enormous 
concerns from our constituents about the possibilities of doing 
this.
    When you made the announcement, it seemed as though it was 
somewhat arbitrary, given how many States raised concerns. You 
heard the chair of Appropriations this morning on the 
Republican side talk about the concerns in New Jersey. 
Certainly we have had a decades-old ban on doing this, and 
there are good reasons for that.
    In my State, people think the science is clear, and they 
are very worried about the economic impact. Tourism is the 
largest industry in Maine, $5.6 billion, 71 percent of which 
comes from our coast. Fishing is a very important part of our 
culture, our history. Lobster fishing alone brings in $500 
million. Our fishermen are up in arms about this possible idea 
and the potential damage that could be done with offshore oil 
drilling and any danger that comes with that.
    We are concerned about the process. We did have a visit 
from the Bureau of Ocean Energy Management to Maine. While many 
of my constituents had planned and hoped that they could speak 
in a public hearing--these were fishermen, these were small-
business owners who wanted to come forward and say what was on 
their mind--the format was very different. I appreciate your 
department explaining that to me, but, really, it was more of a 
one-on-one. You could visit a booth, you could talk to somebody 
about it, but you really couldn't register your public 
complaint. I think this has been very upsetting to people in 
Maine.
    So I wanted to know a little more about this decisionmaking 
process. I know you have said at times we have a Governor who 
has been favorable towards this. He won't be the Governor, 
because of term limits, after the end of this year. And our 
legislature voted very strongly to oppose this. Our entire 
congressional delegation--Republicans, Democrats, and 
independents--are opposed to this.
    We were shocked to see that you would exempt Florida. Even 
though many Mainers spend their winter in Florida and we don't 
want them to have an oil spill either, the fact is that was 
kind of an arbitrary decision and very upsetting to most of the 
other Atlantic States.
    I am happy to pass along that letter to you, give you the 
resolution that our legislature passed in opposition. But can 
you tell me a little bit more about the process?
    Secretary Zinke. Absolutely.
    Ms. Pingree. And, frankly, why did you exempt Florida and 
not us? We deserve it more.
    Secretary Zinke. Florida is not exempt, because they are 
still going through the process. Let me explain what we did.
    If you go back to 2008, Interior made about $18 billion a 
year just in oil and gas. When I came in office, we made $2.6 
billion. We dropped $15 billion in revenue a year. On scale, 
that would have covered our entire backlog of maintenance in 
the three primary areas.
    It was a decision of mine, rather than looking at 94 
percent taken off, I said, let's do a zero-based budget and 
let's put everything on, and let's have a discussion as 
Americans and about priorities and the importance of oil and 
gas.
    Now, having said that, it is interesting that, clearly on 
the East Coast, what we are seeing--and I have talked to your 
Governor and Georgia's. Both of them are either favorable or 
neutral. The rest of the Governors are opposed.
    But also the oil and gas revenues--for instance, in Maine, 
there isn't any oil and gas, really, of significance. The only 
play, really, is called the mid-Atlantic. It starts in northern 
Georgia and kind of goes up to Virginia. It is some distance 
off the coast, as far as about 70 miles. We think it is a gas 
play. We don't really have a lot of geologic definity on it.
    What is also happening is there is no doubt drilling 
offshore is more risky than onshore. What we are seeing as a 
country is investments are moving onshore to the Permian 
because it is not as risky and, also, there is no 
infrastructure offshore. Unlike the Gulf Coast, there is no 
sub-sea infrastructure. Were we to begin an offshore oil and 
gas play on the East Coast, you would have to start from 
scratch.
    The other thing, States matter. The local voice matters, 
you matter, and the Governor matters. As we go through, we are 
shaping our plan to make sure we accommodate local voices. 
Fishermen matter. And fishermen aren't very happy about wind 
either. I just was up announcing some fairly large and 
significant wind leases off the coast. We want to make sure the 
stakeholders--and when we do our wind, for instance, same 
thing, is we want to make sure we design the fields so we don't 
negatively impact our fishing fleets.
    We are going through the process. I committed in Florida--
and Florida is different. They have a moratorium in place, a 
Federal moratorium, that prevents oil and gas activities. 
Looking at both parties, every Member and the Governor asked me 
for a meeting. I committed no new oil and gas platforms off the 
coast of Oregon. What was driving it is every Member, both 
sides, where the oil and gas resources are, asked for an 
immediate meeting. You would have thought that I would have 
been applauded by the Democrats on that side, but they--
somehow, they agreed with the policy, they didn't agree with 
how I did it. They are still going through the process.
    Again, it is not a rule; this is a plan. We are trying to 
get the first draft out in the fall.
    Again, in the State of Maine, most of the areas, A, you 
don't have resources off the coast; B, you don't have 
infrastructure in place; and, C, most of the districts along 
the coast and communities are not in favor of oil and gas, 
while most of them are in favor of wind, as long as they don't 
see it. So wind has to be over the horizon. There is less 
opposition to gas. But, quite frankly, we don't have the data, 
in particular.
    The last thing about seismic is seismic is also required 
for wind. Seismic is also, in some cases, required for going 
out and mining for sand, for reclamation. And mining the sand 
off the coast, which we do an enormous amount of mining, is far 
more destructive than any seismic.
    We have to be careful about saying we don't want science 
and the best possible technology to look at what is there. Same 
thing with wind, you have to make sure when you augur these 
platforms in that you are on stable ground, or, if you should 
mine, making sure we look at the environmental effects.
    That is where we are. We will get you the draft as soon as 
we get done. We are taking public comment. I think I know 
exactly where everyone sits, on both coasts.
    Ms. Pingree. Well, thank you for the followup. I certainly 
will look forward to seeing the draft. I think you, in fact, 
made a lot of good arguments about why Maine should be 
exempted. Perhaps you could commit to, after this next election 
cycle, if I am lucky enough to be here--and our State will have 
a different Governor. If we are all on the same page, maybe you 
can meet with us, we will have everyone aligned, and you can 
say, ``Oh, well, Maine shouldn't have it either,'' and just get 
this off the table sooner rather than later.
    Secretary Zinke. I am sure Maine is going to be very happy 
with the draft proposal.
    Ms. Pingree. Well, thank you.
    Mr. Calvert. Mr. Jenkins.
    Mr. Jenkins. Great. Thank you, Mr. Chairman.
    And good to see you, Mr. Secretary. Great to be part of 
your class of 2014, and you have done well. Appreciate you.
    A couple of quick questions.

                           AML PILOT PROGRAM

    One, I just wanted to sensitize you to something that 
Chairman Calvert, Chairman Rogers, and I have been very 
involved with, and that is the AML pilot program. We, in the 
omni, re-upped for a third year of that. And I just wanted to 
share with you the positive things that are happening in West 
Virginia--I am sure Chairman Rogers could do the same from 
Kentucky--of how this program is working. This is taking 
previous AML properties, and using funds to make connections to 
economic development possibilities.
    Just the one, kind of, seed. When, at the State level, 
these AML projects are identified, approved, meet the criteria, 
they do go back up the food chain, get reviewed in Washington, 
and we still don't quite have the timeliness and turnaround 
that I think we ought to be able to achieve. So I would like to 
work with your AML folks, OSM office, to try to expedite. 
Because that was the intent, was to get these funds dispensed 
quickly and these projects out in the field.

                           KING COAL HIGHWAY

    The second I would like your assistance on, and first with 
a compliment. King Coal Highway, my philosophy: As go the 
roads, so go the jobs. And the King Coal project, which was 
taking actively mined out property, leaving the roadbed, and 
then being able to come in at a significantly reduced amount of 
cost to the taxpayers, building roads. And this project has 
been held in abeyance for almost 10 years because of regulatory 
red tape. And thanks to President Trump, thanks to this 
administration cutting through the red tape, and, in 
particular, thank you to the EPA, we have been able to clear an 
important hurdle to get this project on the road to being 
constructed.
    But we still have a Fish and Wildlife Service issue that 
has cropped up. So really just wanted to plant the seed. Once 
again, thank you for the work that has been done. I think we 
are heading in the right direction. But we still have some 
bumps in the road, and we would like to work with you, your 
appropriate staff, to address these hurdles that still need to 
be cleared.
    I am really excited, the people of West Virginia are 
excited about the administration's very clear directive. We are 
going to cut through red tape, we are going to cut down 
burdensome regulations, we are going to get projects moving 
forward. And we have seen that already, but we just want to 
keep the foot on the pedal.
    And there are still some opportunities, I think, whether it 
be OSM and the AML pilot program or Fish and Wildlife relating 
to King Coal, and would like to work with your folks on that.
    Secretary Zinke. I am absolutely committed. I have some 
good news. Fish and Wildlife recently did finish a consulting 
on a segment in 2 days. That was light speed for government.
    But on the----
    Mr. Jenkins. So we could have this by Thursday or Friday of 
this week? This is great.
    Secretary Zinke. But, some of it is structural, you know, 
on the fish and salmon, about a regulatory framework. The goal 
is to make sure we maintain accountability and oversight but 
make the decisions sooner, one way or another, yes or no, on 
projects.
    When you have multiple agencies and independently produced 
biological opinions, sequentially, that is why we are seeing a 
simple replacement of a bridge and sometimes it is 17 years.
    Mr. Jenkins. Yeah.
    Secretary Zinke. If we work together, we can do it better.
    Then we have to figure out a way to incorporate innovation 
into our regulatory framework. Because, a lot of times I think 
everyone's goal is to improve safety, reliability, 
accountability, environmental stewardship, but sometimes the 
government regulatory framework doesn't work, when new 
techniques, new science, new innovation will save time, cost. 
We have to look at being flexible enough on our regulatory 
framework to allow innovation into that framework so we can 
move smartly in a responsible manner.

                             SUE AND SETTLE

    Mr. Jenkins. Just one final comment. When you mention the 
OIG, you referenced a stack of reports on your desk. Your staff 
shared a three-ring binder.
    A year ago before this committee and then subsequent 
discussions--and I just wanted to give you a quick minute, to 
the extent you are publicly willing, to address it. I wanted to 
thank you publicly, because I do believe we have, 
unfortunately, a past practice under Interior and the EPA, in 
particular, sue and settle; third-party groups that had maybe 
nudging from EPA and others to do certain things; taxpayer 
dollars being misused to drive an ideological agenda.
    And to the extent you are able to discuss today--and I am 
looking forward to looking at the OIG reports. With this year 
under your belt, I know you were committed to fettering out 
some of the abuses and the mistrust of the taxpayer dollars 
that has occurred in the prior administration. What has the OIG 
been able to find, and what are you able to share?
    Secretary Zinke. I would say there were three areas. There 
was sue and settle, which a regulation will be put in place. It 
would invite a lawsuit; the lawsuit would be settled, both 
monetary and then a regulatory fix, without going through the 
process of regulation. Compensatory mitigation, where, in order 
to get a permit, you would have to in some cases almost be 
extorted to do it.
    There is a case right down the road here about a power 
company that wanted to put a power line in. The Park Service 
opposed it. In order to get the permit, they had to deliver $90 
million to a few 501(c)(3)s for the idea that somehow this 
power line, which--I did an aerial survey, I looked at it. The 
power line itself, yes, could be seen if you walked off the 
path and you went in a far little area. The power line crossed 
the Captain Smith Trail, which is on the James River. But, of 
course, the power line could be seen for a little bit of an 
area, but, then, so could the power plant itself and Busch 
Gardens and the Navy derelict fleet. In order to get the 
permit, they had to pay about $90 million. And no question that 
it upset people.

                                 GRANTS

    Then some of the grants. Grants has not just been the 
problem of the previous administration. It is a long-going 
problem that we didn't have proper procedures to make sure that 
conflict of interest wouldn't happen, that if your wife is a 
grantee, that there is a process. With the conservation 
community, there are lot of husbands and wives that work in 
that area. And that is fine. But if you do have a conflict of 
interest, like in the Congress, you should identify it and make 
sure you are not part of making that decision.
    We put processes in place to make sure that didn't happen, 
and I am confident we are going to get better. But we also need 
to make sure we exercise funds upon congressional intent. I 
don't want to hold funds. It is your decision as a Congress to 
fund. It is my decision to execute those funding lines.
    Mr. Jenkins. Thank you, Mr. Secretary.
    I yield back.
    Mr. Calvert. Thank you.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Chairman.
    And thanks, Mr. Secretary, for being with us. I have got 
three topics I am going to try to cover super fast.

                          OFFSHORE DEVELOPMENT

    First, along the lines of what Ms. Pingree was asking 
about, I had a bunch of townhalls last week in my district. The 
issue of offshore drilling came up a bunch.
    I know you testified in front of Senator Cantwell's 
committee and you are keenly aware of the broad opposition to 
Washington State's inclusion in the plan. You know, obviously, 
we have got fisheries and shellfish growing and marine tourism 
and shipping, all of which are really fundamental to our 
economy and are largely incompatible with oil and gas 
development.
    We have a letter that is actually both bicameral and 
bipartisan outlining the concerns from our region. I have got a 
copy of it. And with the chair's and the ranking member's 
permission, I would love to submit it for the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Mr. Kilmer. I know that you told Senator Cantwell you were 
going to mark Washington State down as opposed to drilling. So 
I am hoping I can ask you today if you are prepared to announce 
that you will withdraw our State from consideration, as you 
have done with Florida.
    And, if not, given the near universal opposition to 
drilling off Washington's coast, what is preventing the 
Department from making that determination? Has anybody 
expressed an interest in drilling off of our coast?
    Secretary Zinke. Putting everything on, and if I would have 
left Florida off in the beginning it would have been arbitrary 
and capricious. Again, this is the plan and not the rule. 
Everyone is in the process.
    Washington. There are little or no resources of oil and gas 
off the coast of Oregon or Washington. There is no 
infrastructure to support an oil and gas industry off the coast 
of Oregon or Washington. There is, I would say, passionate 
opposition to do so.
    In the case of Washington with the coal terminals, 
Washington itself has enormous leverage as a State. I have 
talked to your Governor. But because Washington has the first, 
I think, 3 or 4 miles is State waters, Washington can restrict 
the Federal activity.
    If you were to drill off the coast of Washington, and if 
there were resources, which as a geologist I haven't seen any 
interest or resources there, you would somehow have to bring it 
to shore. Well, you would have to go through the State waters.
    Similarly, Massachusetts strenuously objected to a wind 
farm that was pretty close to the coastline. What they did is 
they revoked the ability for that wind farm's energy to get to 
shore through State waters.
    We will continue with the process. Our team went out there. 
I have talked to your Governor. I have talked to, I think, 
almost every Congressional Member, including your two Senators. 
I think I have a pretty good idea where Washington sits.
    Mr. Kilmer. Thank you.

                         ELWHA WATER FACILITIES

    I want to ask you about an issue I brought up when you were 
here last year, and that is the settlement negotiations between 
the Park Service and the City of Port Angeles regarding the 
operation and maintenance of the Elwha Water Facilities.
    I know we have engaged with you a lot over the past year, 
and I am grateful for your attention to this issue and your 
staff's attention, particularly given the substantial economic 
consequences for the city if an agreement can't be reached.
    As you know, the committee included language in the fiscal 
year 2018 omnibus that directs the Park Service to report to 
the committee on how it intends to meet its obligations under 
the Elwha River Ecosystem and Fisheries Restoration Act prior 
to transferring any of those water facilities and basically 
urging the Park Service to work it out with the city by this 
June.
    This June is right around the corner. And so I would just 
like to ask for your continued partnership to ensure that the 
Park Service has the resources it needs to carry out this 
committee's direction and hopefully to resolve this issue in a 
way that works for the city.
    Secretary Zinke. My understanding is there are 
negotiations, although the two sides remain apart. You have my 
assurance I am going to get personally involved in it because I 
just want it settled.
    Mr. Kilmer. Thank you. We do, too.

                               FISHERIES

    Secretary Zinke. Also in the State of Washington, fisheries 
are an enormous concern of mine. I think our fisheries have 
been allowed to deteriorate. I have talked to many of the 
tribes and they are concerned. We have to work together to make 
sure we rekindle our fisheries, particularly with salmon.
    There are some environmentalists we are going to have to 
work through, but it is hurting the economy of Washington and 
it is hurting the tribes. A lot of our fisheries have atrophied 
and we need to reinvest in them, in my opinion.
    Mr. Kilmer. The Elwha dam removal I think was a real 
success story, but it won't be if it ends up with a giant 
burden on the local community.
    Do I have time for one quick one?
    Mr. Calvert. OK.

                          MAINTENANCE BACKLOG

    Mr. Kilmer. Finally, I just want to thank you for the 
attention to the maintenance backlog within the Park Service. 
We have got a bipartisan bill called the National Park Service 
Legacy Act that would establish a permanent fund dedicated to 
paying down the maintenance backlog. I know that my good friend 
on the committee, Mike Simpson, who is ironically down for 
maintenance himself on his knee, has also introduced another 
bipartisan solution on this.
    This is a big deal because there is a lot of concern about 
substantially jacking up the entrance fees and how that could 
affect some of the gateway communities. I know that there is 
difference in some of the specifics on these bills, but I know 
we want to see something cross the finish line that actually 
addresses this maintenance backlog. So I just want to ask for 
your continued attention and partnership as we work to 
hopefully establish a dedicated fund to address in the 
maintenance backlog.
    Secretary Zinke. What I am hoping is that there are 
multiple bills that approach it somewhat differently. We need 
to address the backlog in maintenance. There are several 
Senators that looked at our bill and said, well, if it should 
pass and you get the backlog in maintenance caught up, what 
then? Are we going to be in the same box the next 10 years? 
They are moving to make it more permanent, structured.
    With energy, this is what I thought. I thought at the end 
of the day, if you are going to make--all of the above. We are 
seeing a trend on the East Coast to go more wind up the coast, 
similar to oil and gas in the Gulf that funds LWCF. And the 
approach was net dollars going into Treasury.
    So it didn't affect LWCF. It didn't affect GOMESA. The 
proposal we had didn't affect any program. It was just whatever 
was left from congressional intent going into Treasury net, 
half of it would go back into an infrastructure account.
    Now, that was our proposal. Senator Alexander, has a 
bipartisan proposal too. We are very supportive of any 
mechanism that is responsible in order to address a backlog, 
and it is not getting any better.
    Mr. Kilmer. Yeah.

                              MAINTENANCE

    Secretary Zinke. And, lastly, if I can take 1 minute.
    The doors. I read it like you that the doors were $139,000. 
I didn't even know they were my doors. But it is part of a 
long-term maintenance program with the building.
    Why are they $139,000? Well, we brought it down to $55,000. 
We had this little thing called the National Historic 
Preservation Act, and when you have a building or a facility 
that sits on the historic register, you are bound to go through 
SHPO and consultation and the whole works.
    It would be helpful if we worked together in this to make 
sure common sense can be applied. There are some buildings we 
absolutely need to make sure they are restored to original, 
Independence Hall among many of them.
    But some of our holdings we don't need to. If a roof is 
sugar pine shake, we don't need to replace it to sugar pine 
shake, we can find alternates shakes. That is a lot cheaper, 
more cost effective, that also saves our maintenance dollars, 
and we make sure we can get more done for little or less 
expense.
    I hope that this is a bipartisan issue on the National 
Historic Preservation Act, particularly, I think it is section 
106. If we work together, and we are going through what 
legislative fixes would be, what do I have the power to do as 
the Secretary, and what legislative fixes would allow a little 
more flexibility and common sense to be applied on some of 
these products as we go through the maintenance. Otherwise, we 
are going run out of money.
    Mr. Calvert. Common sense is also an endangered species 
around here.
    Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. The burning issue of the day, 
obviously, in this building is, are you on Facebook? I am just 
kidding.
    Secretary Zinke. I am not on Facebook.
    Mr. Joyce. Well, maybe if we talk about Facebook we would 
have more cameras here so they could see the great job that you 
are doing here.

                              GREAT LAKES

    I am going to bring you to something I bug you about every 
time I see you, much to your chagrin, I am sure. The Great 
Lakes and the idea that the Great Lakes Restoration Initiative 
has helped protect and restore the habitats of the Great Lakes 
and the species that are native to the Great Lakes and keep 
harmful invasive species out of the Great Lakes, which I have 
found that previous editions of this, when we had problems with 
the zebra mussels and quagga mussels, actually affect you in 
Montana. I don't know how they got out there, but they managed 
to.
    You have been very important to help us restore and protect 
the Great Lakes, which I refer to not just as a lake or series 
of lakes, but a national treasure, of which there are a few of 
us Members who are all in cahoots about bugging you on.
    We received $271 million to undertake 82 GLRI projects from 
the U.S. Fish and Wildlife Service, as of February of 2018. 
Yet, to no one's surprise on this committee, the administration 
has once again proposed to virtually eliminate all funding for 
the GLRI in fiscal year 2019.
    I know this is an important issue, and we talked about it 
last year, but I was hoping that we might be able to get a 
commitment from you that you could visit the Great Lakes. I am 
sure Ms. Kaptur, who is not here today, would be glad and proud 
also to take you out on Lake Erie. I am sure Ms. McCollum would 
be glad to entertain you on the Great Lakes so you could see 
firsthand the tremendous work that is being done. It is, I 
would say, the high water mark on how government should 
operate, and I am glad that you are a party to it.
    Secondly, I would like to understand what you are doing to 
make sure the U.S. Fish and Wildlife Service, the U.S. 
Geological Survey, and other agencies can maintain, protect, 
and continue to restore the Great Lakes. If cuts were going to 
be made, I understand that, sir, but if there are going to be 
any cuts, could you provide examples of what initial projects 
would be significantly curtailed?
    Secretary Zinke. On the Great Lakes, we receive about $64 
million from the EPA, so our budgets from the EPA are impacted, 
as they get cuts, we do. We receive about $64 million. Our 
budget request adds about, $13 million for Asian carp.
    Some of it is structural. You know, how do we get to 
resolution, and how do we address a problem?
    Again, on the trout and the salmon, same thing that happens 
in the Great Lakes.
    Mr. Joyce. Certainly.
    Secretary Zinke. Is that you can put significant more 
funding in place, but if it doesn't result in actually moving 
the needle or doing something on the ground, that is part of 
the issue, and I think structurally we have to change. The 
reorganization looks at how to do it better, to make sure we 
emphasize things that matter in the Great Lakes and those 
regions, rather than from Washington, D.C. That would be 
helpful.
    And, a budget request from the Executive is just that, it 
is a budget request. We have the dialog back and forth. We do 
this every year.
    What areas are priority for me? The priority in Interior 
was infrastructure and reorganization, so we can make the 
decisions that affect the Great Lakes quicker, better, and then 
focus on a solution. Then make sure the money spent on that 
solution actually goes towards a solution and not more studies.
    As you know, we give about $5.5 billion worth of grants a 
year--billion--and a lot of those grants go to studies that 
don't lead to any action. It is great to study it, love 
studying. But some of the studies--less studying and more 
action would be helpful in a lot of these areas, including the 
Great Lakes.
    Mr. Joyce. I certainly appreciate that and I appreciate 
that you are focusing on it. People who are working on the 
Great Lakes Restoration Initiative have to share the 
information so you don't have studies upon studies, but an 
actually using those studies and implementing them in the 
different agencies.

                               ASIAN CARP

    One of the things that we have been dealing with is the 
Army Corps of Engineers, which had this study going about how 
we are going to prevent Asian carp from getting into the Great 
Lakes. They came up with what they said was seven different 
options--one being do nothing, so that is really not an option. 
We are still waiting for some finality to what it is that they 
are going to do.
    But, obviously, the Fish and Wildlife Service is the most 
important component of making sure, in the interim, that we 
don't have this issue, because as I have said time and time 
again, once Asian carp get into the Great Lakes, especially 
Lake Erie, being the shallowest of the lakes, it is game, set, 
match. They are such voracious eaters, they will ruin the 
habitat there.
    So I was wondering if you could foresee what cuts, if any--
hopefully none--but what cuts might be in line or staff 
reductions in 2019 that would scale back Fish and Wildlife 
Service Asian carp operations?
    Secretary Zinke. I would say, given the importance of the 
Asian carp, we have about $13 million there. How successful 
have we been? We moved about 48,000 carp on some fish herding 
exercises. It is not enough. But we got better at it. I think 
we are going to continue and probably accelerate that.
    The U.S. Geological Survey and the Fish and Wildlife are 
also looking at some technologies that will help us on that. I 
am personally aware of the issue. Previously this wasn't an 
issue for Montana so much, and now the issue of the Asian carp 
and the zebra mussels both are a concern there. Those are a 
problem on irrigation.
    And there are some, I would say, some encouraging 
developments on zebra mussel from the USGS, as well as there 
are some encouraging developments on Asian carp and how to 
manage it. We will continue to make sure the resources are 
there to go forward.
    Mr. Joyce. If I may be so rude as to invite myself if you 
would ever go to see these Asian carp operations where they are 
doing herding and other things, so we could understand what it 
is you are doing to address this threat. We would like to find 
a solution to the problem that we hope will never come about in 
the Great Lakes.
    Secretary Zinke. Ohio is on my schedule in August, as I 
understand it.
    Mr. Joyce. A lovely time of year to be out on the Great 
Lakes, and our chairman can attest to it as he was out there.
    Mr. Calvert. I once was invited to go walleye fishing in 
August, but somebody lost the invitation.
    Mr. Joyce. They found out that you weren't coming so they 
bumped me. That is what you don't understand on that 
expedition.
    Thank you very much for your time, and I yield back.
    Secretary Zinke. We did increase, by the way, work on zebra 
mussels about $3 million in those summits. There is some 
promising USGS technology that we think has----
    Mr. Calvert. That is a big problem in California, too.
    Ms. McCollum.

                               MONUMENTS

    Ms. McCollum. Thank you, Mr. Chair.
    Before I ask my question, I want to go back. I had 
mentioned in my opening statement, I spoke about Bears Ears and 
the Grand Staircase Monument. I am just going to focus on the 
Grand Staircase Monument here.
    I cited why I said what I did based on a New York Times 
article. And you came back and said, no, that coal was coal and 
mining was not part of the decision on how the rescission of 
the monument went.
    But I base my statements on memos from the Interior 
Department, which talks about one of the plateaus located in 
the monument that contains one of the largest coal deposits in 
the United States. The Interior Department memo issued in 
spring of 2017 said about 11.62 billion tons are 
technologically recoverable.
    The story goes on to cite Interior staff preparing a report 
on each national monument with a yellow highlighter on the 
document, emphasizing the need to examine and detail the annual 
production of coal, gas, and renewables, if any, onsite. The 
article goes on to talk about how there were many, many 
meetings with people from the mining industries.
    So I wanted to be clear, Mr. Secretary, I didn't pull that 
out of the air. I took it from a New York Times article which 
cited Department memos.
    Secretary Zinke. And your opening statement was on Bears 
Ears.
    Ms. McCollum. No, I also had Grand Staircase.
    Mr. Secretary, we can talk about this later. But there were 
maps that both The New York Times had looked at and yellow 
highlighter used in the Department reports on this.
    Secretary Zinke. Well, I don't take The New York Times as a 
credible source on such things. But we will take it at that.
    Ms. McCollum. I think when you turn over public documents 
that actually have Interior memos that are cited in a news 
source that that would be rather credible, if they are citing 
the Department.

                              TWIN METALS

    Mr. Secretary, you and I have talked about this before. 
There is a 20-year withdrawal mineral lease currently under 
consideration for the watershed that contains the Boundary 
Waters Canoe Area Wilderness and Voyageurs National Park. You 
have been vocal in your support for a similar 20-year mining 
ban in Paradise Valley in Montana. You clearly understand that 
there are some places that are just too precious to mine.
    In December, your solicitor's office overturned the right 
of the Forest Service to deny consent for two mining leases on 
the doorsteps of the Boundary Waters. The principal deputy 
solicitor's schedule shows that he repeatedly met with 
lobbyists from the foreign-owned mining company, but does not 
appear that he consulted with any of the stakeholders who 
oppose the automatic renewals.
    Secretary Zinke, to the best of your knowledge, did your 
solicitor meet with stakeholders other than representatives of 
Twin Metals Mining Company before issuing their opinion? Were 
there any meetings with stakeholders presenting the strong 
legal case against nondiscretionary interpretation of the 
leases?
    Did your solicitor's office seek input from either the 
Department of Agriculture's general counsel, or from the 
Department of Justice, who was actively defending the Forest 
Service's consent denials against the lawsuit from Twin Metals?
    Did you have an opportunity to personally look at the 
solicitor's opinion before it was issued?
    And the reason why I am bringing this up is I am concerned 
and I am confused about the criteria that are being used by you 
to determine which public lands need to be protected from 
mining. If the Forest Service finds that there is no 
significant impact of withdrawal on the Superior National 
Forest, will that be enough for you to move forward on the 20-
year ban on mining in this unique, precious, and vulnerable 
watershed?
    Secretary Zinke. Well, first, I agree, there are some areas 
that are too precious to mine.
    In regards to the previous administration's removal for 
preferred leasing, our solicitor teams viewed that as unlawful 
and undefendable in court, and they did confer with the 
Department of Justice, which also had the same view. Losing in 
court would cost the Interior as much as hundreds of millions 
of dollars.
    So the correct path, in our opinion, was to do a process 
called NEPA. That is what is going on. In order to remove and 
do a taking, it has to be on the basis of science. And the NEPA 
process is----
    Ms. McCollum. Mr. Secretary, my question is--and thank you 
for saying that you did consult with the Department of 
Justice--but one of my questions was, did the solicitor's 
office meet with anyone else besides representatives of Twin 
Metals before issuing this opinion?
    Secretary Zinke. I will have to look at the records on who 
exactly we met with, but it is a matter of public record. But 
we did coordinate with Agriculture on it. But again, the 
solicitors from--are talented lawyers, career lawyers,--viewed 
that withdrawing preferred leasing was unlawful. The right path 
to look at it was continue that and then initiate a NEPA so we 
can make a decision based on science.
    Ms. McCollum. Thank you. I look forward to finding about 
who was met with. As you and I both know and we see on TV every 
night, there are talented attorneys that can come up with two 
different opinions. So I respect that your solicitors come up 
with one opinion. The solicitors of the previous administration 
came up with another.
    Thank you, Mr. Chair.
    Mr. Calvert. Thank you.
    Mr. Stewart.
    Mr. Stewart. Thank you, Mr. Chairman. And I beg your 
indulgence and your understanding. I thank you, appreciating 
that we had three hearings this morning and an Intel hearing as 
well, so a total of four, and thank you for letting me come 
late.
    Mr. Secretary, thank you for being here. I am going to 
thank you for three things and then ask you a question, if I 
could.

                               LEADERSHIP

    The first thing is, and I really mean this, thanks for your 
leadership. We live in tumultuous times when everything that 
was partisan anyway has become hyperpartisan, and many times it 
becomes too personal.
    I believe you are trying to thread a needle. I really do. I 
believe you are listening and trying to understand people's 
objections, and we appreciate that.

                               MONUMENTS

    The second thing is, thank you for Grand Staircase 
Escalante and for Bears Ears. Representing one of those 
monuments, I can tell you that was the right thing for Utah, it 
was the right thing for the local communities, and more than 
that, it was the right thing for the America people, because we 
have protected those areas that deserve the protections that we 
have afforded them at the same time we have opened up some 
economic opportunities for communities that are desperately in 
need of it.
    And, again, I think we threaded the needle there where we 
had conflicting priorities, and I think we found a nice 
compromise on that. I am grateful this President did that. I 
don't think any other person who was running for office would 
have had the courage to do what he did, and speaking for the 
people in Utah, we are grateful for that.

                             REORGANIZATION

    And the third thing I will thank you for is for this. I 
know that this is not without controversy as well, and there 
are some objections that some people had, and we had some 
concerns, one of them being the State directors and the fact 
that they would still remain State directors and a few other 
things. But once again I think that it is a bit of a shake-up, 
but in an organization that needs a shake-up every hundred 
years or so. And we are excited to see what we hope will be a 
better outcome.

                               MONUMENTS

    Now, if I could ask a question, and I know the committee is 
going to look at me and just go--and, by the way, before I go 
on, Ms. McCollum, if I could, you know, you are someone I have 
tremendous respect for, and I really mean that. I would be 
happy to talk with you a little bit about Grand Staircase 
Escalante and how the impacts that that has had on the 
communities there, and give you my perspective on that. I think 
it might be helpful if we were to have a conversation regarding 
that. I don't know that I will necessarily change your mind on 
anything, but it might be helpful for us to have our own 
private conversation regarding that.

                         WILD HORSES AND BURROS

    Again, I hate to beat--I will use an old joke--I hate to 
beat a dead horse, but I want talk about horses. We didn't get 
what we were hoping, and I know the chairman here did 
everything he could to advocate for this issue of mine. But if 
you care about these animals, we have got to do better. We have 
got to make situations better for them. I am wondering if you 
could give some indications of where you think you can go with 
your own authorities.
    Secretary Zinke. No one loves a horse more than I do, up 
front. I love horses and horses are iconic. But this is where 
the numbers are. The ground will hold about 27,000 healthy 
horses. We have 108,000 horses; 45,000 are in captivity. We are 
spending $81 million on the horse program.
    The current practice has been this, when a horse population 
gets larger, we go out, we round up, and we take the excess 
off, and then the excess goes off into either corrals, which is 
inhumane for wild horses to be in captivity. We really haven't 
been able to address the growth.
    Every time we get to this period, Congress will put a rider 
in, either the House or the Senate, it is a fight to get the 
rider in or out, and then we don't address the growth.
    What we are looking at doing is either birth control, 
spaying, neutering, but looking at rounding up the horses in a 
humane way and focus on the growth.
    It is unsustainable to continue doing what we are doing. 
And, quite frankly, the most inhumane thing we can do is no 
action.
    I accept that, we are working with the Humane Society. I 
have had the first meeting ever with stakeholders that are 
passionate horse advocates. We are trying to say, all right, 
this is what we have got to do.
    I am an advocate, quite frankly, of rounding the horses up 
and going on a spaying, neutering, birth control, because that 
is really the only option we have on the table to focus on 
growth and focus on making sure we have healthy herds, and 
striving to that number.
    We are also working with some Indian tribes. Some of our 
reservations have a lot of land that are open spaces. We are 
working with some of our Indian nations to accommodate some of 
the horses. As we round up and neuter and spay, rather than 
they spend the rest of their existence in a cubicle, it 
probably would be better, I think more humane, to have them on 
open range. We are working on that.
    Mr. Stewart. Well, I will conclude just again thanking you. 
And if you look at these horses in captivity, there are 
thousands of them sitting in enough space where they have a few 
feet to move and they just sit there in the dust all day, and 
it is very unfortunate for them.
    And I think we have got to do something permanent, the 
spaying and the neutering, the inoculations, I think we know 
now, just aren't effective and nearly impossible to administer 
effectively. So we appreciate you taking a more aggressive 
stand.
    And, again, I take you at your word, having observed you 
ride your horse to work the first day, that you are sincere 
when you say you care about these animals. I am as well. And 
hopefully we can have a better outcome for them.
    Chairman, I yield back.
    Mr. Calvert. I thank the gentleman.
    Ms. Kaptur, do you have a quick question you would like to 
ask? I have a question I am going to ask. Do you want me to ask 
my question?
    Ms. Kaptur. Thank you.
    Mr. Calvert. We will ask you first.
    Ms. Pingree, do you have a quick question?
    Ms. Pingree. Do you want me to go first?
    Mr. Calvert. OK. Sure.
    Ms. Pingree. I know you are going to run out of time.

                          OFFSHORE DEVELOPMENT

    A couple of thoughts that I had after you and I discussed 
oil drilling, and I will not beat this dead topic, because it 
is not dead.
    You started out by saying that the Department needs to 
raise money and you talked about reducing oil revenues. I think 
we all appreciate that you are looking for ways to help balance 
the budget and raise money, but as you said on an earlier 
question, some areas are too precious to mine. Coastal waters 
are too precious to drill for oil. So just another thought to 
keep in your mind.

                             CLIMATE CHANGE

    I want to just briefly talk about this whole issue around 
science, denial of science, climate change, it is kind of a 
recurring theme with this Administration. I think many of us 
are always on guard looking for places where this topic will be 
purged or not discussed. Again, coming from a coastal State 
where we are already worried about sea level rising, changes in 
our fisheries, sea level temperature changing, ocean 
acidification, it has already had a huge impact on my State and 
there is a lot of fear around it, again, because of some of our 
biggest industries.
    My understanding is that there is a pending report about 
the national parks and the impact of climate change on the 
national parks, and there has been reporting to say that there 
has been some said editing of taking climate change out of the 
document and removing any references to things about human-made 
climate change and greenhouse gases.
    I am not in the debate anymore. Humans have an impact on 
climate change. I am done with that. And you have said that you 
are not editing it, that is not going to happen.
    So I would just like to hear your reassurance that these 
reports are either something that happened in the past and you 
are going to change, or it is really not going on. And when 
that report comes out, I personally don't want to see it edited 
to remove any reference to that. We have a coastal national 
park in our State. I think it is extremely important that 
departments like yours are paying attention.

         ACTING ASSISTANT SECRETARY--FISH, WILDLIFE, AND PARKS

    The second thing that is somewhat related I just want to 
put in there is some controversy around Susan Combs becoming 
the acting secretary for Fish and Wildlife. Excuse me, because 
I don't think I know her, and so I don't have any personal 
issues here, but because she has been frequently noted as 
someone who opposes the Endangered Species Act.
    I know this committee in particular, we have differing 
points of view on it and when it is well-used and when it is 
not. But, again, coming from a State where the bald eagle has 
made an amazing comeback in a community like mine, you can see 
one virtually every single day fishing, and that is the result 
of the changes from the Endangered Species Act.
    I know it is a complicated issue, but it plays a really 
important role, and to have someone in that position who comes 
at it with an opposition to that, I just want to know how you 
think she can perform that job with so much bias.

                             CLIMATE CHANGE

    Secretary Zinke. First, on the national park document. I 
never change even a comma on scientific things. So how did that 
report get to you? Because it didn't get to us. Nobody in 
Interior in Washington ever saw that document. It is a draft 
document, as far as I understand. It was forwarded from a 
university and it was still in a deliberative process.
    So nobody, no political has ever seen that document. And I 
haven't seen the document. So I want an investigation how that 
document got around to the press before even we had a chance to 
look at it. I think that is fair.
    Ms. Pingree. Fair question.
    Secretary Zinke. The other report was a USGS document that 
I wanted to see before they released it. It had to do with 
ANWR. Because I wanted to know why the USGS report was so 
radically different--it is an assessment on national 
resources--was so radically different than a same assessment 
just conducted a few years before. And they were significantly 
different in the assessment of resources given the data set was 
very similar. I want to know what techniques that we are using.
    Ms. Pingree. I agree, you should have the ability to have a 
draft document and people state their opinions. But can you 
assure me that you are not going to deny any references to 
climate change and that you will allow for the inclusion in 
documents from the Department of Interior that have a human 
impact on climate change?
    Secretary Zinke. If it is a scientific report, all right, I 
am not going to change a comma of it, because I think that is 
the integrity.
    And my director of USGS, he is an astronaut. It has taken a 
year to get an astronaut with a Ph.D. In science that has had a 
Top Secret/SCI security clearance, he is probably arguably the 
best director, most qualified director we have had in the 
history of the USGS. That is saying something because we had 
John Wesley Powell and some icons, it has taken over a year.

         ACTING ASSISTANT SECRETARY--FISH, WILDLIFE, AND PARKS

    With Susan Combs, that is not her permanent place. She has 
been nominated to be number three, not in Fish and Wildlife, 
but there are holds on her from a few named Senators, that I 
would like to have her confirmed.
    Ms. Pingree. We all have our issues with the Senate now and 
then.
    So, again, will you confirm that while she is in that role 
she will not be actively working to undermine the Endangered 
Species Act?

                         ENDANGERED SPECIES ACT

    Secretary Zinke. She will not be actively working to 
undermine any of our environment protections as reasonable. 
Although we both agree with the Endangered Species Act, it is 
very difficult when a species has recovered to either down-list 
or remove a species. Quite frankly, when a species has 
recovered, I would rather spend the money and effort looking at 
species that are in challenge, because we have lot of species 
that are in trouble.
    We have to look at the processes. When we put a species on 
and a species is recovered, we should all celebrate that the 
Endangered Species Act has been positive. It was a Dick Nixon 
bill. So great, we should celebrate in our victories, and then 
we should focus our efforts on the species that really need 
help.
    But we need to look at off-ramps, too. We are looking at 
that as part of a structure without deteriorating in any way my 
responsibility of being the steward of your public lands.
    Ms. Pingree. Thanks.
    Mr. Calvert. Thank you.
    A couple of quick points. You mentioned the recovery of 
endangered species. I don't need to comment. Obviously, we are 
having a discussion here about the gray wolf and the Great 
Lakes and Wyoming, and we have some disagreements, but a lot of 
people believe that that is a recovered species. So I will 
leave that until next year, but I just bring it up.

                          OFFSHORE DEVELOPMENT

    Oil. There is one State that does have oil. There is no 
doubt about it. You have a house in Santa Barbara, you can gaze 
across and----
    Secretary Zinke. My wife does.
    Mr. Calvert. Your wife has a house in Santa Barbara?
    Secretary Zinke. She is lucky.
    Mr. Calvert. There is a lot of oil in California. I think 
we are the fourth largest oil-producing State in the Union. 
Some people believe the largest off-coast supply outside of 
Alaska in the United States is in California, is in the Santa 
Barbara gulch.
    As you look at that, there are technologies that are 
available today to slant drill without using coastal rigs, 
especially off Vandenberg and others that have been studied. So 
I hope you look at all technologies that are available as you 
look at California.
    Also, California has the largest depository in Monterey 
Shale, in various counties in the interior part of the State of 
California.

                    EARTHQUAKE EARLY WARNING SYSTEM

    And while we are talking about California, I want to 
mention the Earthquake Early Warning System. Which doesn't 
apply to California, it applies to the State of Oregon, the 
State of Washington. It is not a matter of if we are going to 
have a significant earthquake in the future, it is just matter 
of when.
    The USGS has been very involved in this issue, and we have 
put a substantial amount of money in this appropriation bill, 
about $13 million to increase the program, another $10 million 
for the infrastructure cost, which will be hopefully online 
here shortly, despite the fiscal year 2019 budget request that 
obviously would zero out the program.
    Will you work with USGS to make sure that the congressional 
intent is fully carried out and the program is prioritized in 
light of the public safety it will provide? We hope to have 
this online, working with Caltech and USGS, soon to provide a 
warning system that could save thousands and thousands of 
lives.
    Secretary Zinke. I will commit. And it is the power of your 
leadership that it remains strong in the budget, as well as the 
University of Oregon is working on it as well, my alma mater. 
So I am aware of the importance.
    Mr. Calvert. And the State of Washington. We have that 
whole zone area up there.

                          OFFSHORE DEVELOPMENT

    Secretary Zinke. And if I can add real quickly on the oil 
and gas. The Coastal Commission and the State of California 
also have a say on oil and gas, even if you were to do a slant 
rig. And I believe there are companies that looked at it at 
Vandenberg, that there were oil deposits, particularly a gas 
play off the coast that was reachable by horizontal drilling. 
And the Coastal Commission and the State regulatory framework 
has a big, big say whether or not they are going to go forward.
    Mr. Calvert. We are a difficult State.
    We have time for a real quick question from Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Welcome back, Mr. Secretary. Glad to have you.
    Mr. Calvert. The Secretary has a hard exit in 5 minutes. He 
has to go to an important meeting.
    Ms. Kaptur. I hear you.
    Secretary Zinke. But I do offer this. I said in the very 
beginning when I came in that I will meet with this committee 
outside of a hearing in a working group, and I would do that. I 
offer that.

                               ASIAN CARP

    Ms. Kaptur. Thank you. Also, earlier I know Mr. Joyce asked 
questions about the Asian carp, and, Mr. Secretary, you 
mentioned it as a priority. Thank you very much. We don't want 
them in the Great Lakes.

                             OFFSHORE WIND

    You also had a conference recently with a large group of 
energy developers about the potential for offshore wind. I want 
to let you know this Member supports that. In fact, we know the 
Great Lakes have about a minimum of 700 gigawatts of power that 
are uncaptured at this point, and the first offshore project is 
being proposed near Cleveland, Ohio, LEEDCo.
    I wanted to draw your attention to that, but I also wanted 
to state, for the record, that I do not support the request to 
cut renewable energy at the Department of Interior by half, and 
we are going to try to fix that as this bill moves along. But, 
we very much welcome your comments to that offshore wind 
organization.

                              GREAT LAKES

    My question relates to USGS. Because of the condition of 
Lake Erie right now, I wanted to reiterate Mr. Joyce's warm 
invitation to you to come to our area, Lake Erie, the 
shallowest of the Great Lakes. We are facing a very, very 
serious crisis there dealing with the largest watershed in the 
Great Lakes, which empties into Lake Erie.

                              USGS BUDGET

    Your budget proposes to cut the USGS. Again, I am hoping we 
can fix that here, because a quarter cut to the budget doesn't 
help us, and especially because the cuts include the 
contaminant biology and toxic substance hydrology accounts, 
which are so important to us because it is toxic microsystem 
that is causing all the difficulty in our water system.
    I am troubled by the fact that you are cutting programs 
that are the most important to science as we try to shepherd 
the fresh water resource that is so precious in our country. 
Could you comment on the fact that our water quality issues and 
fresh water are getting worse, but you are cutting the budget 
to fix it?

                             OFFSHORE WIND

    Secretary Zinke. Real quickly on renewables, is that our 
budget reflects the demand. There is a greater demand going 
offshore, but there is a lesser demand on onshore right now. So 
our budget looked at the USGS forecast and BOEM's forecast of 
renewables, and our budget request is aligned to that. We will 
share the same data we have. We just want to make sure.
    Renewables is important. The President's policy is all-of-
the-above.
    Ms. Kaptur. Good.
    Secretary Zinke. And so at the end of the day if we need to 
move things around, we can do it by a reprogramming letter, 
too. If the demand is up or down, we want to make sure we have 
an appropriate amount to accommodate our energy policy, which 
is all-the-above.
    And so we will share the same data that you have that we 
have. So if we are short in that, we would adjust it because we 
are all-of-the-above.
    Ms. Kaptur. All right.
    Secretary Zinke. Your second question, I am sorry, was? 
U.S. Geological Survey?
    Ms. Kaptur. Yes.

                                LANDSAT

    Secretary Zinke. Well, we also have some expensive 
programs. We have the Landsat 9. We think we can do much better 
with Landsat 10 by opening up for competitive bidding. It would 
save us some money.

                            INVASIVE SPECIES

    I will admit, our water is at risk. Our invasive species we 
need to get a handle on and control. Some of it is looking at 
better technology, particularly with the Asian carp. And there 
is some promising technology for zebra mussels, which is a big 
issue. But I will work with you on it, because I understand how 
important it is.

                              GREAT LAKES

    And the Great Lakes matter, too. They matter politically, 
economically, they matter morally to this country, and I will 
work with you on it. We think the reorganization, which I will 
be glad to talk in detail with you on it, we think it is best 
on the reorganization to put more authority in the front line 
to address some of these regional problems because they get 
lost at the Federal level.

                           TOPOGRAPHICAL MAP

    Ms. Kaptur. Mr. Secretary, could I ask you, before you come 
out to Ohio, could you identify a person within USGS that could 
work with us on a topographical map of the watershed that must 
be managed in a much more thoughtful way so that we aren't 
polluting the lake?
    Secretary Zinke. I have the best map on watersheds. It is 
broken down to every basin. It is magnificent.
    Ms. Kaptur. Good, we need that. We need people to 
understand that it isn't flat, that it actually rolls somewhere 
when a drop of water falls off. I would really appreciate if 
you could, if we could have that attendant to your visit, that 
would be marvelous. It would be really.
    Mr. Chairman, I just have to state, Rotary International 
has selected Lake Erie because of its condition and has made it 
as high a priority as their priority to eliminate polio, which 
they were successful in doing globally. It is that important.
    So, we have stakeholders that want to help, but we need the 
technology, science, and resources to fix the problem.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you. Thank you for coming out to this 
hearing today.
    Ms. McCollum asked a question of me, and I think it is a 
good idea, hopefully that we can get together at some point in 
a nonhearing setting to talk about reorganization and get a 
better understanding of this. So we can do that in the near 
future. We will set up a time to do that.
    I appreciate your coming out. And we are adjourned.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
  
    

                                          Thursday, April 12, 2018.

                        SMITHSONIAN INSTITUTION

                                WITNESS

DAVID SKORTON, M.D., SECRETARY, SMITHSONIAN INSTITUTION, WASHINGTON, DC

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. [presiding]. The committee will come to order. 
Dr. Skorton, I would like to welcome you to today's hearing. We 
appreciate you joining us to share your vision of the future of 
Smithsonian and to discuss your budget priorities for fiscal 
year 2019. The members and staff are also grateful you brought 
some interesting historical items for show and tell. It is 
always one of the highlights of the hearing season. I said this 
before and it bears repeating, you clearly have one of the most 
interesting jobs in town.
    As the Secretary of the Smithsonian, you are entrusted with 
the challenging responsibility of operating and managing one of 
the country's most revered institutions. The Smithsonian is 
often referred to as ``America's attic'' because you are the 
steward of more than 155 million objects, and the national 
collection reflects America's artistic, cultural, and 
scientific heritage.
    The Smithsonian provides education, outreach programs in 
science, history, art, culture for visitors and scholars 
worldwide. It is governed by a board of regents consisting of 
the Chief Justice of the United States, the Vice President, 
nine private citizens, six Members of Congress, including our 
good friend here, Tom Cole, who serves on the subcommittee. I 
understand you guys had a meeting yesterday.
    Mr. Cole. We did.
    Mr. Calvert. Overall, the proposed funding level in the 
Smithsonian fiscal year 2019 budget is $957 million. The budget 
request supports salaries, expenses, essentials of facilities 
maintenance. It also continues the National Air and Space 
Museum's renovation project and supports other critical 
priority construction and deferred maintenance projects. Like 
most large organizations, the Smithsonian faces some enormous 
challenges which we will be discussing at some length today. At 
the top of the list, of course, is the multiyear renovation of 
the National Air and Space Museum, the most visited museum in 
the world.
    As a result of the budget agreement earlier this year, the 
Interior Subcommittee was provided additional funding in its 
fiscal year 2018 allocation that enabled us to provide more 
than double the amount requested for this critical 
revitalization project. We look forward to hearing the detail 
on how the $198 million provided in the omnibus will be 
invested, and what additional funds in fiscal year 2019 and 
future years will be required to complete this revitalization 
project.
    The recent construction of the Museum of African-American 
History and Culture and the proposed renovation of the National 
Air and Space Museum illustrate the very real challenges this 
subcommittee faces. There continues to be increasing demand for 
Federal dollars to address many important and legitimate 
priorities. For this reason, it is essential that the 
Smithsonian clearly outline and communicate its highest and 
greatest priorities throughout the appropriations process.
    Secretary Skorton, I pledged to you the last time we met 
this subcommittee will do its very best to address this 
subcommittee's most urgent priorities. We support your 
outstanding efforts, and we look forward to your testimony and 
continuing our work together.
    Now, I am happy to yield to my good friend on our 
subcommittee the Ranking Member, Mrs. McCollum, for any opening 
remarks she would like to make.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you, Mr. Chair, and good morning. Good 
morning, Secretary. Welcome to the subcommittee. It has been 2 
years since you last testified before us, and I am pleased to 
see you here. I am very excited to hear about the treasures 
that you brought, and to also hear about the progress you have 
made and your accomplishments at the Smithsonian. I think from 
the chair's statement, and you will hear from my statement, 
there is something that we 100 percent agree on, and that is 
the Smithsonian has a special place on the Mall and in our 
Nation.
    So, 2 months ago, Congress passed a bipartisan budget 
agreement to increase non-defense discretionary spending for 2 
years, and 3 weeks ago in an admirable show of bipartisanship, 
the fiscal year 2018 omnibus was enacted into law. Within that 
omnibus, Congress made significant adjustments in the 
Smithsonian by providing, as the chair pointed out, $198 
million for the restoration of the Air and Space Museum, which 
fully funded your 2018 request for the museum's restoration and 
most of what you are requesting for the fiscal year 2019 
budget.
    But as we all know, more work remains to be done, and the 
total Federal share of the National Air and Space Museum is 
going to reach $650 million, and to date, $250 million of that 
has been appropriated. Furthermore, the Smithsonian's overall 
facilities condition index rating from the National Research 
Council is considered poor, and the Smithsonian's backlog of 
deferred maintenance and repair is estimated at $890 million. 
The Smithsonian must continue to address this backlog in order 
to improve the facilities' indication index score to ensure a 
healthy, safe environment for visitors, staff, and one special 
place where you even care for animals. We have to be working 
with you constantly to make sure that there is responsible 
stewardship for your vast collections.
    In addition to the cost of maintaining bricks and mortar, 
you have a responsibility to the Federal staff inside of these 
buildings. Mr. Chair, there was a report. I am going to see if 
we can get a full copy of it because we do oversee salaries of 
how far behind Federal employees have become in salaries and 
wages here for many of our institutions.
    The fiscal year 2019 budget for salaries and expenses is 
$738 million, which is $7 million above the enacted level, and 
I want to see how we are fitting in, especially in the 
Smithsonian, addressing what the reports were about employees' 
wages.
    The Smithsonian was created for the increase and diffusion 
of knowledge. It has the ability to capture the imagination and 
curiosity of both children and adults, and it has something for 
everyone. I want to commend you, specifically, for your recent 
launch of the American Women's History Initiative. I am pleased 
that Congress has provided $2 million in the recent omnibus 
towards that effort. While the focus is on the history of 
American women, I believe this is far reaching, beyond what it 
even will accomplish in the United States. I believe you will 
inspire women and girls with this initiative all over the 
world.
    The Smithsonian Institution is beloved by millions and is 
one of the most visited museums in the world. You have had over 
3 million--3 million--visitors to your newest museum, the 
National Museum of African-American History and Culture. What a 
wonderful resource for people to learn about the rich cultural 
experience and history, and the vibrant African-American 
community here. And those of African-American descent can take 
great pride in their history as we also tell the history with 
great accuracy and sadness at times.
    I am pleased that you completed a $1.5 billion fundraising 
campaign last year. That success is an indication of the value 
you place in communicating its importance to the public. The 
public support for your mission shows your attempts to explore 
new and innovative activities is one that is supported not only 
by Congress, but by the American people.
    So, Mr. Secretary, I appreciate the work that you do, the 
work that all the employees at the Smithsonian do to advance 
the civic, educational, scientific, and artistic life of this 
Nation. Thank you, Mr. Chair.
    Mr. Calvert. OK. With that, Dr. Skorton, I am happy to 
yield to you time for an opening statement.

                  Opening Remarks of Secretary Skorton

    Dr. Skorton. Mr. Chairman, and Ranking Member McCollum, and 
members of the subcommittee, thank you very much for this 
opportunity. And on behalf of the entire Smithsonian 
Institution, our 6,700 employees and our 17,000 volunteers, we 
appreciate the continued and very generous support of Congress 
which allows us to make important contributions to the American 
people through history, art, culture, science, and education.
    And today with our numerous museums, and distinguished 
scholars and in-depth research, iconic treasures, excellent 
education programs, and a vast array of information made 
accessible through digital media, the Smithsonian remains a 
trusted source of information and inspiration for the people of 
America and the world. The Smithsonian will continue to strive 
to be an effective steward of our past and prove to be a wise 
investment in the future.
    Since I last testified before this subcommittee, we have 
unveiled a new strategic plan that will guide us through the 
year 2022. My written statement goes into more detail about the 
plan, but I would like to briefly focus on a few key points 
that illustrate how it will make us a stronger and more 
responsive Institution.
    One of the goals of the strategic plan is to reach new 
audiences both beyond the National Mall and here in the 
Nation's capital. From the National Air and Space Museum's two-
week STEM Camp for Girls to the National Museum of Natural 
History's intensive Youth Engagement Through Science Internship 
Program, Smithsonian education programs make a difference in 
and around the District of Columbia. We plan to increase our 
local impact by reaching all DC Public School students with our 
rich educational content.
    We are currently in discussion with the DC Public School 
System about providing them material that aligns with their 
curricula, helps support students' needs, and improves equity 
and access to educational material. Doing so would allow us to 
forge stronger bonds with the local community and provide a 
template to take more of our scholarly content to schools 
nationwide.
    Much of what we do already reaches Americans in their own 
homes and classrooms. For instance, our Smithsonian Science 
Education Center has developed a tested STEM curriculum for K 
through 8 students, and this curriculum is currently used in 
1,500 school districts in every State and more than 20 other 
countries. The Museum on Main Street Program from our 
Smithsonian Traveling Exhibition Service allows us to reach 
rural America through museum exhibitions, research, educational 
resources, and programming.
    And thank you for bringing up the American Women's History 
Initiative. It will take to the road with stories of pioneers 
like Harriet Tubman, Amelia Earhart, and Sandra Day O'Connor. 
It will leverage existing museum collections and expertise with 
new programmatic funds. The initiative will help the 
Smithsonian show young women and men alike that we only reach 
our full economic and moral potential as a Nation when we 
include everyone.
    We are also expanding our international footprint, and one 
big step forward in that respect is our work with the Victoria 
and Albert Museum to open a combined exhibition space in London 
and a separate space for Smithsonian self-curated exhibitions. 
This will be the first international exhibition spaces in our 
history. We look forward to the expected opening in 2023 and 
the tremendous capacity to help us reach new audiences.
    One fascinating and futuristic project underway is at the 
Smithsonian Astrophysical observatory in Cambridge, 
Massachusetts where we are working with American and 
international partners to build one of the world's most 
powerful telescopes. The Giant Magellan Telescope, or GMT, will 
use an array of seven huge mirrors working in tandem to produce 
images 10 times sharper than those from the Hubble Telescope. 
The GMT will help our scientists explore the distant reaches of 
the universe in our search for life beyond this planet.
    And more on the down-to-earth side, the National Museum of 
African Art recently hosted its first Morning at the Museum. 
This program, hosted by many of our museums, allows those with 
cognitive and sensory processing disabilities to take part in 
creative workshops in a supportive environment in a quieter 
setting before crowds enter the museum.
    As always, and as was mentioned, the safety of visitors, 
and staff, and volunteers is my first priority. I have spoken 
to this committee about the urgent need to renovate the 
National Air and Space Museum due to the risks posed by its 
crumbling marble facade. The project's share of our budget 
request underscores the importance and priority for the 
Smithsonian. Our focus today is also on another type of safety. 
Our staff must be free to work without harassment and a safe 
environment in which all may succeed. The quality of our 
training and policies to address workplace harassment is 
impressive. However, I am committed to self-reflection and 
refining all we do by reemphasizing training compliance and 
examining all of our harassment policies. Ultimately, better 
policies will make us a better institution.
    For fiscal year 2019, the Smithsonian budget request is 
$957 million. Within this amount is $738 million for salaries 
and expenses. Following guidance from the Office of Management 
and Budget, we have included an increase of $13.4 million for 
facilities maintenance needs, for fixed cost increases, and for 
restoration of a rescission in the fiscal year 2018 continuing 
resolution. We are also requesting $219 for facilities capital, 
and most of that, or $127 million, will be used to continue 
work on the National Air and Space Museum project.
    We greatly appreciate the investment in this critical 
project in the recently-enacted fiscal year 2018 omnibus bill 
and look forward to updating the committee as the project 
progresses. I am also pleased to report that just last week, I 
named Dr. Ellen Stofan as the new John and Adrienne Mars 
director of the National Air and Space Museum. Ellen is so 
excited. She is going to begin her tenure at the museum April 
30.
    The future is brighter than ever for this beloved 
institution that I am privileged to serve. I am confident that 
the Smithsonian is primed to take advantage of our 
opportunities in the years and decades ahead and to serve the 
American people even more effectively. Thank you.

            INTRODUCTION OF SMITHSONIAN CURATORS AND OBJECTS

    And I want to just very quickly tell you about our experts 
and some of these terrific objects you see in front of you. As 
was mentioned, our total collection is 155 million objects and 
specimens, and we have some of these treasures here today. I 
want to introduce Lisa Kathleen Graddy, curator at the National 
Museum of American History. She has brought the rosewood and 
ivory gavel used by Susan B. Anthony to chair women's suffrage 
conventions. You will notice the white gloves. Those are meant 
to remind me that I cannot touch the gavel. [Laughter.]
    Peter Jakab, chief curator at the--there he is--at the 
National Air and Space Museum, brought two things: the 
stopwatch used by Wilbur Wright to time the historic flight by 
his brother, Orville, in the Wright Flyer on December 17, 1903, 
and a sample of the wood and fabric from the Wright Flyer that 
the Apollo 11 crew carried to the moon in 1969. And Ryan 
Lintelman and Theo Gonsalves--there is Ryan in the second, Theo 
Gonsalves--curators at the American History Museum have brought 
the custom-made silver-flared trumpet of jazz great Dizzy 
Gillespie. And I must comment that we named our male dog 
``Dizzy'' after that gentleman. [Laughter.]
    Thank you.
    [The statement of Secretary Skorton follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
                      Opening Remarks of Mr. Cole

    Mr. Calvert. Thank you, and if there is no objection, Mr. 
Cole needs to go to a hearing on his own committee. He would 
like to make a brief statement.
    Mr. Cole. I just, again, want to thank Dr. Skorton for the 
privilege of serving as one of the regents of the Smithsonian. 
I assure everybody here it is in good hands. The only important 
thing I have done since I have been there was be part of the 
group that interviewed and selected Mr. Skorton to be the head. 
And you have got his bio, so you know what a distinguished 
record he has as an academic leader and as president of one of 
our leading institutions, and having been president of another 
one before that.
    It is just a genuine pleasure to have you here. It is a 
genuine pleasure. This committee does take this responsibility 
very seriously and, frankly, in a very bipartisan way and with 
a great deal of pride in what the men and women you lead at the 
Smithsonian have accomplished. So, again, I can just assure my 
colleagues the Institution has been well led throughout its 
tenure, but I really believe you have in front of you the most 
distinguished of the secretaries that we have had. And we are 
very fortunate to have him in charge of what is really a 
national treasure and a national jewel at a critical point in 
its development.
    So, I am going to excuse myself, but, again, I just wanted 
to be here and say hi to you, and thank you again personally 
for all you do.
    Dr. Skorton. Thank you, Dr. Cole, for all you do and all 
the regents do. And thank you for getting down to candidate 27 
or whatever it was when you hired me. I really appreciate it. 
[Laughter.]

              NATIONAL AIR AND SPACE MUSEUM REVITALIZATION

    Mr. Calvert. Thank you. And thanks, Mr. Cole. Doctor 
Skorton, as you mentioned in your opening statement the 
revitalization of the National Air and Space Museum, which we 
all have worked on and we have visited the museum and seen for 
ourselves the problems that are there. As I mentioned in my 
opening statement, it is the most visited museum in the world, 
I guess, even more than the Louvre? Is that----
    Dr. Skorton. It is always neck and neck, Mr. Chairman, with 
the Louvre. And we squeaked by them last year, and so we are 
using those bragging rights.
    Mr. Calvert. So, we are number one.
    Dr. Skorton. Number one.
    Mr. Calvert. OK. On that subject, what is the present 
status of the work on the Air and Space Museum? What specific 
work will be done with $198 million provided in the recent 
omnibus, and specifically what does the additional $108 million 
above the fiscal year 2018 budget request allow you to do in 
terms of advancing the project schedule?
    Dr. Skorton. Well, in our all of our behalf, again, I want 
to thank you, Mr. Chairman, and Ranking Member McCollum, and 
the entire subcommittee, for the confidence you have shown in 
us. You have very materially changed the way we looked at this 
project with this additional funding.
    This additional funding is allowing us in a very confident 
way to push ahead with the project. We are able to purchase 
materials--steel, glass, marble--and we are able to confidently 
begin to let subcontracts and to push ahead. We hope to do that 
in a way that will be efficient, that will minimize 
disruptions, and allow us to do this in as a quick a job as 
possible. The work is well under way on the project.
    One of the very things we have to do is prepare the 
specimens. As I mentioned in our past discussions, we are going 
to do this in two phases starting with the west part of the 
building, and move the objects or protect the objects, work on 
the reconstruction there, and then swap over to the east part 
of the building. In order to do that, we have to remove some of 
the artifacts. They are precious, irreplaceable artifacts. Some 
will be moved out to the Udvar-Hazy area near Dulles. Others 
will be protected in place in the Institution. So, that is well 
under way.
    And contractors are developing what we are calling a mock-
up component to test performance of the exterior facade before 
it is put in place to last hopefully for a very, very, very 
long time. And it has also enabled contractors to begin to let 
subcontracts and lock in costs now against the possibility of 
inflation.
    So, again, I thank you. You have allowed us to take a 
different approach to this project and do it confidently, and 
do everything we can to make sure it does not get out of bounds 
on either schedule or cost. So, thank you.
    Mr. Calvert. You might want to fix your costs on steel. It 
may be going up. [Laughter.]
    Dr. Skorton. I am just a student of what is going on in our 
world, but we have terrific people watching it, and we have 
confidence in the bid process to keep us on budget.
    Mr. Calvert. And just a point on this. As you know, the 
building was completed in 1976. The development and the 
construction of that project are probably no longer with us 
today. I am hoping 42 years from now, that there is a better 
outcome than what we had in 1976.
    Dr. Skorton. Well, first of all, Mr. Chairman, nothing 
would make me happier than if you and I were both here 42 years 
from now. [Laughter.]
    I think that would be fabulous. You know, our terrific 
undersecretary, Mr. Al Horvath, who is sitting just behind me, 
he has guaranteed me that this will last a very long time and 
much, much longer than the original construction, and he is an 
enormously trustworthy man. And the reason that----
    Mr. Calvert. I will hold him accountable----
    Dr. Skorton. I will certainly hold him accountable, sir. 
[Laughter.]
    And the reason that I believe this will go better is 
twofold. One, very important, and I know I have mentioned this 
before, so please bear with me if I mention it again. The 
original project was done with the expectation that in 
equilibrium we would have about 2 million visitors a year. 
Seven months into the first year, we had already 5 million 
visitors, and we have over 7 million visitors a year, so the 
systems themselves quickly got worn out.
    And we have known for some years that we had to replace the 
systems, the HVAC, everything around them. But it got to the 
point now where since we are going to do the project in total, 
we would also replace the systems. So, we will do the work on 
the systems expecting and anticipating the very large 
visitorship that we now realize as part of our everyday life at 
that museum.
    And secondly, we have learned our lesson in terms of the 
facade, the marble facade, the cladding, and we will avoid any 
ways that were thought of, with all good intentions in the 
past, to maintain the overall envelope of costs for the 
project. We will spend the extra funds with your support to 
make sure that it is done in a way that it will last a very, 
very long time. So, we are very cognizant of that, and, again, 
I hope we are here 42 years from now to confirm that.
    Mr. Calvert. Great, I would hope we are. Ms. McCollum.
    Ms. McCollum. Mr. Chair, I will be 105. I might be there, 
but I will not be serving in Congress, I can guarantee that.

                                PARKING

    Voice. The Senate. [Laughter.]
    Ms. McCollum. No, I have turned that down a couple of 
times. I love the House.
    I am going to ask you to get back to us on some questions 
that have come up about parking. Parking is at a premium, and 
you are having to do things down in the garage. In fact, Mr. 
Chair, we even toured the garage when we were there. So I'd 
like an update on how that is going or if there is anything we 
have to do working with Capitol Police or with the Architect of 
the Capitol to make sure that parking is working for everyone 
down there as you move forward.
    But what I wanted to talk on are two things. One is the 
deferred maintenance backlog, and if you could tell us how the 
fiscal year 2018 funding has helped you or not helped you with 
your 2019 project list. Give me a little update on the Zoo, and 
how you are going about prioritizing all this work with such a 
huge project that you are undertaking at the National Air and 
Space Museum.

                      ARTS AND INDUSTRIES BUILDING

    I wanted to go back to something else that had been 
deferred maintenance that is not totally open yet and find out 
where we are, and that is the Arts and Industries Building. The 
building was closed for renovations for almost a decade before 
it was reopened in 2016. Part of the announcement that the 
Smithsonian had was that it was going to be a building for 
short-term exhibitions, and Rachel Goslins is the director that 
has been working on that.
    When you did the announcement and appointed her, you said 
that the building ``would be a place for educating and 
inspiring Americans about the impact of creativity and the 
innovation in our society, and will become a laboratory to try 
new things, new technologies, new approaches to better engage 
the millions of Americans visiting the National Mall and 
Smithsonian each year.'' And that is what you said, and I know 
that you did something very innovative with the building when 
we had the FolkLife Festival on the Circus Arts. Circus 
Juventas from St. Paul, Minnesota was performing in the space.
    And I will tell you, when people walked into that space, 
including myself and other Minnesotans that we directed down 
there, they had lots of questions about the history of that 
building, and how it was going to be used. The circus added a 
lot of energy in the building. [Laughter.]
    The energy in that building, the light and the colors and 
everything, is so different from anything else you experience 
on our Nation's Mall. But I am concerned because we have not 
heard about that much lately. You have got to your deferred 
maintenance backlog. You have got to the Air and Space Museum 
you are working on.
    So, could you fill us in, because my constituents are 
asking, including Circus Juventas at times when I see them, 
what are the next steps for the Arts and Industries Building, 
and are you having fundraising campaigns? What can we do to 
lend our voice and support as you build enthusiasm for this 
very special museum to make sure it is not forgotten on the 
Mall?
    Dr. Skorton. Thank you very, very much, Ms. McCollum. First 
of all, on the parking issue, I must say in every organization 
I have worked in and had the privilege to lead, parking has 
been a main issue, and it is certainly a big issue for us. And 
the change in parking availability related to the National Air 
and Space Museum project is a huge challenge. I do not have a 
complete answer for you today on that. We are working on it. We 
are looking for availability of other parking. Very concerned 
about serving our employees, and I pledge to keep in touch with 
you personally about this.

                          DEFERRED MAINTENANCE

    On the issue of deferred maintenance and the omnibus 
spending bill, first, I want to repeat, and I cannot say this 
enough times, we are endlessly grateful to what you have done 
for us by helping us with the Air and Space project. It is the 
most visited museum in the world, and it is sorely in need of 
revitalization, as we call it. And so, we are very, very 
grateful.
    Having said that, there was the requirement, as you know, 
to reduce our facilities capital in other areas by a certain 
amount of money. I believe it was $24 million. And so, that has 
definitely caused us to defer, or to delay, or even reduce 
planned projects, as you mentioned, at the National Zoological 
Park, at Suitland at our collection center, at the National 
Museum of the American Indian, and other areas. I do not envy 
the decisions that you have to make, and none of this in any 
way clouds the gratitude that I and my colleagues feel. But we 
do need to keep our eye on the ball on other maintenance 
projects.
    Our amount of funding, which has been stable and for which 
I am very, very grateful, is about half of the amount that 
industry standards say we should be spending. We should be 
spending 2 percent or more of our installed base of buildings 
for maintenance. And we are asking in our request for fiscal 
year 2019 a $5 million increase in that aspect of the budget 
toward hopefully an eventual increase in deferred maintenance. 
In the meantime, we are keeping ourselves busy by having a very 
careful prioritization of those deferred maintenance projects 
using health and safety as our number one priority criterion, 
and then after that, thinking about the public interface and 
wanting to deal with the public in the best way possible.

                      ARTS AND INDUSTRIES BUILDING

    In terms of the Arts and Industries Building, that building 
is the apple of our eye. It is a chance to do something 
different than we can do elsewhere on the Mall. Blame me for 
the long time it has taken to come to an announcement in public 
what we are doing. It is not Rachel Goslins. It is none of my 
colleagues behind me. I have been working to raise 
philanthropic money to kick us off, as you say, on a campaign. 
I have been spending a lot of time on it. I have high hopes 
that pretty soon I will be able to give some good news. I do 
not have that good news today. But should good fortune smile on 
us and we are able to move the philanthropy along, we will have 
in all likelihood four different types of activities in the 
building.
    Number one, we will have an area of focus, and it will most 
likely be about the future. The Smithsonian is very much 
focusing, as you know, on the present and the glorious past of 
our country as these beautiful artifacts show you. But we also 
think that the scholarly capabilities of the Smithsonian and 
the ability to tell stories should allow us to engage the 
public spirit and imagination about the future. So, that would 
be one aspect.
    Secondly, just as you mentioned, the idea of a place to try 
things as sort of an innovation lab for anything in the 
Smithsonian Institution. So, if a museum director, or a 
research director, or an education director wants to try 
another way of interacting with the public, this would be a 
great space to do that. Thirdly, we will continue to use that 
space for some special events as they come up. And then 
finally, so-called pop-up exhibits that other museums may want 
to do there, it is great to have that space.
    Make no mistake, though. The building will eventually need 
a complete rehab, and the day may come that we approach this 
subcommittee and ask about changing the priority of possible 
funding of that. But the first thing that I am committed to do 
is to see what we can do with private funding. And I have hopes 
that we can bring you some good news, and all I can do today is 
tell you that I am working on it. And do not blame Goslins, 
blame Skorton why we have not told you yet.
    Ms. McCollum. [Off audio.]
    Dr. Skorton. Thank you.

                 NATIONAL AIR AND SPACE MUSEUM FUNDING

    Mr. Calvert. Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Chairman. Doctor, it is nice to 
see you today.
    Dr. Skorton. You, too. Thank you.
    Mr. Joyce. You are not unlike other people who come before 
this committee where you have many problems chasing limited 
dollars. Can you describe the consequences you face if you fail 
to receive the funding needed in fiscal year 2019 for the Air 
and Space Museum project?
    Dr. Skorton. Thank you, Mr. Joyce, and it is good to see 
you again as always. Two years ago, I was asked what would 
happen if the country, for good and understandable reasons, was 
not able to support the project. And we would have to close the 
museum at some point because of the health and safety issues 
related to the cladding.
    You may notice that there already are some covered walkways 
in certain areas where we are concerned about a special 
vulnerability to the public should something actually move out 
of the cladding and fall, and so it is very, very, very 
important. However, I think you are asking me a tougher 
question, and that is what would happen, although you have 
already been generous with us and we are moving along, if you 
could not help us with the $127 million or keep things going. 
We would have to slow down the project to some extent.
    I think in the long run it would be our problem, but it 
would cost us more money to do that because of unavoidable cost 
increases. We do have fixed cost increases, of course, every 
year, and we are asking for some additional help with that in 
our appropriations request. But I think that the country would 
be served in the most cost-efficient way if somehow you could 
find in all the tough decisions you have to make a way to get 
to that $650 as quickly as possible.
    We believe that the more quickly we can get there, the more 
quickly not only can we give the American public essentially a 
new National Air and Space Museum, but we can avoid cost 
overruns which would put us in a situation that would force us 
to cut corners and go backwards on what the chairman asked me 
in terms of keeping this solid for a very, very long time. And 
then one other thing that I would mention is that other 
projects that we do need to do, as the ranking member 
mentioned, we view, I view, National Air and Space as so much 
by far our first priority that those other priorities would 
have to take a further backseat to this, which would be 
unfortunate because of the enormous visitorship in the other 
museums as well. Thank you for asking me that.
    Mr. Joyce. I understand that the physical plant, the HVAC, 
the other things in the facility, while in need of repair, that 
has all been held off to do the major redo, hopefully the major 
redo, and do all the upgrades at once, which is obviously wise. 
Do you have an expected life out of those systems? Are they 
near the end of their useful lives? Is the system about to 
break down?
    Dr. Skorton. Well, it varies with the particular system 
that you are talking about. We have known for some time that we 
would have to replace those systems. Some of them are getting 
closer to the point where it will be an urgent matter. And just 
as you said, sir, it is important, we thought, to try to do the 
whole project as one because that would be more cost efficient.
    And we also had another idea, which was the idea of the 
fabulous immediate former director of the museum, General Jack 
Dailey. And that was in addition to the systems, and in 
addition to the envelope, if you will, the roof, the cladding, 
the glass, the steel, that we want to give America 23 new 
galleries. So, we are in the process, I am in the process, of 
raising $250 million of philanthropic money to pair with the 
$650 million of public money. We are at about $70 million, a 
bit over a quarter of the way there.
    And I believe that the combination of your confidence in us 
and confidence in the importance of the museum has allowed me 
to raise money more vigorously on the philanthropic side 
because they say, well, we had a very difficult time in terms 
of Federal spending. The Federal government is investing in 
this. It must be a high priority. I, too, will want to invest 
in it. And I hope that it also shows you that we are taking 
seriously our responsibility to do everything we can to bring 
non-Federal dollars to the table as well.
    So, at the end of the day, we would have new systems, a new 
envelope, and 23 new galleries for the American public, and, as 
I mentioned, we are about $70 million toward that $250 million. 
And the Board of the National Air and Space Museum, which is 
peopled by some of the great leaders in the American aerospace 
industry, they are just a house on fire. They are just doing a 
fabulous job of not only themselves contributing funds, but 
helping to open doors for me so that we can get more people to 
do it. I am very confident that we will break the tape on that.
    Mr. Joyce. Our chairman, who is himself a wise man who is 
very frugal, our only codel last year was to your air and space 
facility where we got the chance to walk around and see all 
that you are doing. It is sad, but it is true unfortunately in 
this day and age, the need for security and what you would have 
to do to move things outside and change some of the structural 
features for how people enter and leave the museum for the 
safety of all concerned. That was not lost on me.

                   NATIONAL ZOOLOGICAL PARK SECURITY

    Let us step to the Zoo. Can you explain to me what your 
plans are for any security upgrades there where people can walk 
in and out freely? Again, a lot of visitors, and there is no 
metal detection and, from what I understand, not even a 
skeletal police force.
    Dr. Skorton. Thank you for asking another tough and very 
important question, Mr. Joyce. So, one of the things that keeps 
me up at night other than various orthopedic issues is trying 
to thread the needle and find that sweet spot between security 
for our visitors, for our staff, for our volunteers on the one 
hand, and openness and access. You will find that recently 
during spring break and during the crush of humanity to enjoy 
the Cherry Blossom Festival, that just before opening time the 
lines to our museums and the Mall were huge, sometimes around 
the corner going around the block.
    And the reason those lines are long is two reasons. One is 
that a lot of people want to enjoy these museums, and it is 
very, very gratifying, 25 million visitors last year. But the 
other reasons is that Mr. Horvath and others, the head of our 
Office of Protection Services, a wonderful professional, Jeanne 
O'Toole, in trying to find a way to thread that needle have had 
to up our game in security. America expects us to give them a 
safe environment.
    And our biggest challenge in that regard is the openness of 
the National Zoo. And Mr. Horvath, and I, and Officer O'Toole 
are spending a lot of time trying to find the optimal solution 
for that which would allow openness, allow people to enjoy the 
open environment of the Zoo. Clearly, we have work to do to 
optimize that as we do everywhere throughout the Institution. 
So, I am very glad, if you wish, to bring more detailed and 
granular details to you. I would be honored to talk to you 
about it or to anybody on the subcommittee, as would Mr. 
Horvath, as would Officer O'Toole.
    Mr. Joyce. Great. Thank you very much. Thank you, Mr. 
Chair.
    Dr. Skorton. Thank you very much.
    Mr. Calvert. Ms. Pingree.
    Ms. Pingree. Thank you. Thank you, Mr. Chair. Thank you, 
Dr. Skorton, for being here today----
    Dr. Skorton. Thank you for having me.
    Ms. Pingree [continuing]. And for bringing these wonderful 
treasures and your team with you, and for the great work you do 
to protect this national treasure, and expand it, and keep it 
alive, and everything else. It is a big job.

                           EXPANDED OUTREACH

    Dr. Skorton. Thank you so much.
    Ms. Pingree. It is what makes Washington, D.C. a wonderful 
city to visit and a great place for families, and we see that 
in this time of the year where it is just crowded everywhere, 
so that is good.
    I want to take a slightly different tack about some of the 
outreach that you do. I am very pleased to see that your 2022 
strategic plan includes an ambitious vision for expanded 
outreach, and I know I have learned a little bit about that 
before, coming from a State like Maine with limited resources. 
Yet we have also seen how arts and humanities have really 
turned around some of our communities that have lost an 
important mill, or fishing has become less profitable, or 
something else that really is an important part of the economy.
    I would just like to hear more about your goal, about what 
is available today, what programs are being taken advantage of, 
and what we could do more to promote them.
    Dr. Skorton. Thank you so much. Thank you for your 
kindness. And if I might just digress for just a quick moment, 
you see the treasures before you on the table, and people have 
given me a lot of credit today. But the other treasures that we 
have that really make the place work are the people behind me. 
Those in the row immediately behind me and the 17,000 behind 
them. So, thank you very much for your kindness. And thank you 
for opening up the topic of outreach. Please cut me off if I 
blab too long. This is very, very close to my heart.
    So, we are going to pursue outreach in two different 
directions that are quite disparate. One is we believe that 
every nonprofit owes extra effort to its hometown, so to speak. 
And so, we are going to reach into the City of Washington in 
many ways, and I mentioned already that we are going to reach 
out to every K through 12 student in the D.C. Public School 
system. And I have a Youth Advisory Council that is comprised 
of D.C. teenagers as well as those from five other communities 
in the eastern half of the country. I met with them yesterday 
evening. And I think that outreach to young people in town is 
very, very important.
    Now, in terms of national and international outreach, we 
have multiple mechanisms, and I will just quickly outline a 
couple of them, not to go on too long. We have 216 affiliate 
museums. We are in 46 States, Puerto Rico, and Panama. These 
affiliates are owned and operated locally. They are not 
formally part of the Smithsonian, and we do not request funding 
for these museums. But we share expertise. We share experts. We 
share on occasion collections. And we learn from them as they 
learn from us, and I want to give you one example of one of the 
things we are doing that links to the second, and that is the 
Traveling Exhibition Service.
    We are coming up to a major celebration, 50th anniversary 
of the moon landing next year in 2019. And we are going to take 
the moon capsule and send it around the country. Those of you 
who were around then, and I was----
    Ms. McCollum. I was.
    Dr. Skorton [continuing]. Remember that NASA did a victory 
lap the year after the moon landing and took that all over the 
United States. And we are going to do a mini-Smithsonian 
version of that victory lap and take it to five cities. It is 
going to end up on the actual day of the commemoration at one 
of our affiliates in Seattle, the Museum of Flight, which if 
anybody happens to be in Seattle is a breathtaking, fabulous 
museum. And so, we are going to combine those two kinds of 
outreach, affiliate outreach, and the outreach of the Traveling 
Exhibition Service.
    Then there is a subset of the Traveling Exhibit Service, 
which I am very proud of having lived in small towns for much 
of my life, and that is the Museum on Main Street Program that 
reaches out to rural communities. And so, a very small 
community. We have one outreach to a community with less than 
800 population. They can have a Smithsonian exhibition in their 
town thanks to the Museum on Main Street Program.
    I thank you, Ms. Pingree, for bringing up the issue of the 
arts and humanities. I am a physician and a scientist, and yet 
I believe our most profound societal problems are not going to 
be solved by science alone. It is necessary, but not 
sufficient. And we emphasize and have enormous expertise--
enormous expertise--in the arts and humanities in art, culture, 
history, anthropology, and so on. And I think the arts and 
humanities are unbelievably important for us to understand 
ethics, to understand ourselves and the world around us, and to 
understand what it means to be fully human.
    And if I can digress one more moment, on May 7th, I will be 
at a press conference at the National Academy of Sciences. As 
an individual I chaired a study for the National Academies 
about reintegrating the arts and humanities and the sciences in 
higher education, and I would very much appreciate any feedback 
members of the subcommittee have when learning about that. It 
is a big issue for the higher education community. So, thank 
you. Outreach is a big, big deal for us.
    Ms. Pingree. Great. Well, thank you very much for what you 
do and for explaining a little bit more about that to me. Thank 
you, Mr. Chair.

                           NATIONAL CAMPAIGN

    Mr. Calvert. Thank you. Some discussion about your 
ambitious multiyear campaign that you have been going through 
for the last number of years to raise money. I am curious, what 
was the initial goal of the campaign, and how much have you 
actually raised so far? How soon do you think you will be able 
to raise the balance of those funds?
    Dr. Skorton. Thank you. Well, I have the great privilege of 
doing a lot of fundraising for a lot of different kinds of 
organizations--community organizations, faith-based 
organizations, you name it. And coming to the Smithsonian, 
Chairman, I wondered without a football team that I know 
about--I am still learning about Smithsonian. But without a 
football team and without alumni in the usual sense, would 
people be generous to the Smithsonian, especially knowing the 
generosity of the U.S. Congress. And it is breathtaking--
breathtaking--what this campaign produced.
    The goal originally was $1.5 billion. I take very little 
credit for this campaign. It was kicked off by my wonderful 
predecessor, Dr. Wayne Clough, and the American public helped 
us blow by that goal. We reached $1.88 billion, and two 
statistics I would like to share with the subcommittee that I 
am very proud of. One is that 93 percent of the gifts in the 
campaign were a hundred dollars or less.
    Mr. Calvert. Wow.
    Dr. Skorton. Ninety-three percent of the gifts were a 
hundred dollars or less. So, a lot of people who have their 
heart in the right place with limited capacity were able to be 
a part of the Smithsonian. One example of that is the National 
Museum of African-American History and Culture. When it set up 
a membership program, the entry-level membership was $25. So, 
quickly about a hundred thousand people were able to say to 
themselves and be members of this museum.
    The other end of the spectrum is that 356 people gave a 
million or more each, so we got to $1.88 billion, and we are 
going to continue to do very robust fundraising. Again, I 
return to the National Air and Space Museum project, that is 
going to be, again, like the whole Smithsonian throughout its 
history, a public/private partnership. And that is why we are 
so devoted to raise and even exceed that $250 million.
    Mr. Calvert. Great job. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. I am glad Ms. Pingree 
asked about the creativity aspect of it because we talk about a 
lot about STEM here in Washington, D.C. But when I am at home 
in Minnesota, we talk about STEAM because we add the arts----
    Dr. Skorton. Yes. Yes.
    Ms. McCollum [continuing]. Because all the wonderful things 
that you brought today had either a connection with the 
humanities or the arts----
    Dr. Skorton. Yes.

                           SOUTH MALL CAMPUS

    Ms. McCollum [continuing]. Whether it is standing up for 
women's rights as the gavel does, or the music is arts and 
humanities, and then some of the engineering and science that 
we see. Our higher education institutions--and I am proud to 
have 22 of them in my district--we are the envy of the world 
with our higher education because we do have that creativity, 
that thinking outside of the box.
    But I am going to back to bricks and mortar because that is 
pretty much what the chairman and I are trying to figure out 
how to make work for you.
    It sounds like you spend all your time fundraising, and I 
know you do not because you are very on top of the day-to-day 
management. But I am going to ask about the South Mall campus. 
You have been working on a redesign for several years now, and 
for those who might not be familiar with where the South Mall 
campus actually is, it is the Castle, the Hirshhorn, the Freer, 
and then the Arts and Industries Building which I was asking 
about before. There are several gardens that connect with the 
pollinator garden on the other side of the Mall as well.
    The master plan has really changed since the original 
concept in 2014, and you are working your way through a 
planning process, and the comment period on the programmatic 
agreement closes in May. Can you update us a little bit on how 
this project is going, what your estimated cost of the master 
plan might be, and the timeframe? You did not request anything 
in this year's budget for it, so that is why the curiosity has 
gotten to me on this. Maybe it is because you are waiting for 
it and we are going to have a big ask in the next budget. 
Bottom line is, I know you are out there privately fundraising 
for a lot of things, but what your public/private match on the 
South Mall campus?
    Dr. Skorton. Thank you. Very, very important set of 
questions. Let me first start by just reminding myself and all 
of us what a master plan is. It is not a specific project that 
is ready to bring to the subcommittee or ready to bring to a 
planning commission. It is a general concept of where we have 
to get, a general destination for changing things. And we need 
to do some rethinking of the visitor experience and the entire 
South Mall area; how people can approach these museums from the 
Mall side from Jefferson Drive, how they can approach from 
Independence, how they interconnect with each other; how we 
load things, stuff that goes to the different areas, how many 
loading docks we have; how we have the support functions, the 
systems, electrical and so on for the entire area. And that was 
part of the idea of having a master plan, again, that I give 
the credit to Mr. Horvath and to Wayne Clough.
    Now, we have gone through several alternatives, as you 
mentioned, and the plan has evolved. We have settled on 
Alternative F as a specific way that we think the master plan 
should go. And I did not come today prepared with a lot of 
details or schematics about the master plan, but I am very glad 
to follow up at your request with you personally or with the 
subcommittee to remind you exactly what Alternative F is.
    I have heard more about the Haupt Garden than anything in 
this project, and I am very glad to have heard it, and I 
appreciate that you mentioned a pollinator area. To burden you 
with one piece of personal information, my wife and I are 
beekeepers, and I have been stung more than she has, but that 
is my clumsiness. But I am very, very engaged with the garden. 
And we had a schematic done by the architectural firm that we 
engaged to help us with the master plan, a schematic when it 
first came out that showed something pretty specific about what 
the Haupt Garden would look like. And in retrospect, I think we 
should not have had such a specific thing because we are not 
anywhere close to having specificity.
    I will tell you three things about the gardens in that 
master plan. Number one, we are absolutely positively committed 
to have at least as much garden space and probably more than we 
had before. Number two--number two--we are absolutely committed 
to make sure that the ambience of the garden and the way people 
can interact with it is reminiscent and evocative of the 
wonderful sense that people get going out there, including 
myself. My immediate office window and the office window for my 
support staff looks right out on the Haupt Garden, and I go out 
there frequently on some pretext just to get a little taste of 
that garden. But thirdly, it is a roof garden and it is 
leaking, and something does need to be done to redo the 
structure so that it will not leak on the areas below.
    And so, like the question that was asked about doing the 
systems for Air and Space, and the cladding, and the galleries, 
in this way as well, we want to tackle it in a systematic 
fashion that will allow us to do the right thing by the roof 
leak, do the right thing by the garden and the many, many 
people who love the garden, including me, and also do 
everything else that we need to improve for the long term the 
experience. We are not prepared to give you anything like a 
specific number today. It will be in excess of a billion 
dollars by the time all is in.
    The Castle itself is a very, very big, big project that we 
have to get to at some point, and we are glad to develop a 
briefing if you like just on the master plan and share details 
with you. But we are interacting carefully with the public 
bodies that are involved in approving aspects of it and very 
glad to come back and share more details with you.

                   ENERGY SAVINGS AND SUSTAINABILITY

    Ms. McCollum. Mr. Chair, there is nothing more 
controversial than what someone's garden should look like 
because we all have our own vision. As a person who lost having 
a whole yard to garden down to a window box, which gets changed 
frequently I might add, I appreciate what you are saying about 
the focus all became on the gardens there for a while and not 
everything else.
    I think when you are looking at whole systems and 
replacement of HVACs and that, as Mr. Joyce put up, what would 
be helpful for the committee when we are looking at that would 
be to see the savings in doing the duct work right for the 
first time for what systems are going to be in the future, 
because sometimes duct work radically changes.
    Dr. Skorton. Yes.
    Ms. McCollum. And it can change the space inside of a 
building and how you can use that. And then the energy savings 
that you potentially see. I know when you mentioned having the 
right systems in place for the number of visitors that are in 
there on a hot day, or a cold day, or a humid day. It makes a 
huge difference, but along with that comes energy savings----
    Dr. Skorton. Yes.
    Ms. McCollum [continuing]. Which will not take your bottom 
line down, but will help with inflation and increased costs 
into the future. I think sometimes letting us know some of 
that, that it has all been thought out would be very helpful 
not only to us, but the public who might have a question on 
that. Thank you, Mr. Chair.
    Mr. Calvert. Thank you.
    Dr. Skorton. If I may just comment quickly, and I will make 
it quick.
    Mr. Calvert. Sure.
    Dr. Skorton. Thank you for bringing those items up. I will 
pledge to you that Mr. Horvath and I will develop a specific 
briefing related to the two matters that you brought up, 
especially sustainability and energy savings. It turns out that 
we are engaged in a very significant initiative for that. 
Coming up in just a few days we are going to be celebrating 
LEED certification of the National Museum of African American 
History and Culture, and we have a LEED certification of the 
Anacostia Community Museum and other parts of our campuses. And 
it is very, very important to us both from the point of view of 
doing the right thing, but also, as you say, for long-term cost 
savings. So, we will develop a briefing for you. Thank you.
    Mr. Calvert. Mr. Joyce, do you have any additional 
questions?
    Mr. Joyce. Thank you, Mr. Chairman. I have no more 
questions, but for the record, I want to say that we traveled 
back and forth to the Air and Space Museum in the chairman's 
lovely automobile. [Laughter.]
    Dr. Skorton. I will not comment on any interactions among 
the committee members. I will just stay out of it. [Laughter.]
    Mr. Calvert. I am a fellow beekeeper.
    Dr. Skorton. Oh, my goodness.
    Mr. Calvert. It reminds me Einstein once said, ``the 
quickest way to destroy the human race is to destroy the 
bees''.
    Dr. Skorton. Yep.

                         COLLECTIONS MANAGEMENT

    Mr. Calvert. One last question on the preservation of 
collections. That is one of your most important roles is to 
strengthen the preservation and care of these objects that are 
before us. Your fiscal year 2019 budget request continues this 
effort by including $69.8 million within the salaries and 
expense account for strengthening the Smithsonian collections. 
Now, this is of great interest to members. Can you describe the 
efforts taken in recent years to improve preservation and care 
for the Smithsonian collections, and what does the proposed 
funding in the budget request allow you to do in the coming 
year?
    Dr. Skorton. Thank you. So, we are taking a very systematic 
approach to this, and it has multiple components, and I will 
try to be brief. It is a very involved issue. As time goes on 
and as we expand to reach a billion people a year which is our 
goal, and as we do a better job of telling the story of women 
in America, Latinos in America, and everyone, we will certainly 
add to this already staggering size of the collection.
    So, we really have two sets of issues. One set of issues is 
how do we protect these absolutely irreplaceable objects? There 
is no coming up with another watch that clocked the first human 
flight, and so we are doing that in a systematic way. And as 
you are aware, Mr. Chairman, and I very much appreciate you 
bringing it up, not all of our collections storage and 
preservation areas are up to the standard that we believe they 
should be.
    We are about a third of the way toward design of Pod 6, 
which we mentioned before, and hopefully the time will come 
that we can get some assistance to make Pod 6 a reality. But 
one area is having the approach, and one area is having the 
actual space to do it. The second issue will be for new 
collections that come in, and we will have more collections 
even in addition to the staggering number that we have now.
    It is hard to predict what our needs will be for 
collections management until we know what those objects are. 
And so, 140 million plus of our objects are biological 
specimens, and that obviously requires one certain type of 
collections environment. And then the Enola Gay, or these 
papers, or Dizzy Gillespie's trumpet require a different type. 
They all require careful protection from the elements. They all 
require temperature and humidity controls of various types. And 
we are utilizing those funds to move along in a systematic way 
to upgrade the facilities that we have and continuing design 
work that you have supported for us toward a day where we have 
Pod 6 online. Thank you for asking that.
    Mr. Calvert. I have always been intrigued on your inventory 
system that you must have. I always remember the movie, Indiana 
Jones, where they had the Ark of the Covenant, and they were 
boxed in the back of a warehouse someplace. I know, in great 
specificity, that you know everything that is in these 
warehouses. Is that correct?
    Dr. Skorton. I did not hear you. You are breaking up, so. 
[Laughter.]
    I will tell you that they let me do some backstage stuff, 
as you can imagine, and when I get there and I start sort of 
noseying around the drawers, in a very polite, respectful way 
they say, why don't you sit over there, we will just bring the 
stuff to you. But thank you. It is very much like the movie. 
[Laughter.]
    Mr. Calvert. Thank you, and if there are no additional 
questions, we are adjourned. Thank you.
    Dr. Skorton. Thank you very much.

                                           Tuesday, April 17, 2018.

                         INDIAN HEALTH SERVICE

                                WITNESS

REAR ADMIRAL MICHAEL D. WEAHKEE, ACTING DIRECTOR, INDIAN HEALTH 
    SERVICE, WASHINGTON, DC
REAR ADMIRAL MICHAEL TOEDT, CHIEF MEDICAL OFFICER
REAR ADMIRAL (RETIRED) GARY HARTZ, DIRECTOR, ENVIRONMENTAL HEALTH AND 
    ENGINEERING
ANN CHURCH, ACTING DIRECTOR OF FINANCE AND ACCOUNTING

                  Opening Remarks of Chairman Calvert

    Mr. Calvert [presiding]. Good morning, everyone, and 
welcome to the House Appropriations Committee oversight hearing 
on Indian Health Service budget for fiscal year 2019. We are 
joined this morning by the acting director of IHS, Rear Admiral 
Michael Weahkee; chief medical officer who will be here 
shortly, Rear Admiral Michael Toedt; and director of 
environmental health and engineering, Rear Admiral Gary Hartz; 
and the acting director of finance and accounting, Ms. Ann 
Church. Thank you all for being here today and your dedication 
to the mission of Indian Health Service.
    As stated by Congress in the permanent reauthorization of 
the Indian Health Care Improvement Act, ``It is the policy of 
this Nation, in fulfillment of its special trust reps and legal 
obligation to Indians, to ensure the highest possible health 
status for Indians and urban Indians, and provide all resources 
necessary to affect that policy.''
    The National Indian Health Board estimates that the full 
needs-based budget for Indian Health Service is $32 billion in 
2019. The current fiscal year budget is $6.9 billion, and 
comprised of $5.5 billion in discretionary appropriations, and 
$150 million in mandatory appropriations, and an estimated $1.2 
billion in collections from Medicaid, Medicare, and other 
sources.
    The administration proposes $114 million net decrease in 
appropriations for the IHS in 2019. While some of the specific 
proposals may have merit and warrant further consideration by 
this subcommittee, I think it is safe to say that an overall 
cut to the Indian Health Service budget continues to be a non-
starter for this Congress. This subcommittee will continue to 
place the Indian Health Service budget among its highest 
priorities for 2019.
    Over the past 8 years, the IHS budget as a percentage of 
total billed has grown from 13 percent in 2010 to 16 percent in 
2018. Over that same period, the IHS budget has increased by 
$1.5 billion and accounted for half of the total growth of this 
bill.
    We are very proud of our work, but we recognize that very 
much more needs to be done. In its latest facilities needs 
assessment report to Congress, the IHS estimated that any 
facility built in 2016 will not be replaced for 400 years. An 
estimated 92,354 patient referrals for services only available 
outside the IHS system, costing an estimated $424 million were 
denied or deferred due to insufficient funds in 2016. Perhaps 
no other statistic sums up our challenge more than this one. 
The average life expectancy for American Indians and Alaska 
Natives is 4.8 years less than any other group of people in the 
United States.
    The IHS user population is estimated to increase by 56,189 
patients in 2019 costing an additional $185 million. Pay costs 
across the IHS system in 2019 are an additional $47 million. 
Inflation costs are an additional $80 million. Contract support 
costs are an additional $104 million. Six new or expanded 
facilities are scheduled to open in 2019.
    Come on in, gentlemen. We are just starting----
    Rear Admiral Weahkee. We apologize, sir.
    Mr. Calvert [continuing]. My opening statement just to save 
some time. I appreciate it. I understand the crowds out front.
    Including three constructions via the Joint Venture 
Program. Meeting the Federal government's obligation to staff 
these facilities is an additional $159 million. Added together, 
fully meeting the Federal government's contractual obligations 
and maintaining current levels of service in 2019 are estimated 
to cost an additional $575 million above 2018.
    The magnitude of the challenge before us is enormous and is 
on par with the wildland fire funding challenge that this 
subcommittee has been battling for the last several years until 
recently, until we have finally found, I hope, the final 
solution. That is why like fire funding, the Administration and 
Congress need to continue to consider every option and strategy 
providing high-quality healthcare to the American Indians and 
Alaska Natives, and fulfilling the commitments made by our 
predecessors. I look forward to continuing that discussion 
today and in the days ahead.
    Before turning to Rear Admiral Weahkee for his opening 
testimony, I am pleased to yield to the subcommittee's 
distinguished ranking member, Betty McCollum, for any opening 
remarks.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you, Mr. Chair. I look forward to you 
and I having a productive hearing. I would like to welcome our 
witnesses, and I hope when we discuss the budget that you will 
be able to share your insights and impact of having acting 
directors since 2015 and the effect it has had on this Service. 
So, I especially look forward to hearing from you, Admiral, on 
this.
    Every year in this hearing, I focus on the stark contrast 
between the health of Native Americans and Native Alaskans and 
the rest of the population of the United States. The contrast 
is clear between the way that these two special groups that we 
have treaty obligations with are treated differently. Their 
disparities include lower life expectancies, higher rates of 
heart disease, cancer, diabetes, even tuberculosis, and 
substance abuse disorders. Additionally, suicide rates are 4 
times higher than the national average, and suicide is the 
second-leading cause of death for Indian youth.
    Like all health outcomes, these disparities have complex 
roots, but one of the fundamental causes is the severe under 
funding of the Indian Health Service. In recent years, this 
subcommittee has worked together to make a nonpartisan effort 
to increase funding for IHS even while operating under very 
constrained allocations. In the fiscal year 2018 omnibus, 
Congress provided $5.5 billion for Indian Health Service, but 
disproportionately, President Trump's fiscal year 2019 budget 
request proposes to cut that amount by $263 million. This 
reduction would set back the progress we are making to improve 
healthcare and diminish the health disparities I just 
mentioned.
    Our goal today is to understand the Indian Health Service's 
challenges and to look for ways that we can work together 
towards solutions. Funding for the Indian Health Service has 
been an area of broad bipartisan cooperation, and this 
subcommittee has provided increases to Indian Health Service 
appropriations over the last several years. Longstanding issues 
in the Great Plains region, which is adjacent to Minnesota, are 
a clear example that more needs to be done. We cannot have 
Indian Health Service hospitals losing their certification and 
placing their patients at risk.
    So, today I hope you will be able to discuss the steps you 
are taking to improve the quality of Indian health services you 
provide, explain how you are addressing maintenance and backlog 
to improve our healthcare facilities, and tell us what you are 
doing to strengthen the organization and improve staff 
recruitment and retention. I hope you will also address several 
troubling proposals contained in the fiscal year 2019 budget. I 
am greatly concerned by the elimination for funding health 
education, community health representatives, and tribal 
management. Additionally, I oppose the budget's proposed 42 
percent reduction to health facilities maintenance 
construction.
    Over two-thirds of American Indians and Alaska Natives are 
urban Indians, and the services provided by urban Indian health 
programs are critical to address the economic and health 
disparities urban Indians experience. I am concerned that the 
fiscal year 2019 budget proposes a 6 percent funding reduction 
from the fiscal year 2018 omnibus, with the number of programs 
about to increase from 33 to 40. This Administration should be 
asking for an increase to support these centers, and I hope we 
will have an opportunity to discuss it today.
    I am also incredibly disappointed at the Administration's 
proposal to shift the Special Diabetes Program from mandatory 
to discretionary. IHS' discretionary accounts are already 
struggling to provide vital healthcare services and 
preventative healthcare. Not utilizing the authorized mandatory 
funding, in my opinion, is just another gimmick that makes the 
White House appear to have some fiscal responsibility, even as 
the White House continues to explode annual deficits by 
trillions of dollars with policies such as the Republican tax 
bill.
    As this Nation, a prosperous Nation, here in the United 
States, we should be working together to build a stronger 
America for tribal nations and to eliminate disparities between 
the better health outcomes enjoyed by most Americans and the 
persistent health problems within Native American and Alaska 
Native communities. We must make smart, sustainable investments 
throughout Indian Country to bridge those gaps. We need to find 
comprehensive solutions, holistic approaches to address health, 
education, and the quality of life, the needs of Native 
Americans. Unfortunately, this proposed IHS budget will not 
help us achieve that goal.
    So, I look forward to working with my subcommittee chairman 
and the other members of this subcommittee so that we craft a 
bill that appropriately funds IHS. We have a moral and legal 
responsibility to Native Americans, and we fall short. It is 
not just a violation of treaty agreements that we hold with 
Native Americans, but it is a violation of the trust that we 
should be sharing together.
    Mr. Chairman, I thank you for holding this hearing today. I 
look forward to working with you on these important issues and 
doing our part to build healthy tribal communities. I yield 
back.
    Mr. Calvert. I thank the gentlelady. And, Admiral, you are 
recognized for your opening statement.

        Opening Remarks of Acting Director RADM Michael Weahkee

    Rear Admiral Weahkee. Good morning, Chairman Calvert, 
members of the subcommittee. I am Rear Admiral Michael Weahkee, 
acting director of the Indian Health Service, and I thank you 
for your support and for the opportunity to testify on the 
President's fiscal year 2019 budget. This budget advances our 
mission to raise the physical, mental, social, and spiritual 
health of American Indians and Alaska Natives to the highest 
level.
    The Indian Health Service provides health services to 
approximately 2.2 million American Indians and Alaska Natives 
from 573 federally-recognized tribes across 37 States. The 
President's fiscal year 2019 budget proposes $5.4 billion in 
total discretionary budget authority for the IHS, and this is 
an increase of $413 million above the continuing resolution, 
which was the comparison level at the time the budget request 
was developed.
    The budget reflects the Administration's strong commitment 
to Indian Country by protecting direct clinical healthcare 
investments. It increases IHS' discretionary budget authority 
by 8 percent. In order to prioritize direct clinical healthcare 
services, the budget proposes to discontinue the Health 
Education Program and the Community Health Representatives 
Program.
    The budget request includes $58 million to address 
accreditation emergencies within IHS and improve quality of 
care; $955 million for the Purchased and Referred Care Program; 
$80 million for the construction of two facilities on the 
healthcare facility construction priority list; $159 million to 
staff six new or replacement healthcare facilities, including 
three joint venture projects; and an estimated $822 million for 
contract support costs which remains a separate indefinite 
appropriation to guarantee full funding.
    The Indian Health Service remains committed to addressing 
behavioral health challenges, including high rates of alcohol 
and substance abuse, mental health disorders, and suicide in 
native communities. The proposed budget for these services is 
$340 million. Further, the budget provides $10 billion in new 
resources across HHS to combat the opioid epidemic and serious 
mental illness. As part of this effort, the budget includes 
$150 million for IHS grants based on need for opioid abuse 
prevention, treatment, and recovery support in Indian Country.
    The Special Diabetes Program for Indians is instrumental in 
improving access to diabetes treatment and prevention services 
in Indian communities. Diabetes-related health outcomes have 
improved significantly. The long-time trend of increasing rates 
of diabetes ended in 2011, and we have observed a 54 percent 
decrease in new cases of kidney failure due to diabetes among 
native adults. And the budget continues funding for this 
program at $150 million.
    We are working aggressively to address quality of care 
issues across our system, and in spite of ongoing challenges 
involving recruitment and retention of providers, aging 
infrastructure, and rural health facilities, today we are able 
to report progress. The Pine Ridge Indian Hospital is back in 
compliance with the conditions of participation for emergency 
services. The hospital is now in a reasonable assurance period 
pending a full survey to determine if it has maintained its 
compliance. The Rosebud Indian Hospital satisfied the 
requirements of the Systems Improvement Agreement with CMS in 
September of 2017, and we are now awaiting a re-survey at that 
site as well.
    We are also addressing concerns in the Navajo area at the 
Gallup Indian Medical Center. Both the Joint Commission and the 
Centers for Medicare and Medicaid Services surveys found the 
hospital emergency department to be out of compliance with 
their standards and conditions of participation. We moved 
quickly to address those findings, and efforts to restore 
accreditation of all services surveyed by the Joint Commission 
continue. The facility must now undergo a full CMS survey to 
ensure Medicare Program compliance.
    We have achieved progress in the areas of oversight and 
management of quality, and some key accomplishments include: 
credentialing and privileging policy and process modernization, 
development of a standardized patient experience survey, and 
the establishment of primary care patient wait time standards. 
I am proud of the efforts and the commitment of the staff for 
the progress that has been made so far, and we are firmly 
committed to improving quality, safety, and access to 
healthcare for American Indians and Alaska Natives.
    We appreciate all of your support, and we are happy to 
answer any questions that you may have.
    [The statement of Acting Director Weahkee follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    
                          PER CAPITA SPENDING

    Mr. Calvert. Thank you. Thank you for your testimony. As 
recently as 2015, the Indian Health Service published an annual 
chart comparing per capita spending on IHS patients against 
other Federal programs and the nationwide per capita average. 
In 2015, the nationwide average was roughly $8,500 while the 
IHS average was $3,100. In the National Indian Health Board's 
update for 2017, the IHS average is up slightly at $3,300, but 
is not keeping pace with the nationwide average of $9,200.
    Here is the question. Is the National Indian Health Board's 
assessment of the increasing trend in per capita spending on 
IHS patients consistent with the Indian Health Service 
estimate?
    Rear Admiral Weahkee. Thank you for that question, 
Chairman. The IHS has updated our charts for 2017 and have 
validated the numbers that the National Indian Health Board has 
published. Those numbers are valid and in line with our own 
projections.
    Mr. Calvert. Is it accurate to conclude then that the per 
capita spending on IHS patients is on the rise because of 
increases in appropriations for the Indian Health Service have 
outpaced fixed costs, inflation, and population growth?
    Rear Admiral Weahkee. Thank you, Chairman. The Indian 
Health Service very much appreciates the increases to the 
Agency's budget over the last 10 years, and we have seen some 
significant improvements as a result. I do want to identify 
however, that the Agency's budget was significantly 
underfunded, and it would take quite some time to make up for 
the lost revenues, lost third-party revenues, and with 
inflation being taken into account. At the current pace, we 
still have a lot of room to make up.
    We are also still contending with the 2013 sequestration 
that took $220 million out of the IHS direct service base 
budget, so we appreciate the funding increases. However, there 
is a lot of room yet to make up.
    Mr. Calvert. OK. I will wait until the second round for my 
next question. With that, Ms. McCollum.
    Ms. McCollum. Mr. Chairman, as you know, there are many 
hearings at the same time, so with your permission, I would 
like to yield to Mr. Kilmer.
    Mr. Calvert. Mr. Kilmer.

                         DISCRETIONARY FUNDING

    Mr. Kilmer. Thank you, Chairman, and I thank the ranking 
member for the courtesy. American Indians and Alaska Natives 
are substantially more likely to be diagnosed with diabetes 
than the general population. The Special Diabetes Programs for 
Indians, provides funding for diabetes treatment and prevention 
to approximately 301 Indian Health Service tribal and urban 
Indian health programs and the program is authorized through 
2019. First, why does the fiscal year 2019 President's budget 
propose to shift funding from mandatory to discretionary 
spending, and can you speak to what impact that shift to 
discretionary will have on the Indian Health Service's ability 
to fund other programs?
    Rear Admiral Weahkee. Thank you, Congressman. With regards 
to the proposal to move SDPI from mandatory to discretionary, 
this is part of a greater Administration policy decision, not 
only looking within the Indian Health Service at our current 
mandatory line which is SDPI, but at all the MACRA extenders 
and moving those out of the mandatory into the discretionary to 
provide the Department with greater flexibility in identifying 
its priorities.
    So, we are kind of caught up, in this program specifically, 
in that greater Administration policy decision.
    Mr. Kilmer. Do you see it impacting the other discretionary 
programs under IHS?
    Rear Admiral Weahkee. When programs are lumped together, 
there are decisions that have to be made, and I have heard from 
tribal leaders in consultation that there could be some 
unintended consequence of that move. The ability to plan for 
grants, the requirement to have to deal with continuing 
resolutions are a couple of examples that were put out early. 
So, when it comes to competing priorities, there will be hard 
decisions that would need to be made from time to time.

                      URBAN INDIAN HEALTH PROGRAMS

    Mr. Kilmer. Thanks. The number of urban Indian health 
programs is slated to jump from 33 to 40 this year. And I am 
curious how your Agency will support those additional programs 
given the proposed funding cut to the Urban Indian Health 
Program line item.
    Rear Admiral Weahkee. Thank you, sir. With regards to the 
urban health programs that are slated to be added to the Urban 
Indian Health Program line, this is actually an administrative 
movement. We had those programs currently funded out of our 
Alcohol and Substance Abuse Program. They are NIAAA programs 
that are being realigned administratively over into the Urban 
Indian Health Program line. So, the funds will come with them.

                      CARE COORDINATION AGREEMENTS

    Mr. Kilmer. OK. The ITU System of Care should be expanding 
its specialty care network through the use of care coordination 
agreements which allow tribal 638 facilities to contract 
directly with providers to deliver healthcare services. And 
these agreements are powerful tools to help support expanded 
access to specialty care in Indian Country. Can you just 
discuss the role that you and the IHS have played in helping 
ITU develop care coordination agreement templates so that they 
can enter into an existing specialty care network?
    Rear Admiral Weahkee. Thank you, Congressman. With regards 
to care coordination agreements, the majority of this work has 
been facilitated in the field as each of the individual states 
have different rules. And we do have frequent meetings here at 
the national level with the Centers for Medicare and Medicaid 
Services. Dr. Toedt meets at least once a month with our 
counterparts at CMS. Also, at the Department level we have 
meetings, administrator to agency director, to discuss items 
like care coordination agreements. So, I would say at this 
point that a lot of that work is going on with our area 
directors and with our service unit leadership.
    Dr. Toedt, anything you would like to add since you have 
been our lead in discussions with CMS?
    Rear Admiral Toedt. Thank you, sir. So, care coordination 
agreements are mutually beneficial. They provide much-needed 
access to care, and they also provide better care coordination 
for our patients. So, we encourage them. We support them. We 
have had meetings to facilitate with our area directors, with 
CMS. I recall the most recent meeting I had was in the Great 
Plains area where we were discussing how to expand care 
coordination agreements in South Dakota. But we support them 
across the Nation.
    Mr. Kilmer. Thanks. I yield back. Thank you, Chairman.
    Mr. Calvert. Thank you. Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman. I thank you for being 
here, and I thank you for the work that you do. As has been 
mentioned, Indian healthcare has been a bipartisan effort in 
this committee trying to find the resources to do what we need 
to do. And Ms. McCollum said, it is both a trust and a moral 
responsibility that we fund Indian healthcare. And the last 
several years, it is kind of interesting, we have focused on 
increasing the quality and availability of healthcare to Native 
Americans. We have done somewhat at the expense of not focusing 
on some other needs on reservations, whether it is law 
enforcement, or education, and those types of things. And those 
are areas that I know that the chairman has been focused on 
over the last couple of years, how do we do all of these 
things. It is a tough nut to crack, but it is something that we 
have to do. As I said, it is a moral responsibility for all of 
us.

                              GREAT PLAINS

    I was glad to hear that Rosebud and Pine Ridge are 
apparently getting their certifications?
    Rear Admiral Weahkee. We are moving in the right direction, 
sir.
    Mr. Simpson. Are there any other factors? I mean, we went 
to several of the reservations in South Dakota. Rosebud and 
Pine Ridge were, I would say, behind the Cheyenne River Sioux, 
and the Standing Rock, and some of the others in the quality of 
their care. Are there other factors that have led to this? Is 
it management? Is it other things that need to be corrected?
    Rear Admiral Weahkee. Thank you, Congressman Simpson. I had 
the opportunity to spend 5 months, as did Dr. Toedt, in Rosebud 
helping to work on the issues that were impacting that 
particular hospital and have made several visits to Pine Ridge 
since coming into the acting role. And where I think that the 
work and efforts should be focused is on social determinants of 
care, so issues that are impacting the entire community prior 
to them coming into the healthcare setting, like job 
availability and economic development, availability of safe 
housing, healthy foods availability. Some of the items that you 
have mentioned that do need attention as well: schools, 
increasing access to better education. So, dealing with those 
social determinants are important and would result in less 
demand for service on the healthcare system in general.

                             CREDENTIALING

    Mr. Simpson. Talking about that, I ask this question almost 
every year. It is about centralized credentialing. It is a 
question, as I said, I ask each year. Having been a former 
dentist, I know that it is a barrier to getting providers out 
to reservations, and that is one of the big challenges we face. 
How do you get providers to go out there, how do you find a 
place for them to live? Some of these places are pretty remote 
and pretty desolate actually.
    How is it going, and have you seen improvements in 
providers at IHS facilities? And I understand that the current 
breakdown is getting providers credentialed occurs at the local 
and regional level. How will the new centralized credentialing 
system address this problem?
    Rear Admiral Weahkee. Thank you for the question, and I am 
happy to report that we do now have all of our Federal sites on 
a centralized credentialing system. They are all using the same 
software and entering information in the same manner. This 
provides us with some level of portability of those records 
from site to site, so we can expect to see over time that the 
amount of time that it takes to credential and privilege 
providers should decrease because of these efficiencies.
    Dr. Toedt actually chaired the implementation of this 
particular policy and centralization, so I would like to ask 
him if he could add some additional insight.
    Rear Admiral Toedt. Happy to do so. The rollout of the 
centralized credentialing was a key recommendation from you, 
and we took that to heart. This was a project that took a lot 
of effort, but we were successful in having all of our Federal 
sites now having all of our providers credentialed in a single 
database. We do still require privileging at each individual 
site. The privileges have to match the capabilities of the 
facility, so there is still that decision-making part. We also 
made sure that we are not sacrificing any element of safety 
because credentialing is the cornerstone of safety to protect 
our patients and make sure that all of our providers are fully 
qualified. But I am happy to report that the single 
credentialing system is in place.

                                STAFFING

    Mr. Simpson. Do you have any idea how many vacancies we 
have for providers?
    Rear Admiral Weahkee. We do have great tabs on all of our 
providers, not only by provider, but provider type. So, in 
terms of percentages for physicians specifically, we are in the 
34 percent range. Advanced practice nurses, about that same 
level. Physician Assistants, a little bit better, but still 
right at about 29 percent. So, we do have still have 
significant challenges with filling these vacancies, and we are 
making up for it by the use of very costly contracts.
    Mr. Simpson. Thank you for what you do. We look forward to 
working with you to try to solve some of these problems in the 
future. Thank you, Mr. Chairman.
    Mr. Calvert. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. I want to go back to 
the big picture. I know you are doing the best job you can, 
Rear Admiral Weahkee. But part of the challenge that we are 
struggling with is four acting directors since 2015 does not 
allow for a whole lot of continuity. When you are dealing with 
improving statistics on lower life expectancy, disproportionate 
disease burdens, heart disease, cancer, the recommendation that 
the President unfortunately has made to go from mandatory to 
discretionary funding for diabetes, and other things, it is 
quite daunting what you are tasked to look at.
    So, from your knowledge as being the most current acting 
director in the Indian Health Service, exactly what would this 
impact of the $264 million reduction from the 2018 omnibus bill 
have on meeting healthcare needs? Then I have a follow-up after 
you answer that one, sir.
    Rear Admiral Weahkee. Thank you, Congresswoman McCollum. 
And with regards to the continuity of leadership, I have had 
the privilege of having the most recent acting director, 
Admiral Chris Buchanan, serving as my deputy director as I am 
in the acting director role. So, there is continuity and ready 
access to his expertise and insights. I have also relied 
heavily on those who have come before me, so I dialogue 
frequently with previous directors, Admiral Charles Grim, Dr. 
Yvette Roubideaux, and we have great partners in Indian Country 
with the National Indian Health Board, National Council of 
Urban Indian Health, National Congress of American Indians. So, 
there are a lot of supports to somebody serving in this role.
    With regards to budget reductions or proposed reductions, 
as identified there are many needs within Indian Country, and 
the IHS in particular. And we have already identified through 
having a Federal Disparity Index and a line item for Indian 
Healthcare Improvement Fund that there is room for improvement 
in the funding of our programs. So, any reduction to Indian 
Health Service funding would be a detriment.

                        FISCAL YEAR 2019 BUDGET

    Ms. McCollum. Along with the reductions unfortunately that 
the White House proposed on Indian health services, there are 
agencies that you work hand-in-hand with in a comprehensive 
approach for wellness, because you work to reduce risk factors 
with heart disease, cancer, diabetes, tuberculosis, and 
substance disorders. Can you describe how you are working with 
other agencies, if they are facing similar reductions? Is there 
a compounded cut to the work that we are doing in this area? 
Because in the proposal, community health representatives and 
tribal management grants are eliminated. These are some of the 
very people that you were talking about, working on health 
improvement.
    How does eliminating tribal grant management grants impact 
the projects that you have, for example, on implementation of 
electronic health records? And are you tracking what is going 
on in the centers? I will just use the CDC for an example which 
works on suicide prevention as well as working on opioid, 
alcohol, and drug abuse, and recovery? Are you tracking those 
budgets to see if it is a compounding effect with this cut that 
the White House has proposed?
    Rear Admiral Weahkee. Thank you again for your question, 
and I caught several in there. I would like to start with the 
collaborations and keeping tabs on what is going on with our 
sister agencies. We do have many partnerships developed with 
agencies like the Centers for Disease Control and Prevention on 
preventive matters. We have recently partnered with them on 
infection control training, and we are able to leverage those 
resources to train more than 300 of our own staff on infection 
control standards in our facilities.

                                OPIOIDS

    With SAMHSA, Substance Abuse and Mental Health Services 
Administration, they have already received a good, sizable 
increase in funds to combat the opioid epidemic, and we are in 
initial dialogue with them about how they intend to use those 
funds, again really encouraging them to reach out to tribes and 
discuss what the needs are. I have heard directly from our 
tribal stakeholders that they would much prefer to receive the 
funds directly as opposed to going through a grant mechanism, 
and they have also voiced concern about funds going through 
States. They do not always make it to the tribal level.
    Ms. McCollum. Sir, not to cut you off, but I think we agree 
that the opioid funding is working towards being robust to 
address this problem. But my question was, and you pointed out, 
about the work, the collaboration that you do with the CDC, 
whether it is tuberculosis or other preventative diseases, do 
you know if the CDC is cut in the President's budget? Have you 
had concerns or questions about some of the other things? You 
said you used it to train 300 people? Do you know if there are 
cuts in there that are going to have an impact for you being 
able to do what you need to do, facing the fact that you are 
already looking at a $264 million cut yourself? Have you cross-
tabbed those budgets?
    Rear Admiral Weahkee. No, ma'am, we have not from within 
the Agency, and we would be happy to work with our Department 
of Health and Human Services financial office to provide you 
with information specific to Indian programming.
    Ms. McCollum. Thank you. Mr. Chair, I will conclude this 
round of questioning with this. If we do not look at the big 
picture about what is happening in some of these other agencies 
where there is collaboration and there are further reductions 
in cuts, we won't know what this means to Indian Country and 
the work that we are doing. If we are able to increase IHS and 
then the CDC gets a cut and it is not able to do its 
programming, it still puts us behind. So, I would encourage us 
to get that information. Thank you, Mr. Chair.
    Mr. Calvert. Thank you. Mr. Stewart.
    Mr. Stewart. Thank you, Chairman. Acting Director, I have 
your name pronounced twice differently. Is it Wah-kee then or--
--
    Rear Admiral Weahkee. Weahkee.
    Mr. Stewart. Weahkee, yeah, thank you.
    Rear Admiral Weahkee. Thank you.
    Mr. Stewart. All right. It is always nice if people can 
pronounce your name correctly, right? [Laughter.]
    Rear Admiral Weahkee. It is a tough one. I have been 
dealing with it my whole life. [Laughter.]
    Mr. Stewart. I am sure you have. Well, to you, sir, and 
others who are with you today, thanks for being here. Like 
everyone, I have got a problem. I mean, that is kind of the 
value of these hearings is many times we can bring you issues 
that we need your attention on and your help. And this one is 
an important one, and it is one that we can fix, but we have 
not been able to yet. And, again, I need your help.

                   REIMBURSEMENT FOR MEDICAL AIRLIFT

    It has to do with recent changes in Indian Health Service's 
reimbursement structures for airlift, for medical airlift. It 
has resulted in catastrophic losses for ambulance services in 
the Navajo Nation, and I want you to picture the Four Corners 
if you could. I represent Utah, and in the Four Corners area 
you have got Utah, Arizona, New Mexico, and Colorado. If you 
want to be alone for a while, go to this part of the country. 
It is some of the most sparsely-populated area within the lower 
48, I am sure. But it is a real challenge then because when you 
have a medical emergency, it is a long, long way to go to get 
help in many cases.
    And because of this change in reimbursement rate, there is 
only one provider now. There used to be several, but the others 
have dropped out because they actually lose money every time 
they pick up a patient, and a substantial amount of money. Not 
just a few hundred dollars, thousands and thousands of dollars 
every time they pick up a patient, and yet they continue to do 
it because they feel compelled to because they want to serve 
their fellow man. But they have announced that they will pull 
out within the next few weeks if we cannot help them with this 
reimbursement. They will leave the Native Americans there 
without an air ambulance service then.
    We have reached out to local and Federal officials, and we 
have attempted to inform them and to get their help on this, 
and I am going to read you just part of a letter, if we could, 
that was sent last month. ``Due to catastrophic changes in 
reimbursements over the several years, Classic Care Medical, 
which is the last remaining provider in the region, will have 
no choice but to shut down operations in the region, leaving 
the area without emergency care.'' They have something like $3 
million in providing this service to Native American in that 
area.
    Look, we've got to do better, and we have got to find a way 
to work with you and CMS to get a reimbursement rate. They are 
not asking to make money. They just cannot lose money every 
time they do this. Can you help us with that?
    Rear Admiral Weahkee. Thank you, Congressman Stewart. In 
the beginning of your question, you made me homesick because I 
am from the Four Corners and grew up in the Farmington Aztec 
area in northwestern New Mexico. So, I pictured the area and I 
am very fond of it for sure.
    Mr. Stewart. As am I, by the way.
    Rear Admiral Weahkee. Thank you. With regards to emergency 
transport and the rates that we are paying now with the 
implementation of Medicare-like rates or PRC rates, we are 
reimbursing at the same level that Medicaid or Medicare or any 
other Federal healthcare entity would reimburse. So, from that 
regard, we are actually saving the Agency money, getting better 
purchasing power with those funds.
    Mr. Stewart. Director, if I could jump in just quickly. 
That works for a business model when you are in a metropolitan 
area and you have private sector funding that can help 
compensate for it because everyone loses money on those rates. 
This is an area where there is no private sector. I mean, there 
is only the Indian Nation down there, so there is no other way 
for them to help even out the funding levels. Does that make 
sense?
    Rear Admiral Weahkee. There are parts of our Nation where 
there is only one game in town for sure, and if that is the 
case in this particular area with Classic Care Medical, I think 
that it is incumbent upon our system to evaluate whether or not 
any competitors exist or other options, if air medical 
transport, if it is fixed-wing versus helicopter, or if ground 
transport is available. We need to look at all the options to 
ensure that we are taking our patient safety into account and 
that we negotiate appropriate rates.
    Mr. Stewart. Well, and so I will just restate something and 
then one more time ask your help. If you are in a big city 
where you have a lot of private insurance that will compensate 
these companies at a different rate, this will work because you 
can use that to help fill the gap for these lower, lower 
compensated patients. But, again, there is no option down 
there. It is only the Indian Nation.
    And once again, and then I will turn the time back over, if 
we cannot fix this and if we cannot fix it with some urgency, 
this company is going to pull out. And it is not in years, it 
is within weeks, and we just hope that we can work with your 
Agency and try to find a solution. I think the Native American 
people deserve it.
    Rear Admiral Weahkee. And thank you. I will commit to 
looking into the issue, and another option that we might 
consider is pulling Centers for Medicare and Medicaid Services 
into the discussion.
    Mr. Stewart. Yeah, we absolutely have to do that, and we 
have tried to work with them, but your weight behind that 
effort would be helpful.
    Mr. Calvert. Would the gentleman yield for a moment? I 
might ask a follow-up question. What flexibilities does IHS 
have to change the reimbursement rate to fix this airlift 
problem?
    Rear Admiral Weahkee. We do have the ability to negotiate 
rates that are Medicaid or Medicare reimbursement plus a number 
to be determined based on a number of different variables. But 
there is some latitude in there of being able to account for 
situations like this that we can utilize.
    Mr. Calvert. OK. So, if that flexibility does exist in this 
case, that might be a potential solution.
    Mr. Stewart. Thank you, sir, and I yield back, Chairman.
    Mr. Calvert. Thank you. Ms. Pingree.

                                OPIOIDS

    Ms. Pingree. Thank you, Mr. Chair. Thank you to all of you 
for being here today and for the work you are doing to help 
take care of the health of our tribes. And I apologize, I came 
in a little late, so I know you have talked some about the 
opioid crisis, but I just wanted to focus on it a little bit 
more. I come from the State of Maine where the opioid crisis in 
the news every day. We know that American Indians and Alaska 
Natives have the highest drug overdose rates in 2015. I am 
assuming that is continuing. Also, American Indian students' 
annual heroin and oxycodone use was about 2 to 3 times higher 
than the national average, so it is no small challenge to be 
taking this on.
    In States like Maine, we were one of just eight tribes 
throughout Indian Nation to receive funding through the 
Department of Justice Coordinated Tribal Assistance Program, 
which allowed us to establish a healing to wellness court. And 
I know that has been very successful, but that is a grant 
program and those things are not ongoing. And so, I want to 
talk to you a little more about the overall picture of funding 
and how this is being handled, and I know there are issues 
around coordinating with other departments which has been 
brought up as well. So, let me just throw out a few questions. 
If you do not get everything answered, we can follow up on it, 
but to see your sense of it.
    One is how you are working with tribal first responders, 
what criteria the Indian Health Service is using to award the 
multiyear grants that will be available to implement the Tribal 
Opioid Response Grant Program, how are you going to follow 
those, and what measures will you use and what process to 
monitor the grants. Will you be looking at best performance and 
sharing those best practices? Lastly, what is the status of the 
development of a comprehensive and culturally sustainable 
tribal action plan? I know that is a lot, but just anything you 
want to put in about the overview. It is certainly one of the 
biggest challenges we are facing nationally, and obviously in 
Indian Country much more significant.
    Rear Admiral Weahkee. Thank you, Congresswoman. Definitely 
the impact of opioids on Indian Country cannot be overstated. 
You mentioned some of the statistics, and we have seen an 
increase of 519 percent in overdose death rates for American 
Indians, so it is something that we need to tackle right away. 
Related to plans, future plans for the use of opioid funding, 
we within the IHS very much believe in and rely upon our 
consultation with tribes to have the initial conversation on 
where they believe the funds should be dedicated and for what 
purposes, and in what construct. And so, we will initiate 
consultation in advance of the receipt of those funds to obtain 
that feedback from our tribal stakeholders. And we have also 
encouraged our sister agencies to do the same, so for those 
like SAMHSA who are receiving large sums of funding, we are 
encouraging them to do that outreach to tribes as well.
    We are also sharing information with our sister agencies, 
the mechanisms that we have used as an Agency in the past to 
ensure that we get that money out into Indian Country in the 
best manner possible. Again, that does not replace the 
consultation. They need to have those conversations directly 
themselves.
    The criteria to be used for the IHS opioid funding, the 
$150 million a year, we are at least initially looking at the 
construct of the Special Diabetes Program for Indians and the 
manner in which we have run that grant program as a starting 
point, and then we will take the consultation and input and see 
if there are tweaks or changes that need to be made.
    I am going to ask Dr. Toedt as our lead in all clinical and 
preventive matters to address some of the other opioid 
discussions that we have had. We do have consultations 
scheduled in partnership with SAMHSA and the National 
Institutes of Health at a conference next month in Minnesota 
that the National Indian Health Board will be sponsoring. Dr. 
Toedt, do you want to take it from there?

                    PARTNERING WITH LAW ENFORCEMENT

    Rear Admiral Toedt. Yes, sir. So, regarding the question 
about how we partner with tribal law enforcement, you are 
already aware that we partner with the Bureau of Indian Affairs 
and equip their law enforcement officers with training to 
recognize signs and symptoms of overdoses and how to intervene 
immediately when they are first on the scene. And as of 
December 2017, we have trained more than 300 officers and 
certified 47 BIA officers as naloxone trainers.
    Translating that to the tribal facilities, our direct care 
facilities also provide naloxone supplies training and toolkits 
to tribal law enforcement. And just this March 30th, our HOPE 
Committee, which is the Heroin, Opioids, and Pain Efforts 
Committee, released a policy that provides local policies and 
procedures for the IHS-operated pharmacies to provide the 
naloxone and law enforcement agencies and other first 
responders to prevent the opioid overdose deaths.
    I want to add that I have worked at the Micmac Clinic in 
Maine, and the people there are near and dear to my heart, and 
I appreciate you.
    Ms. Pingree. Well, thank you for mentioning them, and I am 
sure they will appreciate that and have fond memories, so thank 
you. I just want to follow up quickly by saying, I am glad you 
have things in place, particularly naloxone. I know that is 
often a challenge to make sure that is available everywhere it 
needs to be. I know some of this funding is new, but also, some 
of the things you are talking about are. We will and we are 
planning to follow up and since this crisis is ongoing, and 
nothing here is new to us. I hope that all efforts are speeded 
up as fast as possible.
    I am glad there is consultation, but on the other hand, 
people just, they want to see the action, and see the 
availability. I know a big concern in our area is residential 
substance abuse, and there has never been enough of it. I do 
not think I have to tell you that, but making sure that we 
continue to try to increase those numbers is really important.
    Lastly, I just want to concur with some of my colleagues 
who have said that the funding for special diabetes, also a 
huge problem in our State and in Indian Country in particular. 
Going from mandatory to discretionary raises a lot of concerns, 
and making sure there is adequate funding for that as such a 
prevalent problem is really important. So, thank you. I yield 
back.
    Mr. Calvert. Thank you. Mr. Joyce.

                                NALOXONE

    Mr. Joyce. Thank you, Mr. Chairman. I want to follow up on 
Ms. Pingree's questions about naloxone. I am glad to hear that 
you have first responders using naloxone. Does your 2019 budget 
request reflect that support?
    Rear Admiral Weahkee. So, that would be captured in the H&C 
budget where our pharmacy costs currently reside. There has not 
been any additional funding identified for the provision of 
naloxone, but pharmacy costs are supported through an H&C line. 
Hospitals and clinics, sorry.
    Mr. Joyce. As a matter of first response, it is important 
that you make naloxone available throughout American Indian/
Alaska communities given the 519 percent increase in drug 
overdose claims from 1999-2015. I am glad to hear that first 
responders are getting it. I was making sure that we have 
adequately funded those efforts because obviously saving lives 
is an important part of this equation.
    Rear Admiral Weahkee. Yes, and we have had discussions, and 
Dr. Toedt can give us the per dose cost and the evaluation that 
we have undertaken. And, again, knowing that the U.S. Surgeon 
General just earlier this month promoted family members, 
friends, and those at risk themselves to carry naloxone, we do 
expect to see a significant increase in prescriptions for and 
dispensing of naloxone. So, it is a cost that we need to take 
into account for future budget purposes.

                           BEHAVIORAL HEALTH

    Mr. Joyce. I am glad to hear that. For 25 years I was a 
prosecutor before I got here, and I have to admit after seeing 
staggering numbers like this, it shifts your focus from the law 
enforcement side of people being in possession of a drug to 
saving people's lives. The one question I have when I speak 
with people in the community is ``what works?''. Have you found 
anything that has been especially helpful as far as 
reintegrating folks back into society because I know the 
recidivism rate in people who are addicted to these drugs is 
unfortunately very high as well?
    Rear Admiral Toedt. Thank you for the question. So, 
definitely we see that when treatment is culturally 
appropriate, when it is based on the individual's native 
culture, when it addresses all of the underlying causes, 
addressing the problems that the individual has at home, when 
it is focused not just on recovery as a single timed event, but 
looking at after care when they return from recovery back to 
the community, those are the areas where we see the greatest 
successes where there is good coordinated care and follow-up 
after discharge from treatment.
    Mr. Joyce. Generally going back into the situation they 
were in before creates the same circumstances that brought them 
there in the first place. So, especially in the tribal 
communities, I was wondering how you were dealing with that 
item.
    Rear Admiral Toedt. Yes, sir, exactly right. If an 
individual is coming from an at-risk situation and they return 
to an identical situation, they remain obviously at risk. And 
so, helping the individual get to a better place, but then 
working with them either to improve their environment or to 
return to an alternate environment. And so, that may mean that 
they may not be able to go back to that same house. They may 
have to go to a recovery intermediate housing. There is 
definitely a need for that.
    There is the whole concept of a community becoming more 
sober, and so the work is with an entire community, partnering 
with law enforcement, pharmacies, providers, social services. 
Working really to clean up an entire community has also been 
very effective. There is a project in North Carolina called 
Project Lazarus that the Eastern Band of Cherokee have used to 
partner with surrounding towns and surrounding communities so 
that they are not just focusing on the tribe, but the entire 
environment that the tribe is exposed to.

                              RECRUITMENT

    Mr. Joyce. I am glad to hear that. In your 2019 budget 
request, is there any funding to hire additional nurses to help 
you combat this opioid crisis?
    Rear Admiral Weahkee. Thank you for that question. We do 
have heavy emphasis on direct clinical services in the 2019 
proposal. So, the hospital and clinics line is identified as 
the line item that would supplement additional nurses being 
hired. We can also hire nurses through the mental health 
services line and the alcohol/substance abuse line. Those would 
be for psych nurses who can help with medication management. 
So, there are several lines within the budget that have 
proposed increases, and those funds can be used to recruit and 
retain nurses.
    Mr. Joyce. That begs the question is there any plan or 
procedure in place to hire additional nurses to help you combat 
this crisis?
    Rear Admiral Weahkee. Thank you for that question. We have 
been working diligently in developing strategies to improve our 
recruitment and retention ability. Actually, I will name three 
if you do not mind a little bit of time around this. We have a 
couple of proposals that are a part of this budget to gain 
parity with the Veterans Administration and enable us to pay 
better, to be able to offer better incentives like higher-level 
leave accrual, to also be able to hire greater numbers of 
providers, specifically physicians, not only with U.S. 
citizenship, but also those who have been trained in the United 
States who may have citizenship outside of the country. So, 
Title 38 authority, parity with the VA is a big help.
    Also, with our scholarship and loan repayment program, we 
have got proposals included that would help us to leverage 
those funds, make the scholarships and loans tax exempt, and 
give us parity with the National Health Service Corps and the 
Armed Forces Health Professions scholarships. We would be able 
to provide more scholarships and loans if we do not have the 
taxability issue.
    And then flexibilities within the existing program, our 
ability to allow students to repay on a longer projected 
timeframe. So, rather than having to do it all within 2 years, 
that they could extend to 4 years at half time as an example. 
So, these added flexibilities would provide us with a great 
opportunity to recruit individuals.
    Within our HR system, we are working at making the process 
less burdensome, doing a single application and applying for 
multiple jobs across the Agency--we call it global 
recruitment--so that they do not have to submit applications 
for each individual job. They do it once, and they are 
considered, and they can select the location that they would 
like. So, a couple of tools that we have been working on.
    Also, in partnership with the Office of the Surgeon 
General, we are looking at making priority placements into our 
most rural and remote locations, and incentivizing officers in 
the Commissioned Corps to do that. So, a lot of work underway, 
and we have just started to see the benefit of some of the 
items that have been implemented.
    Mr. Joyce. Similar to the opioid addiction crisis being 
unfortunately a nationwide issue, we have a primary care 
physician shortage that is also a nationwide issue. I am glad 
to see that nurses are going to be our primary care folks on 
the front edge. I am glad to see that you are using all the 
tools at your disposal to recruit these folks.
    I yield back.
    Mr. Calvert. I thank the gentleman. Ms. Kaptur.

                           POPULATION SERVED

    Ms. Kaptur. Thank you very much, Mr. Chairman and Rear 
Admiral Weahkee. I wanted to follow on some of my colleagues' 
questions, but it is my first opportunity to question you, so I 
just want to clarify: The population that you serve is 2.2 
million total?
    Rear Admiral Weahkee. Yes, ma'am.
    Ms. Kaptur. OK. So, the number of clinics that you operate, 
while you have 850 facilities directly, is about 2,500 average 
load per clinic, if they were all equal, which we know they are 
not. That seems like a pretty good distribution. You also 
mentioned in your testimony 608 hospitals, clinics, and health 
station. Is that in addition to the 850?
    Rear Admiral Weahkee. That 850 number is comprehensive of 
the health stations.
    Ms. Kaptur. All right. So, the 608 is part of the 850.
    Rear Admiral Toedt. Right.

                                STAFFING

    Ms. Kaptur. Oh, all right. Could I ask you what percentage 
of the doctors and nurses in those facilities are Native 
American?
    Rear Admiral Weahkee. We know as an Agency overall, 70 
percent of our workforce is made up of American Indians and 
Alaska Natives. So, we are very much representative of the 
population being served.
    Ms. Kaptur. All right. I want to move----
    Rear Admiral Weahkee. For physicians specifically, Dr. 
Toedt, do you happen to have those statistics? I guess that 70 
percent statistic is for all jobs.
    Ms. Kaptur. All jobs. What about doctors?
    Rear Admiral Weahkee. Physicians, we would probably need to 
pull that information directly, and we do work in partnership 
with the Association of American Indian physicians. They may 
have those numbers readily available. We can do a pull within 
our own system. We do not necessarily track in all cases, but 
we can get back to you with that.
    Ms. Kaptur. If you can take a look at the doctors and the 
advanced practice nurses, I would be very interested in the 
percentage of Native Americans in total that you hire or 
contract with.
    [The information follows:]

American Indian and Alaska Native Doctors and Advanced Practice Nurses 
                      in the Indian Health Service

    Agency records indicate the following number of American Indian and 
Alaska Native employees by position title:
          <bullet> Nurse Practitioners--28 out of 175, or 16 percent
          <bullet> Certified Nurse Midwives--6 out of 46, or 13 percent
          <bullet> Nurse Anesthesiologists/Anesthetists--5 out of 36, 
        or 14 percent
          <bullet> Advanced Practice Nurses--7 out of 32, or 22 percent
          <bullet> Doctors--80 out of 789, or 10 percent

    Ms. Kaptur. You provided really good data on diabetes, and 
the improvement is remarkable. So, that is a real success 
story. Congratulations. I was not aware of that, and I know you 
are continuing along that line. I congratulate all the tribes 
for whatever they are doing in order to bring that horrendous 
statistic down. That bodes well for the future.

                            SUBSTANCE ABUSE

    Let me turn to the behavioral and substance abuse issue as 
many of my colleagues have. Do you know if you were to do a 
trend line for neonatal abstinence syndrome babies, drug-
addicted babies, what would those numbers show over the same 
time period of 1996 to the present? Any idea?
    Mr. Hill. I am going to ask Dr. Toedt to take this one. I 
know we have got some great partnerships in place in this area 
in particular, so.
    Rear Admiral Toedt. Thank you. So, it is difficult to 
hypothesize what a trend line would look like. I do not have 
data specifically on neonatal abstinence syndrome going back to 
1996. But if I were to hypothesize, I would say that that trend 
line would be going markedly up. I have seen in my own practice 
increasing numbers of women who present, who are pregnant and 
also have an illegal or illicit or other substance on board. 
And so, unfortunately there are more and more babies that are 
being born addicted.
    We are working with the American College of Obstetrics and 
Gynecology and the American Academy of Pediatrics developing 
specifically a protocol for recognition and treatment of 
neonatal abstinence syndrome. It is something that we recognize 
has been markedly increased. We know that in the Billings Area 
they report that at least 3 out of every 4 babies has at least 
had some exposure. So, the numbers specifically for neonatal 
abstinence syndrome, we will need to develop that trend line. 
That is something that we can certainly look at.
    The coding has changed through the years with the change 
from ICD9 to ICD10. The recognition of neonatal abstinence 
syndrome is challenging, and I think that our partnership with 
ACOG, NAAP, with these professional organizations, will really 
help improve care.
    Ms. Kaptur. What about fetal alcohol syndrome?
    Rear Admiral Toedt. Similarly, alcohol continues to be a 
problem across Indian Country. American Indians and Alaska 
Natives continue to have a higher degree of alcohol exposure 
and substance use. Methamphetamine continues to be a problem 
across Indian Country as well. So, we hear from our tribes that 
it is not just the opioids. It is other substances as well.
    Ms. Kaptur. All right. Any clarity you could give on that I 
think would be helpful. In my own State of Ohio, we have at 
least 20,000 neonatal abstinence syndrome babies, and the 
number is growing. I would venture to say if you look around 
the country, you would find very similar numbers, so it is not 
exclusive to Native Americans. It is, as you know, within the 
general society.
    We also know that we are probably 100,000 doctors, people 
who work in the behavioral specialist area with these 
substances and so forth, short in the country. So, even if we 
had all the money in the world and we sent it down the chutes, 
if there are not people there to treat--and one of my big 
worries is whether it is tribal situations, or whether it is 
city hospitals, or rural hospitals, or veterans' clinics--we do 
not have as a country the specialists we need to treat this 
problem.

                                STAFFING

    I am looking for examples, and maybe you can help me since 
you mentioned the VA, of where we fund the education of 
individuals who then go to work on tribal properties. They go 
to work in city hospitals. They go to work in rural facilities. 
They go to work in VA hospitals. I would be very interested in 
your comments about which programs you found over time have 
worked most successfully through Federal programs where we help 
to draw individuals into these specialties because I am worried 
about the country and what we are facing with this additional 
crisis now among our people, and how we manage it.
    I will be honest with you, Ohio does not have tribal lands 
as most of my colleagues here do. But, I am not sure that the 
solution that we have been promoting at the moment, which are 
residential treatment programs at the local level, are the way 
to go. Especially if one looks at recidivism, and if one looks 
at the fact that they are not removed from the community, from 
the place that they still have these connections and they 
receive back.
    I am looking at a model in my own mind, something like the 
old Civilian Conservation Corps where people are helped by 
being taken to a place where opportunity is more promising and 
where the help is needed. I have often thought of tribal lands 
thinking, hmm, I wonder if programs that we might initiate 
across accounts might be more effective than what I am seeing 
happening in a State like Ohio, which is at ground zero of this 
massive national crisis.
    So, I just thank you for listening, and if you could 
provide clarity for the record to the extent you are able, on 
babies, that is the future. The babies are the future. So, if 
they are sick, the future is not good. Also, if you could help 
us understand the increase in terms of the population that you 
serve and what the components of that are, that would be very 
valuable to us. I thank you.

                                OPIOIDS

    Mr. Calvert. I thank the gentlelady. On that subject, I 
read a short story recently, I do not know which publication. 
But obviously this plague is affecting every section of our 
society. I just read this morning that Mr. Mellon, the heir the 
banking fortune, a multibillionaire, was severely addicted to 
OxyContin, took up to 80 pills a day, a habit that was costing 
him $100,000 a month, died at a rehab center in Mexico 
yesterday. So, this is not just affecting, you know, people, 
you know, from various regions of the country or certain 
economic classes. This is affecting everyone.

                                NALOXONE

    But going back to my question, I read a story where there 
was a potential for a chemical or a drug that would neutralize 
the effects of these opioids. Is there any truth to that or is 
there any research that seems promising on something like that, 
because that could have a huge effect on the country if that 
was true. Is there any comment about that, anything you hear 
about that?
    Rear Admiral Weahkee. Thank you, Chairman Calvert.
    Voice. Mic, please.
    Rear Admiral Weahkee. Sorry. Thank you for the question. 
The counteracting prescription that has been used is naloxone, 
and Dr. Toedt can talk a little bit more about how that drug 
works. There is also an effort within the Department of Health 
and Human Services to look at alternative pain initiatives, 
things that we can do other than prescribing other drugs, or 
promoting research that helps to develop additional types of 
counteractive measures.
    So, Dr. Toedt, I am going to ask if you could share a 
little more information about naloxone, Narcan.
    Rear Admiral Toedt. So, certainly there are medications now 
that do block the opiate receptor, so they provide protection 
from overdose when that medication is on board. There are newer 
medications that are in the pipeline for development, and 
certainly it is important that we have more options. One of the 
medications that is used successfully for alcohol abuse 
maintenance is a medication called VIVITROL, which is a longer-
acting injection and blocks the effects of alcohol, and has 
some success also in patients with opioids. So, yes, there are 
medications that are both currently available as well as new 
medications in the pipeline to help address the epidemic.

                  INDIAN HEALTH CARE IMPROVEMENT FUND

    Mr. Calvert. Thank you. Over the last 2 years, the 
subcommittee has received testimony on an increasing number of 
tribes advocating for funding to be allocated based more on 
need than on historic funding proportions. Of course, this 
subcommittee is also represented by members of tribes who 
prefer the historic funding proportions. That is why the 2018 
appropriation provided equal amounts of $72 million each for 
the Indian Health Care Improvement Fund, which is based on 
need, and the historical current services formula. Please 
update the subcommittee on the latest efforts to update the 
distribution formula for the Indian Health Care Improvement 
Fund and to use the update to allocate the 2018 appropriation.
    Rear Admiral Weahkee. Thank you, Chairman Calvert. The IHS 
has an Indian Healthcare Improvement Fund workgroup that is 
made up of both tribal and federal representatives. That group 
has been seated and charged with updating the Indian Health 
Care Improvement Fund formula. They have met twice so far and 
have plans to meet again in about a month. Timeframe wise, they 
are working on a very short timeframe. They would like to get 
those 1-year funds out and available for sites to use before 
the end of the fiscal year.
    So, we are expecting them to make their recommendations by 
the end of May. We will then take those recommendations out to 
the rest of Indian Country through a formal consultation 
process, and expect to be making allocations of those funds by 
August of this year.
    Mr. Calvert. Please keep the committee informed on your 
progress.
    Rear Admiral Weahkee. Yes, sir.

                        PURCHASED-REFERRED CARE

    Mr. Calvert. I appreciate that. As I mentioned in my 
opening statement, an estimated $424 million worth of patient 
referrals were denied or deferred in 2016 due to the lack of 
funds. Part of the challenging with increase appropriations for 
purchased-referred care is the Government Accountability Office 
has reported that a more equitable allocation formula is 
needed. My question is do you agree with GAO's conclusion that 
a more equitable allocation formula is needed?
    Rear Admiral Weahkee. Thank you, Chairman. With regards to 
the Purchased and Referred Care Program, we have seen marked 
improvement in our sites' ability to provide services beyond 
Medical Priority Level 1. We have got about 70 percent of our 
sites now who are able to provide funding for referral services 
beyond that life and limb priority. So, there has been 
substantial progress, and I think that the implementation of 
those PRC-like rates has some to do with that as well.
    The GAO's recommendation of equitable funding was put into 
one of their formal reports to us. We reached out to the 
healthcare team led by Kathy King and invited her to our PRC 
advisory group meetings so that she could hear firsthand, she 
and her team, the discussion about funding equitability. And as 
a result of her involvement in those meetings and learning and 
hearing from our tribal stakeholders, the GAO closed out those 
recommendations as unimplemented with the understanding that it 
would put the Agency in a position where we would have to take 
existing funding from tribes out of their annual funding 
agreements, which could lead to legal issues.
    So, they have closed the recommendation as unimplemented, 
but we do still have sites that are not able to see all their 
Medical Priority Level 1 or provide funding for the referrals.
    Mr. Calvert. So, this issue is still being discussed and 
determined on how you are going to fix this problem.
    Rear Admiral Weahkee. Yes, sir. The PRC advisory group will 
be returning with recommendations at least initially. In their 
first two meetings this year, they have recommended that we 
stay with the existing formula with the understanding that the 
healthcare reimbursement landscape is still pretty dynamic, and 
they want to see how things shake out.

                            CURRENT SERVICES

    Mr. Calvert. OK. Just another quick question here. The 
estimated cost increases needed to maintain current levels of 
service across the IHS have traditionally included a 
combination of pay costs, medical and non-medical inflation, 
and population growth. Is the Administration's 2019 request of 
$47 million for Federal and tribal pay costs the full amount 
needed to fund pay cost increases?
    Rear Admiral Weahkee. Yes, sir. That number is inclusive of 
pay cost increases.
    Mr. Calvert. Is it accurate to say that the employee 
recruitment retention continues to be a significant problem 
across the Indian health system and a root cause of other 
problems? The GAO has cited regarding access to and quality of 
care.
    Rear Admiral Weahkee. Absolutely, yes, sir.
    Mr. Calvert. Ms. McCollum.

                                OPIOIDS

    Ms. McCollum. Mr. Chair, I want to go back to the diabetes 
model and talk about the opioid program. I think you have heard 
from the committee that we will be looking very seriously, in 
my opinion from hearing others, that the diabetes program stay 
mandatory and not become discretionary.
    The way that you disburse the diabetes funding right now is 
not done through a grant program. It is done on a 
formulization. You had mentioned that tribes like not having to 
go through all the grant process. For some tribes, they can 
afford to hire a grant writer. Other tribes, it is a hardship 
and they are taken away from other programs. If you were to 
move forward with making the diabetes program discretionary, 
was it your intent to turn it into a grant program, or were you 
going to leave it the same?
    I think the program of disbursement now seems to be working 
for the tribes, and you could model the opioid program somewhat 
similar to that because that has been a focus on a lot of 
conversation. Could you talk about what your expectations for 
the future for that were?
    Rear Admiral Weahkee. Thank you, Congresswoman. And the 
SDPI Program, part of why it has worked so well is that we have 
come up with these funding methodologies in consultation with 
our tribes. In addition to not wanting to have additional 
administrative burden placed upon sites for hiring a grant 
writer or managing grants, there is also the concern about 
having to compete against each other for limited funds. So, 
these are definitely aspects that come into play.
    I think in terms of your question about whether the intent 
of moving the funds from mandatory to discretionary was to put 
them through a different mechanism, that was not discussed as 
part of the plans, and we would not do so without consultation 
with our tribal leaders' diabetes advisory committee, which 
reviews on an annual basis the mechanisms used for SDPI 
funding.
    Ms. McCollum. And would that be a program where the 
implementation that you do for the diabetes would be a model 
for something similar that you would look at doing with the 
opioid program, in consultation with the tribes?
    Rear Admiral Weahkee. I think we could consider the model 
best practice. It has enabled us to obtain the information 
needed to prove that the funds are being used efficiently and 
effectively. We have also been able to publish the great 
results that have come out about obesity rates and diabetes 
rates leveling off, and kidney disease, kidney failures being 
reduced by 54 percent.
    Ms. McCollum. Thank you. I want to go back to a combination 
of staffing, and infrastructure, and equipment, because if you 
just graduate from medical school, knowing that a hospital has 
failed certification would not be the first place you would 
want to look to start out your medical career. Sometimes you 
are failing because of staffing. Sometimes not keeping the 
certification is because of infrastructure and equipment. So, 
all three go together. You know, an old phrase, which came 
first, the chicken or the egg.
    Some of this is going to be follow-up. You mentioned that 
you are over 30 percent short in doctors, nurse practitioners, 
and pretty close to that with physicians assistants. If you 
could provide to the committee if those tend to be lumped in 
certain areas, if we have trouble spots where you are short in 
all three, and if those are places where we are having 
infrastructure and equipment problems. If you could get that to 
the committee, and then I am going to be a little more specific 
here.
    [The information follows:]

    Correlation Between a Lack of Medical Staff and Infrastructure/
                            Equipment Issues

    Research reveals that specific design features in the healthcare 
environments can improve staff satisfaction, morale, recruitment and 
retention.\1\ Qualified medical staff who have been trained in state-
of-the-art facilities with contemporary medical equipment will more 
readily seek employment in like facilities rather than aged facilities 
that do not accommodate today's healthcare delivery practices and only 
have dated equipment for diagnostics and treatment. State-of-the-art 
facilities with contemporary medical equipment not only contribute to 
patient well-being, but also to the well-being of the physicians, 
nurses, facilities staff, and administrators who work in the building. 
Contemporary evidence-based designed facilities reduce hazards to 
healthcare workers, patients, and visitors.\2\ These positive work 
environments contribute greatly to improved staff recruitment and 
retention.\3\ The facility also impacts staff attitudes and behaviors. 
Architecture is often recognized as an important tool in recruiting and 
retaining the best doctors and nurses and the most patients.\4\
---------------------------------------------------------------------------
    \1\ University of Minnesota Center for Spirituality and Healing. 
What is a healing environment? Kreitzer, Mary Jo, Terri Zborowsky, and 
Jean Larson, accessed at http://www.takingcharge. csh.umn.edu/explore-
healing-practices/healing-environment on 7/14/15.
    \2\ Ulrich R. Zimring C. The role of the physical environment in 
the hospital of the 21st century: a once-in-a-lifetime opportunity. 
Report to The Center for Health Design, for the Designing for the 21st 
Century Hospital Project 20043.
    \3\ McCullough, Cynthia. Evidence-based design for healthcare 
facilities. Sigma Theta Tau International. 2009.
    \4\ Carr, Robert F. Health Care Facilities. Whole Building Design 
Guide, National Institute of Building Science. October 2014.
---------------------------------------------------------------------------

                               FACILITIES

    Ms. McCollum. The average age of federally-operated IHS 
facilities is 31 years. Numbers of facilities are over 40 
years, never having repair or renovation. In the private 
sector, it is about 10.6 years, so we have got a real gap 
there. As was pointed out, in the 2018 omnibus bill, the 
committee was able to provide an additional $300 million for 
health facility construction, sanitation facilities, and 
deferred maintenance. Could you please get to this committee, 
or if you are prepared to answer after I am done, how you are 
planning on allocating this funding because we know the needs 
are there. There should be a record of what has not been 
happening with infrastructure and equipment.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
                        FISCAL YEAR 2019 BUDGET

    Ms. McCollum. Knowing that there is this pressing need, and 
I just laid it out, again, I am just so puzzled by the fiscal 
year 2019 budget request with the reduction of $363 million in 
Indian health facilities, a 42 percent reduction from the 
fiscal year 2018. What activities are going to be cut? How much 
bigger does the list grow for infrastructure and for oftentimes 
just updated equipment?
    This reduction is going to make your priority list for 
repairs and upgrades even greater, I would have to think. Then 
that is going to have an impact on being able to retain and 
recruit staff and who suffers from this, so the tribal 
communities that we have a constitutional responsibility to be 
serving better. And some of this might be in some follow-up.
    This is not directed at you personally. I know you want to 
do the very best job you can when you wake up every morning to 
serve Native Alaskan and Native American communities. But I 
just do not see how the numbers work.
    Rear Admiral Weahkee. Thank you. Just to start, there is 
definitely a correlation between our recruitment and retention 
abilities and what professionals might read in the trade 
journals about an agency. So, when people see and hear nothing 
but negative, it does make our recruitment job that much 
harder. So, we are working to improve the image, and it is 
unacceptable for there to be anything less than high-quality 
care being provided in our facilities. So, it is something that 
we take very seriously. And we as a leadership team at IHS want 
to improve the image of the Indian Health Service and the 
services that we provide.
    Environment of care and life safety concerns are part of 
our accreditation issues, and when we have facilities that are 
on average 40 years of age in comparison, as you have 
identified, the hospital in the United States is about 10.6, 11 
years. The cost of maintaining those older facilities are 
greater and greater, and there is, again, a correlation between 
the amount of funding provided to maintain those facilities and 
how far back we fall.
    So, I do believe that we have some numbers that we can 
share with you now, and Admiral Hartz has them at his 
fingertips in terms of backlog of essential maintenance, and 
alterations, repairs, and also M&I. Anything else, any other 
items you would like to cover?
    Ms. McCollum. My question specifically, the President in 
his budget has a cut to this. So, it is not going to get any 
better, right?
    Mr. Hartz. Thank you for the question and the difficult 
position to respond to. As you stated earlier, the cliche, 
build it and they will come, and we have seen that historically 
and what difference it makes to have up-to-date modern 
facilities that are similar to the institutions where medical 
graduates have interned. And if we have that modern facility, 
we have the capabilities to do CAT scans and procedures like 
that, it does make a difference. So, we concur with you in your 
assessment.

                          MAINTENANCE BACKLOG

    The backlog of essential maintenance and repair that you 
identified is $569 million. The resources that you folks have 
provided to us in fiscal year 2018 will be utilized. That bump 
in M&I, which takes it up about $167 million in 2018, will be 
distributed in the manner in which we have been distributing, 
but with the increase in the M&I account, we will target 
primarily the backlog of essential maintenance alteration and 
repair. And that is consistent with the ways we have done it in 
the past, like with the ARRA money came through a number of 
years ago. So, we already have a methodology in place to 
highlight those many, many projects to be addressed on BEMAR.
    The healthcare facility construction, you asked about that, 
and that increase of $125 million, up to $243 million, will 
take us further down the priority list of projects to be 
funded. And I am really pleased to say that between the time 
the CJ came forth and the appropriation, that we were able to 
fund one of the projects that was in the CJ, Alamo, and we were 
able to go further down the list and now pick up Pueblo 
Pintado. So, it did make a tremendous increase in our ability 
to address the aging facilities that are out there.
    And in sanitation facilities, you folks included a little 
over $101 million. It takes that up to $197 million to address 
much, much-needed water and sanitation facilities across Indian 
Country. We have identified a list that we give to Congress 
every year of feasible projects right in the $1.2 billion 
range, a universe of need that is $2.9 billion. And we will 
actually work our way down that list with the predominance of 
the money going toward existing homes and communities that 
still lack what we wake up to and take for granted every 
morning--safe water.

                               EQUIPMENT

    Ms. McCollum. Mr. Chair, if I may, if we do the right thing 
with the infrastructure and with the equipment, get broadband 
up and running, get better CAT scans so that if you do not have 
a radiologist on site someone can look at it with a high level 
confidence to make a diagnosis, and radiologists can diagnosis 
lots of things, to see if we need to do purchased or referred 
care service or if something can be done in-house, or however 
the service is delivered. That in the end is going to save 
money.
    When we were working on the Affordable Care Act, OMB did 
not allow us to figure out how doing preventative care, having 
better standard equipment, better facilities, more access to 
doctors, physicians assistants, nurse practitioners would save 
money. Are you ever allowed to figure out how much money you 
would actually be saving if we could bring these facilities up? 
You could never quantitate in dollars human suffering, but are 
you allowed to show that you would actually be saving the 
Federal government money by accelerating and moving this 
forward faster, or is that something you are not allowed to do?
    Mr. Hartz. I will give you an example. A number of years 
ago we were funded to construct the Eagle Butte facility that 
Mr. Simpson mentioned earlier I believe. And with that new 
facility going into the Cheyenne River Reservation area in 
Eagle Butte, South Dakota, we incorporated in a CT scanner, you 
know, pretty much in the middle of nowhere.
    And I often go out to facilities after they are in 
operation to hear about all the good things that we did right. 
Actually, sometimes they tell us some things they would like to 
see improved. This time when we went into the facility, the 
first item we got was a positive, and the positive was because 
of the installation of that CT scanner and what that meant to 
them in not having to have the transports that Mr. Stewart 
talked about earlier because now when they had closed head 
injuries, they could determine whether, in fact, that patient 
needed to be medevac'd out of there to Rapid City, or to 
Pierre, or to some other distant location, and so they could 
maintain observation. And the savings that they made in that 
was very, very obvious to them.
    Now, they had to convince the providers in those locations 
that they had the capacity to do that, and in chatting with the 
operators of the new high-tech medical equipment, I said what 
prompted you to come here. Well, both of them, it just turned 
out that they had prior military experience and they wanted to 
come home to serve their people. But, you know, that is a good 
story. It is the truth. It is success to be able to show 
savings and be able to monitor such. You can find out how much 
you are saving by the things we do and improvements you folks 
help us by funding, and we thank you for that.
    Ms. McCollum. Thank you, Mr. Chairman. I think we have our 
work cut out for us protecting our allocation and making sure 
that we fund these programs to the best of our ability. I yield 
back.

                          MAINTENANCE BACKLOG

    Mr. Calvert. I am going to carry on with what Ms. McCollum 
was discussing, and that is the maintenance backlog. The 
National Research Council estimated that an appropriate budget 
allocation for routine maintenance and repair should be in the 
range of 2 to 4 percent of the aggregate current replacement 
value. So, this is the question. I think I know the answer, but 
let me ask it anyway. Is the Administration's request of 
$75,745,000 for maintenance and improvement within the National 
Research Council's recommended 2 to 4 percent range?
    Rear Admiral Weahkee. Thank you for the question, Chairman, 
and definitely the expert is here next time. The $75, almost 
$76 million requested will help us make significant progress on 
the backlog. What would help us is the 4 percent, which is more 
in the realm of $208 million, so it is not in the 2 to 4 
percent range, but it would help us to make progress.
    Mr. Calvert. So, say it again. What amount of money would 
it be to be in that 2 to 4 percent range?
    Rear Admiral Weahkee. Between 2 to 4 percent would be 
between $104 million and $208 million.
    Mr. Calvert. OK, thank you. Thank you for that answer. Ms. 
Kaptur.

                              RECRUITMENT

    Ms. Kaptur. Thank you, Mr. Chairman. I wanted to follow up 
on that line of questioning we started earlier about your 
staffing and so forth. Do you have difficulty hiring 
physicians, or are you able to hire all the physicians for 
which you have budgeted positions? And the same is true with 
advanced practices nurses. Talk about across all accounts, but 
I am very interested, obviously, in the behavioral arena.
    Rear Admiral Weahkee. Thank you, Congresswoman. We 
discussed a little bit previously about our current vacancy 
rates for providers, physicians, advanced practice nurses, 
physician assistants, and all of them are in about the 30 
percent range, some of them up to 34 percent, some as low as 29 
percent. But there are significant vacancies in our provider 
numbers.
    With regard specifically to mental health providers, 
psychiatrists and advanced practice nurses who specialize as 
psych nurses, we are very much reliant upon those professions 
for medication management. So, it is a great need and 
increasingly difficult for us to find and recruit.

                              TELEMEDICINE

    Ms. Kaptur. Do you use telemedicine between your various 
sites effectively or is that not adequate to meet the demand?
    Rear Admiral Weahkee. I would characterize this as in some 
preliminary phase of telebehavioral health implementation. We 
have a great program initiated. We call our telebehavioral 
health center of excellence. It is based out of Albuquerque, 
New Mexico, and we are in partnership with the University of 
Mexico in providing those services to rural and remote sites. 
Dr. Toedt can provide additional information about how we have 
leveraged telehealth specifically in the behavioral health 
realm. We have also got some partnerships to provide specialty 
services through telehealth as well in partnership with Avera 
up in South Dakota.

                                VETERANS

    Ms. Kaptur. Could I ask you what percent of your population 
are veterans?
    Rear Admiral Weahkee. I do not have that number off the top 
of my head, but I do know that American Indians and Alaska 
Natives serve in the military at a higher percentage than any 
population. I am myself a veteran of the United States Air 
Force and very proud of the partnerships that we have with the 
VA and helping to serve our veterans. We can definitely get you 
that information.
    [The information follows:]

           Percentage of IHS User Population Who Are Veterans

    fiscal year (FY) 2017 data shows that 2.9 percent (or 48,169) of 
the IHS user population identified themselves as veterans. Refer to 
IHS's response to the Questions For the Record (QFR), Kaptur Q6, for 
additional information.

    Ms. Kaptur. Would a veteran who is Native American choose 
to go to your service or to a VA? How does that break down?
    Rear Admiral Weahkee. I do not have the break down. I would 
say it is personal choice based on what is more readily 
accessible perhaps. We would have to do some analysis of 
patient choice in that regard, veteran choice.
    Ms. Kaptur. Well, I can guarantee you the Veterans 
Department is also short on behavioral specialists and 
neuropsychiatric doctors as we face a crisis with PTS and with 
extended deployments. So, our whole country has to wise up to 
educating and helping to raise up another generation of doctors 
and nurses. I have learned here this morning that you need to 
be a part of that. So, thank you very much for your testimony. 
Thank you, Mr. Chairman.

                             ACCREDITATION

    Mr. Calvert. Thank you. I have one last question on the 
accreditation emergencies. As you already know, our colleague, 
Congressman Jeff Fortenberry, is a member of the House 
Appropriations Committee and represents the Omaha and Winnebago 
Tribes in Nebraska. Congressman Fortenberry has been the 
driving force behind the committee's effort to provide flexible 
funding for IHS direct service facilities of lost or at risk of 
losing accreditation with the Centers for Medicaid and Medicare 
Services. The committee appropriated $58 million for 
accreditation emergencies in 2018, including $16 million to 
reimburse facilities that have lost revenues as a result of 
losing accreditation. Please update the subcommittee on the 
service efforts to reimburse the Omaha Winnebago facilities of 
lost revenues.
    Rear Admiral Weahkee. Thank you, Chairman. We have been in 
robust conversations with both the Omaha and the Winnebago 
Tribes about the accreditation emergency expenses that have 
been realized at that location. We also are working through the 
recent letter of intent that the Winnebago Tribe submitted to 
the Agency identifying that they intend to take over operations 
of their hospital.
    And so, validating an amount for each of the tribes and the 
stake in that particular site is being processed through a 
formal negotiation between the Agency and the tribe. And I just 
want to assure you that the conversations are ongoing, and that 
we are taking Congress' intent into those conversations with 
regards to the accreditation emergency funding.
    Mr. Calvert. Well, please keep the committee informed of 
your progress. And with that, is there any other questions?

                                VETERANS

    Ms. McCollum. Mr. Chair, I just want to go back to what Ms. 
Kaptur pointed out. There is supposed to be seamless care 
between Native American veterans and reimbursements backed if 
they are seeking help at an IHS hospital. But a lot of that 
depends upon good quality medical records, and it depends upon 
having accreditation. It depends upon a whole lot of things.
    As you get your information back about the population of 
veterans accessing service, if you could, give us some 
information on the reimbursement and how it is going, and what 
we need to do or what the VA needs to do to make sure that we 
make that happen for the veteran. Because if it is easier to 
receive physical therapy at a clinic or at a hospital close to 
the reservation, it makes a lot of sense for that veteran.
    [The information follows:]

   Veteran's Affairs (VA) Reimbursement to the Indian Health Service

    In FY 2017, the IHS collected $28 million in VA reimbursements for 
services provided to American Indian and Alaska Native VA-eligible 
veterans. Refer to IHS's response to the Questions For the Record 
(QFR), Kaptur Q7, for additional information.

    Ms. McCollum. And, Mr. Chair, you asked some great 
questions on purchase and referred care. I would like to follow 
up with getting some information on urban Indian programs that 
do not have access to purchase and referred care funding. As 
two-thirds of the total American Indian and Alaska Native 
population are urban Indians, this lack of funding has an 
impact on healthcare services provided to them. What do we need 
to do to remedy that problem to follow up on your good 
question, Mr. Chair. Thank you.
    [The information follows:]

    Purchased/Referred Care Services for Urban Indian Organizations

    Since Urban Indian Organization (UIOs) are not eligible for 
Purchased/Referred Care (PRC) funding, programs primarily rely on 
third-party reimbursements and have the authority to use the PRC rates 
methodology when referring patients for tests or procedures not offered 
on-site. The Indian Health Service Office of Urban Indian Health 
Programs (OUIHP), as outlined in the OUIHP 2017-2021 Strategic Plan, 
has prioritized third-party reimbursements by supporting UIOs' efforts 
to diversify funding and increase revenue. The OUIHP provides technical 
assistance to UIOs seeking funding/reimbursements, including assistance 
with:
          <bullet> Assessing the feasibility of entering into care 
        coordination agreements in order for 100 percent of the Federal 
        Medical Assistance Percentage to apply to services provided by 
        UIOs, in accordance with the Centers for Medicare and Medicaid 
        Services' guidelines;
          <bullet> Demonstrating eligibility for reimbursements from 
        funders and insurers;
          <bullet> Negotiating agreements with the Department of 
        Veterans Affairs (VA) to enable billing the VA for eligible 
        care delivered to veterans;
          <bullet> Identifying grant opportunities and resources to 
        support grant writing; and
          <bullet> Providing training on navigating the accreditation 
        process.

    Mr. Calvert. Thank you. We thank all of you for attending 
today, and we appreciate your testimony and answers to our 
questions. And I also appreciate your getting back to us on 
this and other issues that Ms. McCollum mentioned and that I 
mentioned earlier.
    With that, we are adjourned.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    

                                          Thursday, April 26, 2018.

                    ENVIRONMENTAL PROTECTION AGENCY

                               WITNESSES

SCOTT PRUITT, ADMINISTRATOR, U.S. ENVIRONMENTAL PROTECTION AGENCY
HOLLY GREAVES, CHIEF FINANCIAL OFFICER, U.S. ENVIRONMENTAL PROTECTION 
    AGENCY

                  Opening Remarks of Chairman Calvert

    Mr. Calvert. The committee will come to order.
    I would like to welcome everyone to this afternoon's 
hearing. We look forward to a thoughtful discussion addressing 
EPA's fiscal year 2019 budget request and a number of policy 
issues of interest to the subcommittee.
    Before we begin, I would like to remind our subcommittee 
members and those in the audience of the importance of engaging 
in thoughtful, substantial discussion. While there may be 
disagreements relating to the views expressed today, my intent 
as chairman is to maintain order and decorum. Therefore, I ask 
those in attendance today, both in our audience and seated at 
this table, to be respectful of one another and to the 
Administrator throughout today's hearings.
    Today, we welcome back to the committee the 14th 
Administrator of the Environmental Protection Agency, Scott 
Pruitt. Joining the Administrator is Holly Greaves, Chief 
Financial Officer for the Agency.
    Administrator Pruitt, you have had a busy year. You have 
worked to reform the Agency, provide regulatory certainty, 
while simultaneously finding ways to create jobs, protect the 
environment and human health. We look forward to hearing more 
about the budget request, understanding your goals for the 
Agency in the upcoming year, and discussing, I am sure, a 
variety of issues.
    Just last month, the committee worked hard to finish work 
on the fiscal year 2018 budget. Utilizing additional funds from 
the February budget agreement, this subcommittee was able to 
provide nearly $2 billion in critical infrastructure spending, 
which included targeted investments in EPA's water 
infrastructure and cleanup programs.
    As members of the Appropriations Committee, it is our job 
to ensure that the Agency spends these funds as Congress 
intended and in a manner reflective of the Agency's mission to 
protect human health and the environment.
    I know that I, along with my colleagues, want to ensure 
that taxpayer dollars are spent on water infrastructure, on-
the-ground projects, and other vitally important programs, 
rather than some of the activities we have seen reported in the 
press.
    We will continue to provide necessary oversight to ensure 
that EPA and other agencies under this subcommittee's 
jurisdiction are held accountable, remain good stewards of the 
taxpayers' dollars, and comply with congressional notification 
requirements.
    Overall, the President's fiscal year 2019 budget request 
provides $6.146 billion for the EPA, which is $1.9 billion 
below the fiscal year 2018 funding level. While some reductions 
may be in order, cuts of this magnitude put important programs 
at risk.
    Within that request, State categorical grants, which 
provide financial assistance to States and Tribes to develop 
and implement environmental programs, are significantly reduced 
or terminated altogether. States rely heavily on these funds. 
Cuts of this magnitude will severely impact their ability to 
meet statutory requirements and address serious health and 
environmental concerns.
    The geographical programs, which are very important to a 
number of my colleagues, even on this subcommittee, are all but 
eliminated in this request.
    Beyond these programs, the budget also proposes to 
eliminate popular rural water technical assistance grants, the 
National Estuary Program, and Targeted AirShed grants. The 
Targeted AirShed grants, along with the Diesel Emission 
Reduction grants, or DERA, which are cut by 86 percent, are 
essential to my home State of California. My State relies on 
these grant programs to help drastically improve air quality by 
accelerating the replacement of older engines with newer, 
cleaner engines.
    In spite of these cuts, I am pleased to see that the budget 
request continues to support and prioritize updating aging 
infrastructure for both drinking water and wastewater systems 
by maintaining funding for the Clean Water and Drinking Water 
State Revolving Funds at current levels.
    The budget also maintains a Superfund program just below 
current levels, a promising increase from the fiscal year 2018 
budget request.
    Pivoting to policy, I think my colleagues would agree that 
we all want clean air and water to protect human health and to 
support a strong, robust economy. My constituents in California 
demand both a healthy environment and job creation, and I hope 
to work with your Agency to ensure both.
    In Southern California air quantity remains one of our 
biggest concerns. While we have made significant strides to 
improve air quality over the past decades, we continue to find 
ways to clean our air.
    As your Agency finalizes designations under the 2015 ozone 
standard, I hope that we can partner with the States to find 
innovative, cost-effective solutions to help all counties reach 
attainment without imposing economic burdens.
    I want to be sure that these clean air efforts are carried 
out in an effective manner and that we provide the resources 
necessary to support programs that have proven effective in 
reducing particulate matter and ozone.
    Finally at this hearing, last year you committed to 
reducing redundancies and inefficiencies within the Agency to 
better prioritize EPA's core mission. We hope to hear more 
about your Agency's ongoing work to review, reconsider, and 
ease regulations that bring undue stress to our Nation's 
industries while also remaining mindful of our environmental 
resources.
    As we approach the fiscal year 2019 budget, I reiterate 
that the power of the purse remains with the Congress, and my 
colleagues and I will do our best to continue to address 
infrastructure needs, water quality improvements, cleanups, and 
many of the issues we discuss here today. This subcommittee 
remains committed to continuing to work with your Agency, along 
with our State, local, and Tribal partners, to seek solutions 
to many of the challenges before us.
    No doubt all the members here today are eager to discuss a 
number of issues with you. I will ask members to abide by the 
5-minute rule so that everyone gets a chance to participate in 
today's hearing, and hopefully we will be able to have more 
than one round if we all stick to that.
    I am pleased to yield to the gentlelady from Minnesota, our 
ranking member, Ms. McCollum, for any opening remarks she would 
like to make.

                    Opening Remarks of Ms. McCollum

    Ms. McCollum. Thank you, Mr. Chairman.
    Administrator Pruitt, thank you for being here today. It 
has been a long day for you already.
    The fiscal year 2019 EPA budget is reckless, it is 
irresponsible, and it is unrealistic. Two months ago, Congress 
passed a bipartisan budget agreement to increase nondefense 
discretionary spending for 2 years. A month ago, in a show of 
strong bipartisanship, the fiscal year 2018 omnibus was enacted 
into law.
    We soundly rejected President Trump's reckless proposals 
that would desecrate our environment, starve Federal agencies 
from the funding they need to meet their critical missions, and 
jeopardize the health of millions of Americans.
    President Trump's first year in office has damaged our 
environment, public health, and natural resources. Today we 
will discuss many of these damaging policies and your role in 
turning back regulations to protect the environment.
    But that is not our only concern with your performance as 
EPA Administrator. All of us, whether elected or appointed, 
have a responsibility to be good stewards of taxpayers' 
dollars. But in just 1 year as EPA Administrator you have 
violated the public trust by abusing EPA resources and 
taxpayers' dollars. Your decisions and actions have displayed 
disregard for ethical standards to which all public officials 
should adhere.
    Administrator Pruitt, you are letting the American people 
down and you are letting your Agency down. Your actions are 
distracting the EPA from its core mission, and creating a toxic 
work environment, one that has demoralized your staff.
    One significant action that has proven not only to be 
unnecessary but unethical and unlawful was your use of $43,000 
to construct a privacy booth in your office. The Government 
Accountability Office found that you violated the 
Antideficiency Act and other appropriations laws, with your 
failure to notify Congress and this committee prior to the use 
of those funds. That is just one example of poor judgment that 
continues to plague you.
    I also have concerns about your work that extend far beyond 
ethical lapses and it undercuts the missions of the EPA. But 
thankfully, our government is built upon the principle of 
checks and balances and the courts are striking down much of 
the substandard work done by you and your political team.
    The courts have already ruled that the EPA acted 
illegally--illegally--in its efforts to undermine the methane 
and ozone rules. Based on your pattern of haste and careless 
work, I expect that the courts will rule against you on other 
reckless rollbacks.
    Administrator Pruitt, let me remind you, the law requires 
that the delay of a regulation or an issuance of a new rule is 
based on solid science--solid science. You cannot ignore the 
requirements of the Clean Air Act and the Clean Water Act and 
other bedrock environmental laws.
    Even though your work is turning out to be ineffective, we 
cannot ignore the danger that your policies pose for the 
American people. Climate change is the greatest environmental 
threat our planet faces. Your actions jeopardize our future, 
our national security, and the health of our communities.
    Withdrawing from the Paris climate accord or watering down 
fuel efficiency standards will harm the health of our children 
and grandchildren. Rolling back regulations that limit 
emissions will mean more cases of asthma in children. That is a 
fact. Keeping harmful pesticides on the market will damage 
children's brain development. That is a fact.
    Your approach is bad for the environment, it is bad for 
public health, and bad for business. Furthermore, it is a waste 
of taxpayers' money to develop regulations that ultimately will 
be overruled by the courts.
    You are falling short, and you are failing the American 
public, and you are failing your own Agency by not achieving 
the mission of the EPA to protect human health and the 
environment.
    The recently passed fiscal year 2018 omnibus clearly shows 
that Congress values a healthy environment. We will not support 
President Trump's budget cuts and the way in which the EPA has 
faced draconian cuts by this administration.
    Mr. Chairman, you have my commitment and my pledge to work 
with you and our colleagues in Congress to maintain the funding 
levels that will allow the EPA to continue to protect our 
environment. No matter what Mr. Pruitt may do to prioritize 
profits of fossil fuel and chemical corporations, it falls to 
the Congress to ensure that the air we breathe, the water we 
drink is safe for the American people.
    Thank you, Mr. Chair.
    Mr. Calvert. Thank you.
    Mrs. Lowey, the ranking member of the full committee, is 
here with us today.
    Mrs. Lowey, we always appreciate you taking time to join 
us. And would you have any opening remarks?

                     Opening Remarks of Mrs. Lowey

    Mrs. Lowey. Thank you, Chairman Calvert and Ranking Member 
McCollum, for holding this hearing, and welcome, Administrator 
Pruitt.
    I am really having deja vu as I look at another budget 
request that would drastically slash the EPA, in this case 30 
percent from current levels. Despite Congress' clear support in 
the fiscal year 2018 omnibus, you again propose to eliminate 
important programs like the Long Island Sound Geographic 
Program, the National Estuary Program, Endocrine Disruptors, 
and more.
    It is really astonishing that you would propose these 
drastic cuts on important investments for the public health and 
the environment while you appear to spend no--it is shocking to 
me that you are not sparing any expense on yourself. Your abuse 
of taxpayer dollars spent on first-class travel, $43,000 on a 
glorified phone booth, is an insult to the hardworking American 
taxpayers.
    Of course, as you know from last year when you testified 
before our subcommittee, I also have grave concerns about your 
close ties to the oil and gas industries, past work to directly 
undermine the EPA, and skepticism that human activity plays a 
role in climate change.
    I do hope your testimony this afternoon will address my 
concerns and all the allegations of unethical behavior you are 
facing.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    With that, Administrator Pruitt, you may proceed with your 
opening statement.

                     Opening Remarks of Mr. Pruitt

    Mr. Pruitt. Well, thank you, Mr. Chairman and Ranking 
Member McCollum, members of the committee. It is good to be 
back with you again. Thank you for the opportunity.
    There is consequential and important work being done at the 
EPA since the beginning of the Trump administration, both in 
terms of improved environmental outcomes as well as substantial 
regulatory reform. We are stripping burdensome costs from the 
American economy at an unprecedented pace, and we are doing 
this while inspiring confidence in the American people that its 
government is going to work with them, as opposed to against 
them, to achieve harmony between jobs and growth and 
environmental stewardship.
    In the short time of the Trump administration, we have made 
enormous progress as far as improved environmental outcomes. 
Here are just a few.
    We have removed over three times the number of polluted 
sites from contaminated communities across the country as 
compared to the previous administration in 2017, and for 2018 
we are on pace to remove as many as 10 times the number.
    We are cooperatively working with the States to improve air 
quality by acting on more than 350 State plans. When I arrived 
at the Agency, there were 700 State implementation plans that 
had been prepared by some of your States with respect to 
improving air quality that were literally sitting on the shelf. 
We have gone through 350 of those to improve air quality across 
the country.
    With regard to water, we are leading a multiagency approach 
that has set a goal of eradicating lead from our drinking water 
within 10 years, largely through the utilization of a tool that 
you have provided, WIFIA. It is my goal to prioritize 
applications for critical water infrastructure through WIFIA to 
hopefully see approximately $4 billion a year dedicated to 
replacement of lead service lines.
    President Trump has set an ambitious agenda for the EPA 
under his administration, and our measurable achievements are a 
testament to the effectiveness with which a results-driven EPA 
is implementing that agenda.
    President Trump did not only task us with accomplishing the 
core mission of the EPA more effectively and more efficiently 
than ever before, but he also demanded comprehensive regulatory 
reform. The transformational change is happening. In just 1 
year, the Trump administration has saved the American people 
approximately $8 billion in regulatory cost savings. And the 
EPA alone is responsible for nearly two dozen regulatory 
actions, saving Americans more than $1 billion in regulatory 
cost.
    These actions are providing America's job creators with the 
regulatory clarity they deserve. By repealing and replacing the 
so-called Clean Power Plan, we are ending the one-size-fits-all 
regulation on energy providers and restoring rule of law. By 
rescinding and rewriting the 2015 waters of the United States 
rule, we are ending Washington's power grab over land use in 
this country.
    It is indisputable that we have made enormous progress in 
advancing the President's agenda with respect to pruning back 
decades of regulatory overreach that was unnecessary, 
burdensome, and ultimately harmful to hardworking Americans 
across our country.
    When the President nominated me to this position, I 
believed the work was going to be impactful, and it has been, 
and tremendous progress is being made. But I did not expect the 
work to be easy and I knew that there would be meaningful 
opposition.
    However, as I sit before you today, I recognize that there 
have been very troubling reports in the media over the past few 
weeks. I promise you that I, more than anyone, want to 
establish the hard facts and provide answers to questions 
surrounding these reports.
    Let me be very clear. I have nothing to hide as it relates 
to how I have run the Agency over the last 16 months. I am not 
afraid to admit that it has been a learning process. And when 
Congress or independent bodies in their oversight roles find 
fault in our decisionmaking, I want to correct that and ensure 
that it does not happen again.
    Ultimately, as the Administrator of the EPA, the 
responsibility of identifying and making necessary changes 
rests with me and no one else. That is prospectively and issues 
that we will talk about today.
    With that being said, facts are facts and fiction is 
fiction, and a lie doesn't become true just because it appears 
on the page of a newspaper. Much of what has been targeted 
towards me and my team has been downright half-truths or 
stories that have been so twisted that they do not resemble 
reality. And I am here--and I welcome the chance to be here--to 
set the record straight in many of these areas.
    Let's have no illusions about what is really going on. 
Those who have attacked our efforts and attacked the process 
are doing so because they want to attack and derail the 
President's agenda and undermine this administration's 
priorities. I am simply not going to let that happen.
    And I look forward to your questions today.
    [The statement of Administrator Pruitt follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
                      ISSUES REPORTED IN THE PRESS

    Mr. Calvert. Thank you for your opening statement. I know 
you have spent a long time here so far today. I know you spent 
a good majority of this morning discussing some of the issues 
you just talked about that have been reported in the press 
lately. So I am going to use a little part of my time that I 
would rather talk about budget and some other concerns.
    But first, before we get started, I want to give you a 
moment, Administrator, to offer any comments you wish to make 
about those items. Anything you would like to comment about?
    Mr. Pruitt. Well, as I indicated, Mr. Chairman, in my 
opening comments, there are decisions that have been made that, 
as I look at them now, with respect to first-class travel, I 
have made changes. That was something that was predicated upon 
a security assessment. I can provide that to the committee.
    The inspector general has noticed that the threats against 
me have been unprecedented compared to previous administrators 
as it relates to the number, as well as to the type of threats, 
and that dictated the changes that were made in my travel. I 
was flying coach last year until those changes were made, based 
upon security assessments.
    I recently made changes to that, because I felt like, from 
an optics and perception standpoint, it was creating a 
distraction and I thought best to go another direction.
    There have been discussions about pay raises in the media. 
I want you to be aware that, as far as those pay raises are 
concerned, I was not at any time aware of the amount nor the 
process that was used to grant those pay raises. When I found 
out, I rescinded them and asked my chief of staff to resubmit 
them to the White House, pursuant to the protocols established.
    There are changes that I have already made, Mr. Chairman, 
with respect to these issues. But what I am trying to 
communicate to you today, if there are processes that have been 
not followed internally, and there are investigations and 
obviously review of that going on, I commit to you to make 
those changes prospectively to ensure that they are followed in 
the future.
    The recent discussion--and, Ranking Member McCollum, you 
brought this up--with respect to the secure communication, a 
little background on that, Mr. Chairman. I gave a simple 
communication to my leadership team that I needed secure 
communication in my office. From that communication, that 
turned into a $40,000-plus expenditure on this phone booth that 
the ranking member referred to.
    That was done by career staff. That process was approved 
from beginning to end, and the decision not to notify this body 
was made by those individuals, pursuant to advice and counsel. 
Our general counsel at the Agency has advised, actually, that 
they didn't think the notification was required. The GAO 
disagrees, and we have followed the GAO's request--excuse me, 
mandate--and notified Congress.
    I think it should have been done at the beginning. And I 
think, frankly, that the expenditure of $43,000 on secure 
communication should not have been made, and I would not have 
made the decision if I was aware of it.
    So that is just a sampling of some of the questions that 
have arisen in the media. But my objective here today is to 
speak to you in a way that provides you confidence that, going 
forward, we are going to address these issues in a meaningful 
way and recognize where faults have occurred and make sure they 
don't happen in the future.
    Mr. Calvert. Thank you for that.
    Ms. McCollum.

              INSPECTOR GENERAL'S DEATH THREAT ASSESSMENT

    Ms. McCollum. Thank you, Mr. Chairman.
    Well, I was going to ask a question on something else, but 
I want to go back to what you just brought up.
    I listened to the hearing this morning. When you were asked 
about the removal of the head of the EPA office who found that 
you did not face death threats, you testified that: The 
inspector general himself has notified that death threats 
against me are unprecedented.
    Well, we reached out to the IG's office. We asked IG Elkins 
if he made such comments, and he disputed your claim.
    Please explain yourself, Administrator. Do you need to 
correct the record from this morning? Are you suggesting that 
IG Elkins is not telling the truth?
    Because Patrick Sullivan is the IG employee who we think 
you are going to tell me made those comments. He was in the 
news for his close relationship with a Mr. Perrotta, the head 
of your security. Mr. Perrotta is also under an ethics 
investigation for helping to give a security contract to a 
business associate.
    So did the inspector general himself tell you that you did 
not face death threats, that they have not found death threats?
    Mr. Pruitt. Actually, as I indicated, Ranking Member 
McCollum, this morning, I am actually looking at an inspector 
general's threat investigation report right now.
    Ms. McCollum. Who was it issued by, sir?
    Mr. Pruitt. The inspector general.
    Ms. McCollum. Is it issued by Elkins? I just want to make 
sure we are looking at the same thing.
    Mr. Pruitt. I am just looking at the document that says 
inspector general. I would like to highlight just two examples. 
There are many on this page, but just two with respect to the 
threat assessments.
    The EPA Administrator was receiving threats on a Facebook 
account. The threats were directed toward me, the father. The 
threat stated: ``I hope your father dies soon, suffering as 
your mother watches in horror for hours on end.''
    A second one, a correspondence between the subject and an 
EPA employee. OIG investigators found the following post 
tweeted, which states: ``Pruitt, I am going to find you and put 
a bullet between your eyes. Don't think I am joking. I am 
planning this.''
    Those are just two examples of what the inspector general--
--
    Ms. McCollum. Can I see the letter, please, and see who it 
was issued by?
    Mr. Calvert. If you like, you can submit that to the 
record.
    Ms. McCollum. That would be great, because, you know, we 
all receive death threats on our Facebook page.
    Mr. Calvert. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
  
    
    Ms. McCollum. We all do.
    Thank you, Mr. Chair.
    Mr. Pruitt. That is what I was referring to, Ranking Member 
McCollum, this morning in my testimony.
    Ms. McCollum. But I am quoting. You said the inspector 
general himself has noted threats, so----
    Mr. Pruitt. Well, that is what I was just reading for you.

                       ETHICS REVIEW: CONDO LEASE

    Ms. McCollum. And we will look at exactly who issued that.
    The other thing that I would like to clear up was the lease 
with the condo where you were staying. This morning, you said 
that everything had been approved by Ethics. Is it not true 
that the Ethics check was done after the lease was signed? And 
is it not also true that the Ethics attorney at the EPA said 
she had not been given the full picture when she signed off on 
the Ethics ruling about your condo? And she said, and I quote 
that individual: ``Advice that is given by Ethics officials is 
only as good as the information that is provided.''
    Was the Ethics review done after the lease was signed?
    Mr. Pruitt. There were actually two, and I did say this 
morning they were done afterwards. But there were actually two 
Ethics reviews. I think you are referring to Justina Fugh with 
respect to her comments. But there was a second one, more 
fulsome, more complete, where there were actually comparables 
of similar arrangements where they looked at the numbers.

                 PROPOSED RULE: TRANSPARENCY IN SCIENCE

    Ms. McCollum. Thank you. I don't want to waste all my time 
on your ethical lapses.
    Mr. Chair, I would like to ask a question.
    I am very disturbed by your efforts to undermine the 
integrity of the EPA's science programs. You are aware of all 
the drastic cuts, the cuts to the advisory boards, how the 
advisory boards have been changed to favor industry.
    Currently, the EPA bases its regulations on well-
established peer-reviewed research that tracks the public 
health of patients over decades. One of them is this 
groundbreaking 6-page study from the New England Journal and 
the Harvard School of Public Health. They show a strong link 
between air pollution and mortality risk, leading the EPA to 
regulate fine particulate matter.
    So scientists have collected this information. They have 
pledged to keep patients' names and personal information 
confidential. That is the way that medical research moves 
forward.
    Do you think it is appropriate, with what you are looking 
to do, to ask Americans to give up their personal health 
information for public consumption? Would you be willing to 
share your family's health information?
    Mr. Pruitt. I think perhaps there is a misunderstanding in 
the sense that we are not requiring that actually. We are 
protecting that. The changes that we have made this week, it is 
a proposed rule where we are saying that the third-party 
science that we use in support of rulemaking cannot just 
provide us the conclusions. It has to provide the methodology 
and data that supports those conclusions to ensure 
transparency.
    Under the APA, as you are aware, Ranking Member McCollum, 
individuals have the opportunity to receive a proposed rule and 
then to review it to make comments. If they cannot look at the 
data and the methodology and how conclusions were drawn, their 
ability to provide and form comments is actually prevented.
    Ms. McCollum. Reclaiming my time, Mr. Chair, I would like 
to put the New England Journal of Medicine in the report to 
point out how you can collect----
    Mr. Calvert. Without objection.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Ms. McCollum. How they go about collecting medical data 
without putting individual public medical records at risk.
    Thank you, Mr. Chair.
    Mr. Pruitt. May I, Mr. Chairman?
    Just to be clear, in this proposed rule, confidential 
business information as well as personal information would be 
redacted and protected with respect to the transparency that we 
are requiring. That is actually in the proposal.
    Ms. McCollum. Mr. Chair, not to belabor the point, but if 
you are from a small rural town, you can still be identified. 
All of us who have worked on public healthcare records know 
that. We work on that. I worked on privacy issues when it comes 
to healthcare at the State of Minnesota for years serving 
there.
    Thank you, Mr. Chair.
    Mr. Calvert. I thank the gentlelady.
    I know one thing, we are very good at redacting things 
around here.
    Mr. Simpson.

                   STATE AND TRIBAL ASSISTANCE GRANTS

    Mr. Simpson. Thank you.
    I wasn't going to mention this, but I happen to agree with 
what you have been doing recently with making available the 
studies and so forth that created the science, because I can 
tell you for years what I have heard from, whether it is 
organizations, individuals, associations, whatever, they come 
in and say: EPA came up with this rule. We have no idea how 
they came up with this rule. We don't know what science they 
used. We don't know how it was done. Our science doesn't show 
the same thing.
    And the basis of science is that if you do something and 
come to a conclusion, I ought to be able to look at how it was 
done and the factors that were used and be able to come up with 
the same conclusion. Then you have science. But right now, 
nobody knows how the EPA comes up with a lot of the information 
that they come up with.
    So I applaud the transparency that you are trying to create 
there as long as we can maintain that privacy of people's 
medical records and those other things that ought to be kept 
confidential. So I just wanted to throw that in there.
    Let me ask you a couple of questions on your budget, 
actually, since this is a budget hearing.
    One of the concerns I have and one of the things this 
committee has tried to do, we actually reduced the EPA's budget 
over the years, and one of the things we have tried to do, to 
the extent possible, is protect STAG grants, very important 
programs for State and local communities, Indian tribes, in 
addressing wastewater and clean drinking water standards.
    Several years ago, when I chaired this committee, the 
backlog of maintenance was like $700 billion. I think it has 
gone over a trillion dollars now of backlog maintenance. We 
appropriated $3.56 billion last year for STAG grants. The 
budget request is $2.9 billion or about $600 million less.
    How do you plan to address the backlog of maintenance to 
address the clean drinking water standard in this country?
    Mr. Pruitt. If I may, I want to commend Congress, 
obviously, for the omnibus that was passed recently, providing 
clarity on our budget. These are very important areas that you 
described.
    About half our budget historically has been focused upon 
these grant programs, to assist the States in implementation 
and critical infrastructure. It is something that I am 
committed to and will continue to convey that to the 
individuals I work with at OMB, and to hopefully see different 
objectives in the future.
    But I really appreciate the work of Congress to restore 
those levels of funding around those grants.

                     RURAL WATER ASSISTANCE PROGRAM

    Mr. Simpson. One of the other important programs that was 
actually zeroed out in last year's budget that we didn't zero 
out and is zeroed out again in this year's budget is Rural 
Water Assistance. With a lot of small communities in Idaho and 
in other States, they depend on this Rural Water Assistance 
Program to help them learn how to address the standards that 
are necessary under the Clean Drinking Water Act.
    Is it wise to eliminate that program? And what coordination 
have you had with those local communities about how best to 
spend that money?
    Mr. Pruitt. Well, in my view, it is not wise. I think that 
the collaboration with the States and localities is really the 
heart of federalism on these issues.
    We have critical water infrastructure needs across this 
country. I mentioned lead in my opening statement. We have an 
opportunity as a country to take steps over the next 10 years 
to truly allocate resources to replace those lead service 
lines.
    I was in Cincinnati Monday of last week. They are leading 
the country with respect to leadership at the local level to 
replace lead service lines.
    I can only say to you that it is a commitment of mine and 
it is something that I want to see the Agency emphasize going 
forward. I am hopeful that we will have good outcomes as we go 
through the budgeting process.

                      CLEAN WATER ACT: SNAKE RIVER

    Mr. Simpson. One final really quick question. Long 
introduction maybe.
    In 2012, the Idaho DEQ received approval from the State 
legislature for site-specific temperature standards for the 
salmonid spawning below Hells Canyon Dam on the Snake River. 
The rule was submitted to Region 10 EPA.
    In March of 2014, EPA Region 10 asked for more information 
on the rule, which Idaho DEQ supplied. To date, no further 
action has been taken on the rule.
    The Clean Water Act states that EPA is required to respond 
within 60 days on approving this rule or 90 days if it would 
like to see changes to the rule. Since the rule was submitted 
in 2012, we are now more than 2,000 days beyond that 
requirement.
    The rule is a science-based standard that NOAA Fisheries 
has encouraged EPA to adopt, concluding that it would not hurt 
fall chinook or their habitat.
    Will you commit to us to working with the State of Idaho 
and Region 10 so that we can resolve this impasse that has been 
going on for several years?
    Mr. Pruitt. It sounds like we have work to do as far as 
responding, and I apologize for that delay as it relates to our 
part of that.
    Chris Hladick is the new Regional Administrator in Region 
10. He was one of the last that was actually approved. I think 
he is catching up to a certain degree. But I will be in 
conversations with the regional administrator to address this 
issue promptly.
    Mr. Simpson. Thank you.

            WATER INFRASTRUCTURE FINANCE AND INNOVATION ACT

    Mr. Calvert. Thank you. Just a comment on your question, 
Mr. Simpson, on infrastructure. Don't forget WIFIA, because I 
think WIFIA is going to be a great tool to help leverage moneys 
to go into these various programs.
    Mrs. Lowey.

                   PROPOSED RULE: METHYLENE CHLORIDE

    Mrs. Lowey. Thank you, Mr. Chairman.
    Administrator Pruitt, I would like to follow up with two 
questions.
    Based upon my review, you are strategically starving 
programs that identify chemicals that could be harmful to 
children, while rolling back and delaying regulations for 
deadly chemicals. In December, you indefinitely delayed the 
proposed rule to ban paint strippers containing methylene 
chloride.
    This chemical has killed 50 Americans since 1980. Three 
have died since EPA first proposed to ban it. Just this past 
October, Drew Wynne, a 31-year-old small business owner, was 
killed when he was overcome by the fumes from the chemical 
stripper he used on the floor at his business. He bought that 
paint stripper at a home improvement store.
    When EPA conducts a cost-benefit analysis of rule 
promulgation, what value does it place on human life? And which 
is more important to you, the happiness of the industry you 
regulate or the safety and well-being of Americans? And what 
will it take for you to finalize this rule to save lives?
    Mr. Pruitt. So I appreciate the question, because I think 
there is some misinformation in the marketplace about what we 
have done and not done with respect to that proposed rule. As 
you know, the Obama administration in January as they were 
leaving office, proposed that ban. We have actually submitted 
that for comment, have received comments, and are reviewing 
those comments now.
    There has been no decision to deny that ban. I mean, that 
is something that is under consideration presently. It is 
actually one of the solvents that make up the list of 10 
priorities under TSCA.
    So I take this issue very seriously. We are working on, 
obviously, the prioritization of that. Also there will be a 
decision on the ban, but there hasn't been a decision yet.
    Mrs. Lowey. Well, I appreciate your comment, and I look 
forward to a very clear decision, because it is costing lives.
    Mr. Pruitt. If I may, about the chemicals generally. We had 
a backlog. As you know, under TSCA, before new chemicals enter 
the flow of commerce, we have to approve those new chemicals.
    When I came into office, there were over 700 of those 
chemicals that formed the backlog. I actually prioritized 
resources at the Agency, utilizing the Office of Research and 
Development, to assist the programmatic office to undo that 
backlog, and we did, to ensure clarity going forward on those 
chemicals.
    So we have tried to make progress at prioritization around 
these issues and will continue to do that, but wanted to share 
that with you as well.
    Mrs. Lowey. Thank you. And I have one more question. 
Perhaps, though, you can discuss with us or just tell us how 
long that process will take, because lives are being lost in 
the interim.
    Mr. Pruitt. On the proposed ban?
    Mrs. Lowey. Yes.
    Mr. Pruitt. The comments, I actually asked earlier how many 
comments we had received, and I didn't get the official number. 
It depends on the volume of comments. But I would imagine that 
it is something that we can do this year.

                      ENDOCRINE DISRUPTORS PROGRAM

    Mrs. Lowey. I appreciate that, and the sooner the better.
    I have one other question now. Your budget proposal 
prioritizes industry over the health of the American people, in 
my judgment. Last year, I asked you about the proposed 
elimination of the Endocrine Disruptors Program, which is 
critical to protecting against negative effects on public 
health caused by various chemical exposures.
    You assured me that you shared my concern and would work 
with us on restoring it. Yet once again you have proposed its 
elimination.
    How can you say that you will work to restore funding and 
then propose elimination?
    Mr. Pruitt. I think, Congresswoman, one of the things that 
I would share is that the absorption of those functions has 
actually gone to the Chemical Office, and we are using current 
available testing to address those issues.
    Mrs. Lowey. I am not sure what you are responding to me. 
Are you working on it? When can we expect a clear decision?
    Mr. Pruitt. Well, there is an available----
    Mrs. Lowey. I can remember, frankly, when that first issue 
was brought to my attention, it must have been 20 years ago, by 
the woman who discussed it. And this is really problematic. 
They have found all kinds of materials put in plastic. You know 
the whole story and I won't go into it. But I think a decision 
has to be made sooner rather than later.
    Mr. Pruitt. Yes, ma'am.
    Mrs. Lowey. Yes?
    Mr. Pruitt. Yes. I mean the testing battery is a tiered 
testing methodology that our Chemical Office has in place. That 
is being used to absorb the requirements of the program that 
you have referenced in the interim until we get clarity on the 
budgeting aspect.
    Mrs. Lowey. I would be most appreciative, because this is 
an issue I have been following for more than 25 years. And I 
would appreciate it if you would give me a timeline, tell me 
what is happening, and as soon as possible, I hope coming to 
the right decision.
    Mr. Pruitt. With respect to the funding or what is 
happening in the interim until the funding is addressed?
    Mrs. Lowey. Both.
    Mr. Pruitt. Both? OK, we will do both of those things.
    [The information follows:]

                          Endocrine Disruptors

    The Endocrine Disruptor Screening Program (EDSP) has a universe of 
approximately 10,000 chemicals. Tier 1 screening determines whether a 
chemical has the potential to interact with the endocrine system and 
requires more thorough testing. Tier 2 testing is conducted to rule out 
bioactivity for chemicals that show more potential for endocrine 
bioactivity. If a chemical is determined to indeed have endocrine 
bioactivity after completing EDSP Tier 2 testing, EPA would most likely 
conduct a complete risk assessment and risk mitigation exercise for 
that chemical.
    The EDSP has completed Tier 1 screening for List 1 chemicals, and 
identified 18 chemicals for Tier 2 screening. The EDSP has met 
statutory requirements for developing a tiered testing strategy (FQPA 
Amendments to FFDCA section 408(p)(1)) for estrogen and other endocrine 
activities as determined by the Administrator). The EDSP has also met 
the statutory requirements to take public comment on the tiered testing 
battery with FIFRA SAP under section 408(p)(2).
    EDSP is still implementing testing of all pesticides and inert 
ingredients with the tiered testing battery required under section 
408(p)(3)(A).

    Mrs. Lowey. Thank you.
    Mr. Calvert. Thank you.
    Mr. Cole.

                        FISCAL YEAR 2019 BUDGET

    Mr. Cole. Thank you very much, Mr. Chairman.
    My friend, good to see you again. Sorry it has been a long 
day.
    But as this committee knows, I have known the Administrator 
for over 20 years, and I have high confidence in his personal 
integrity and ability.
    And certainly if a mistake was made, I am sure it will be 
acknowledged and corrected, because I have seen you do it over 
and over again in the course of a long and very distinguished 
career of service.
    I want to move quickly, because there are some things I 
want to get at. I want to first thank you and the President for 
getting us out of the Paris climate accord. Congress never 
approved that, because it would not have gotten the votes in 
either house. And if you have got confidence in an agreement 
and you want it to be permanent, you need to bring it before 
the Congress of the United States.
    The last President chose not to do that. So I think this 
President, and on your advice, acted wisely in that area.
    I also want to thank you for the deregulatory thrust of 
your office. I hear it over and over again from farmers, 
ranchers, all sorts of people, how grateful they are for what 
your department is doing to free them up from burdensome 
regulations.
    Now, I have been fulsome enough in my praise, but I have 
one other point to make first.
    On the budget, to be fair to you and the administration, we 
passed the omnibus budget a month ago, roughly. I assume your 
budget for 2019 was prepared before we had come to a bipartisan 
agreement. Is that the case?
    Mr. Pruitt. I think that is right, Congressman.
    Mr. Cole. So, I mean, that suggests to me that you have to 
adjust the budget. We didn't give you time to do it. Frankly, 
we were late getting our work done. And I have seen this in 
agency after agency. They are sort of caught with budgets that 
were prepared before Congress agreed to higher spending levels. 
And so this is a pretty common sight in every one of the 
subcommittees right now.
    The other thing I would say, and I wouldn't have put you on 
the spot on this, but I have never met anybody that got to 
fully prepare their own budget. Usually it has to go to the 
OMB. One of our former colleagues, named Mr. Mulvaney, operates 
that. He was a pretty famous budget-cutter here.
    So I expect you, as always, to defend the President's 
budget, that is your obligation as his appointee, but you don't 
always get to make those final calls. And I am not going to 
press you on it, but the budget you submitted probably didn't 
come back exactly as you submitted it.
    Mr. Pruitt. No, there is always an active dialogue there. I 
appreciate your comments.

                   STATE AND TRIBAL ASSISTANCE GRANTS

    Mr. Cole. OK.
    Now, there is one area that I do have a special concern in, 
and that is the cuts in the State and the Tribal grant 
programs. Those, as my colleague suggested, are extraordinarily 
important and particularly in the Tribal areas. These are not 
governments in many cases with much in the way of independent 
revenue, they don't have the ability to tax, and they are in 
some of the most remote and difficult sites in the country.
    So I would just tell you we are going to probably always be 
pretty aggressive at pushing back in cuts in those areas, 
because that is really not the Federal bureaucracy, that is 
money going right out directly to help the people that we all 
represent. So I would ask you to revisit that with the powers 
that be inside the administration.
    Mr. Pruitt. As you know, Congressman, we have an 
International and Tribal Affairs Office that works with those 
sovereign nations across the country with respect to 
implementation of environmental statutes and regulations. It is 
something that is very, very important to our efforts. So I 
agree with your assessment.

                     KERR WATER LAB, ADA, OKLAHOMA

    Mr. Cole. I have one particularly local matter to ask you 
to look into.
    As you know, the Kerr water lab is located in Ada, 
Oklahoma. It has long been an EPA facility. It is a very good 
facility, does groundbreaking work in groundwater issues.
    We recently had an administrator that left there, nothing 
inappropriate about that, but the one before him, that was 
allowed to stay vacant for 4 years. We had acting 
administrators.
    So I would just ask you and your office to put some 
attention to that. I don't have any candidate. I just don't 
want the administrative post at an important national 
laboratory left vacant for 4 years. And, frankly, it does 
disadvantage us when we are actually competing for part of the 
budget for research and science inside the EPA.
    Mr. Pruitt. I hear you and I appreciate the comment. It is 
something that I will visit with the ORD to make sure that 
there are ongoing efforts to fill that position.
    I think those labs regionally are very, very important to 
the work that is done by States across the country. Because 
those State Implementation Plans, water quality standards, and 
various steps that are being taken by the States to actually 
implement the regulations that we are setting, they need that 
technical assistance. Those regional labs matter substantially 
to helping them do that.
    Mr. Cole. I would just ask that you keep us posted on the 
process. Again, I don't have a candidate. I just want to make 
sure that from a personnel standpoint that that facility has 
the appropriate leadership, and I would appreciate your help.
    With that, I yield back, Mr. Chairman.
    Mr. Calvert. Thank you.
    Ms. Pingree.

                        FISCAL YEAR 2019 BUDGET

    Ms. Pingree. Thank you very much, Mr. Chair.
    Thank you, Administrator Pruitt. Clearly, you have had a 
long day and it is not over yet, but thank you for being in 
front of our committee.
    I have had a chance to listen to a lot of the dialogue 
earlier this morning. I am not going to ask you to repeat every 
single question. But I do have concerns about the many things 
that have been raised about how you have administered the 
organization, some of those things that have already been 
brought up, some others about retaliation of whistleblowers, 
your housing issues, abuse of hiring authority, violations of 
the Hatch Act. There is really quite a list.
    But I have to say, I want to focus my concerns on some of 
the severe policy disagreements that I have with you.
    First off, I had hoped you would spend a little more time 
defending a reasonable budget. I know my colleagues mentioned 
it is not easy when you are the appointee. You have a budget, 
you have to sort of take a little bit of what is given to you.
    But to have the 30 percent cuts, the dramatic cuts that we 
have actually bailed you out of, I think, twice now in the 
budget processes, they don't stand. Programs are being 
eliminated. This just couldn't possibly go on. I would like to 
see you be a little bit more rigorous in your defense.
    But I want to focus a little bit on a couple of issues that 
concern me.
    I have a sense that some of the appointments of this 
Administration don't have the same view of how they should 
administrate the organizations as maybe some of us do, but are 
somewhat there to dismantle it or to look at a different 
purpose.

                              MOROCCO TRIP

    I know I hear praise on the other side of the aisle. But 
one of the concerns that I had was how you oversee the EPA, the 
Environmental Protection Agency. A lot of concerns have already 
been raised about whether you have too much of a bent towards 
industry, towards fossil fuels.
    There were concerns raised about your trip to Morocco and 
the idea that you were there to promote LNG sales. I can't for 
the life of me imagine why an EPA administrator would be over 
there promoting energy sales. We have a Department of Energy. 
You should be thinking much more about some of the challenges 
with LNG and why you would be on the other side.
    The second----
    Mr. Pruitt. If I may.
    Ms. Pingree. Quickly.
    Mr. Pruitt. So there is a free trade agreement. The 
Ambassador of Morocco actually met with me in advance of a free 
trade agreement that was being negotiated and completed in 
February this year. We were there in December to negotiate the 
environmental chapter. That was the focus of the trip. There 
was a lot of reference made to LNG only because the ambassador 
asked me to share that with the individuals when I was in the 
country.

                             CLIMATE CHANGE

    Ms. Pingree. Well, it has certainly been portrayed in 
another way, and it certainly raised a lot of concerns. I would 
not want to think that you saw yourself as promoting fossil 
fuels or fossil fuel sales outside the country.
    I am also really concerned about how you talk about climate 
change. It has been widely reported that you do not agree with 
the issues around climate change. You call it something that 
has been far from settled. This is a quote from you: ``I think 
that measuring with precision human activity on the climate is 
something very challenging to do and there is tremendous 
disagreement about the degree of impact.''
    You have also been known to say that there are assumptions 
being made that because the climate is warming that it is 
necessarily a bad thing. A recent article just showed that EPA 
staffers are given talking points to play down climate change, 
to say it is not clear that there is a man-made impact, to 
raise uncertainty.
    I think we could all give a tremendous number of examples 
why this is on us and on us faster than we ever imagined, that 
scientists from around the world are talking to us about this. 
I thought I might just quote from a couple of letters I got 
actually this week.
    I represent the State of Maine. We are part of the Gulf of 
Maine, which is warming at a rate about 99 percent faster than 
the oceans around the world. Lobster fishing is critical both 
to our economy, to our tourism business, to our culture. I get 
these letters from kids who live in fishing communities.
    Here is one that said: ``One of the changes from climate 
changes is warming waters, rising sea levels, and the migration 
of lobsters. In around 50 years, the water level will rise and 
the coast of Maine will be having tropic temperatures and there 
will be many new types of fish.
    ``There will also be no more native species that were once 
here, because the global temp is going up by 1.8 percent 
Fahrenheit since 1880. Climate change is a real thing. It will 
affect the coast of Maine.''
    Here is another kid who said: ``My grandfather is a second-
generation fisherman who lives on one of the islands. Every 
summer my cousins come up, we always take a trip out to the 
island to eat lobsters and camp out.
    ``It is a tradition I know and would like to carry on with 
my children, but it might not be possible. If the oceans keep 
warming and pushing lobsters north, there will most likely not 
be the same island culture that there is today. Lobster 
fishermen will be replaced by tourists. There will be no reason 
for me to return to the island with my children.''
    That might be through the eyes of children, but if you are 
not going to listen to scientists, who are you going to listen 
to? This is what is going on in my State. How do I go home and 
tell them that the Administrator of the EPA doesn't want to put 
resources in this, doesn't actually believe in it, and said: 
Oh, maybe we are getting some benefit out of this. How do you 
defend that?
    Mr. Pruitt. Well, I have indicated many times, and have 
said it over and over again, the climate is warming and we 
contribute to it. But what is lost in this discussion is what 
authority does the EPA have to regulate?
    The Clean Air Act was last amended----

                             CAFE STANDARDS

    Ms. Pingree. But with all due respect, I mean, we are going 
to talk about a lot of things, CAFE standard, Clean Power Rule. 
There are a lot of things that you are rolling back actively 
that I think would have a huge impact if you would stay on the 
other side.
    Mr. Pruitt. So there were two efforts made by the previous 
administration to regulate CO2, and both of them were struck 
down by the courts.
    Ms. Pingree. Well, get creative. There is a lot more we 
could be doing.
    Mr. Pruitt. They were creative.
    Ms. Pingree. CAFE standards were not struck down by the 
courts.
    Mr. Pruitt. That is not the issue we are talking about 
here.
    Ms. Pingree. Auto emissions?
    Mr. Pruitt. The Tailoring Rule that the previous 
administration adopted with respect to CO2 and then the Clean 
Power Plan was stayed by the U.S. Supreme Court, and it was 
unprecedented. That had never happened, for the U.S. Supreme 
Court to issue a stay while a case was pending at a lower court 
level.
    Ms. Pingree. That doesn't allow us to say we are not going 
to deal with this issue.
    Mr. Pruitt. I haven't said that. I can only take the steps 
that Congress authorizes me to take. The faults of the last 
administration on this issue is they tried to pinch hit for 
Congress.
    I have taken the additional step that no previous 
Republican administration has actually taken. I have actually 
introduced an advance notice of proposed rulemaking in the 
marketplace to solicit comment on our authority to regulate GHG 
under----
    Ms. Pingree. Excuse me. I want to finish my comment here.
    You can say that the fault is the last administration, that 
they didn't do it right, they were pinch hitting for Congress. 
To actively deny that we are now experiencing the effect of 
climate change, whether it is unexpected weather, whether it is 
something farmers or fishermen or anyone is experiencing right 
now, and that we don't have to start preparing for that, and to 
say that there might be some benefit, which I haven't heard you 
justify what those benefits are, we don't have time to blame 
the last Congress. I want to hear some leadership out of you 
about what we are going to do about it.
    Mr. Pruitt. We have actually, as a country, reduced our CO2 
footprint by almost 20 percent from the years 2000 to 2014. 
There was a GHG report that recently came out that showed an 
additional 2 percent reduction. We have led----
    Ms. Pingree. Well, if it has gone down from 2000 to 2014 
and you are rolling back the standards, we are not moving in 
the right direction.
    Mr. Pruitt. The other report recently came out, another 2 
percent reduction, and that is largely through innovation and 
technology.
    Ms. Pingree. Not since you got there.
    Mr. Pruitt. Actually, it was just in the last couple of 
weeks that it occurred.
    Ms. Pingree. I yield back. I don't need to keep going on 
this.
    But I just want to be clear, I find those statements 
unacceptable. I can't go home and tell my district or people 
that I serve with or young kids in elementary school who are 
writing me letters that there might be some good impacts to 
climate change and it is OK to do nothing about it.
    Mr. Calvert. I thank the gentlelady.
    Mr. Joyce.

                   GREAT LAKES RESTORATION INITIATIVE

    Mr. Joyce. Thank you, Mr. Chairman.
    Administrator Pruitt, the subcommittee as a whole 
recognizes the importance of the Great Lakes Restoration 
Initiative and the role it plays in our ability to protect and 
preserve the Great Lake ecosystem. On a bipartisan basis, we 
have rejected proposals that have cut, whether it was the 
previous administration or the current administration, funding 
for the GLRI.
    Unfortunately, the Administration's 2019 budget would once 
again cut GLRI funding from $300 million to $30 million. Last 
year the proposal was zero, so I guess in some ways it was an 
improvement, but I don't see it that way.
    Have you ever personally visited the Great Lakes region to 
see how GLRI projects are helping us address regional concerns 
like invasive species and nonpoint source pollution?
    Mr. Pruitt. I was actually in Region 5 this past week. 
Obviously, that has been a major issue for Region 5 in Chicago 
and the States in that region.
    I think the Great Lakes Initiative represents something 
that is very, very good for the rest of the country. You have a 
collection of States that have joined together to advance 
issues of environmental concern--invasive species is an 
example--and taken steps locally. They have partnered with the 
Federal Government to achieve better efforts. I think it is the 
true example of federalism.
    I have expressed that in these discussions internally. I 
will continue to do that. I really appreciate Congress 
restoring that $300 million for the omnibus that you just 
passed.
    Mr. Joyce. I appreciate that, because I heard that from you 
last year. I didn't have the opportunity to go with you when 
you were in Region 5, but certainly I want to extend, on behalf 
of Ms. Kaptur and myself, an invitation to come to the Great 
Lakes--and certainly a number of members----
    Ms. McCollum. I have Lake Superior.
    Mr. Joyce. Well, ours is Erie. They are all good lakes. As 
I try to tell people, it is not a lake or a series of lakes; it 
is a national treasure, containing 85 percent of the fresh 
surface water in North America. So we would love to take you 
out there and show you firsthand some of the ways in which the 
GLRI has been working.
    Mr. Pruitt. These are regional investments. I think these 
regional grants and investments matter. But I appreciate your 
comments.
    Mr. Joyce. I agree on that. I strongly support increased 
coordination between the Federal agencies, States, Tribes and 
local entities. However, given the national significance of the 
Great Lakes, is it fair to expect the States and local 
communities to continue to shoulder the burden of caring for 
the Great Lakes?
    Mr. Pruitt. Hopefully, I have addressed that question as 
far as my commitment. I can only say to you, Congressman, that 
it is my belief, my conviction that we should work together to 
keep funding levels consistent with the omnibus level which you 
passed.
    Mr. Joyce. I thought I heard you say that the 
responsibility would come back to the localities. It is 
important that we all work together. That is the point I want 
to make clear.
    Mr. Pruitt. No, if I gave you that impression, I am sorry. 
I think it is a partnership that should exist between both the 
U.S. Government and those States and localities.

                       GREAT LAKES ADVISORY BOARD

    Mr. Joyce. As part of that, there is the Great Lakes 
Advisory Board. Are you familiar with the Board?
    Mr. Pruitt. I am familiar with it, yes.
    Mr. Joyce. It would appear that--and I would, if I may, 
pass a letter to you, on behalf of Ms. Kaptur and I.
    Mr. Calvert. The gentleman wants to submit that for the 
record. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Joyce. Thank you very much.
    I want to know if there is any concern that we should have 
regarding whether or not you are considering to disband the 
Great Lakes Advisory Board?
    Mr. Pruitt. I don't know of any current consideration to 
ban the board, if that is your question, Congressman.
    Mr. Joyce. Have you assessed whether the EPA may receive 
advice from our stakeholders using a mechanism other than the 
Federal Advisory Committee Act without violating FACA, 
especially when Congress has an interest in ensuring that the 
$300 million we appropriate annually for the GLRI should have 
strong public advice, support, and input to you?
    Mr. Pruitt. That should be reviewed as well.
    Mr. Joyce. Great.
    With that, I yield back, Mr. Chairman.
    Mr. Calvert. I thank the gentleman.
    Mr. Kilmer.

                             CLIMATE CHANGE

    Mr. Kilmer. Thanks, Chairman.
    Thanks for being with us.
    Before I came to Congress, I worked in private industry. I 
worked in business and then in economic development. And here 
is what I will tell you. We saw when you do brownfield 
restoration, when you clean up Puget Sound, it is actually good 
for business. Tacoma is a more vibrant city because we 
remediated the surrounding lands and waters. It is a place 
people want to live. It is a place where businesses want to 
invest and can profit.
    But the ``P'' in EPA doesn't stand for profit, it doesn't 
stand for personal gain, it stands for protection. And sadly, 
there are far too many examples where the environmental 
protections that motivated the creation of this Agency have 
been ignored under your leadership.
    And a paramount example of that is climate change. So I 
want to follow up on Ms. Pingree's line of questioning.
    I would invite you to visit our region. We are seeing the 
impacts of climate change firsthand. You can come and see 
catastrophic wildfires. You can see changing ocean conditions 
that are impacting fishermen and shellfish growers, not just in 
Maine but in Washington State.
    Come visit our coastal communities. I represent 11 Native 
American Tribes. Four are coastal Tribes that as we sit here 
today are in the process of trying to move to higher ground 
because of persistent flooding.
    When the EPA doesn't act, the conditions on the ground in 
Washington State get worse. And the folks in my neck of the 
woods depend on your Agency to be the first line of defense, 
and you have let them down.
    You know, 3 months ago, to Ms. Pingree's point, you said: 
``I think there are assumptions made that because the climate 
is warming that that is necessarily a bad thing. We know that 
humans have most flourished during these times of warming 
trends.''
    If you came to my district, I would introduce you to Fawn 
Sharp, the president of the Quinault Indian Nation, who told me 
that the ocean was once a football field's length away from her 
village and now it is their front porch. You could talk to the 
Army Corps of Engineers in our region who have responded every 
time their seawall breaches and their village floods.
    You can visit with our shellfish growers, Bill Taylor, 
whose business is constantly threatened by harmful algal blooms 
and by increasingly acidic waters that have been so bad that 
our government actually declared a disaster as a consequence of 
it.
    I could introduce you to a whole bunch of folks who are 
impacted by this.
    So I am not going to ask you to defend industry 
relationships or your views on climate science that you just 
articulated. I guess I want to ask for your help.
    What would you say to the coastal communities I represent 
that face an existential threat to our fisheries that are 
dealing with this, with ocean acidification? Do you really 
think they are going to flourish because of this?
    Mr. Pruitt. Well, as I indicated earlier, I think there are 
a couple of questions with respect to this issue. The one that 
does get lost in the discussion quite a bit is the process and 
the response opportunities we have as an Agency.
    We are looking at those options, on what steps we can take 
to regulate CO2 for stationary sources. And, Congressman, that 
has not been done before.

                        GREENHOUSE GAS EMISSIONS

    Mr. Kilmer. So let me speak to that, because you question 
whether you have the legal authority to do that. Even the late 
Justice Scalia held the opinion that you do. In a 2014 Supreme 
Court decision, Justice Scalia's opinion, he wrote: The EPA 
sought to regulate sources that it said were responsible for 86 
percent of all the greenhouse gas emissions emitted from 
stationary sources nationwide. Under the Court's holdings, the 
EPA will be able to regulate sources responsible for 83 percent 
of those emissions.
    Mr. Pruitt. We are considering that as we speak. We have an 
advance notice of proposed rulemaking in the marketplace, 
soliciting comment on regulating stationary sources for 
greenhouse gasses. That is in the marketplace today.

                           NO DISCHARGE ZONE

    Mr. Kilmer. And I know my colleagues touched on this, but 
also, in light of the challenges in these communities, what do 
you say to a poor Tribal community that is trying to move?
    I visited a Head Start facility in La Push, Washington, at 
the Quileute Tribe, that they are trying to move to higher 
ground because of the impacts of sea level rise. And they are 
struggling to find a dollar. And they are seeing this issue get 
worse when it is ignored in this town.
    How do you explain, when you spend tens of thousands of 
dollars on travel and thousands of dollars on soundproofing? 
They don't have the luxury of spending thousands of dollars on 
soundproofing. They can't even spend thousands of dollars on 
waterproofing when they are getting washed out.
    Mr. Pruitt. We granted the No Discharge Zone, and I think 
that provided environmental benefits to your community. We are 
taking Superfund actions.
    We are taking a host of actions that I think benefit those 
local communities with respect to environmental protection. And 
this issue that we are talking about here, we are evaluating 
our authority to address that going forward.
    Mr. Kilmer. I am at my 5 minutes. Thank you, Chairman, I 
yield back.
    Mr. Calvert. Thank you.
    Next, Mr. Amodei.

                     FISCAL YEAR 2018 APPROPRIATION

    Mr. Amodei. Thanks, Mr. Chairman.
    Good afternoon, Mr. Administrator.
    I want to start with a few things. I know it is kind of 
thin ice to be talking about the Sooner State and stuff like 
that, but I do want to correct one thing that was said earlier 
by a member of this committee when he was referring about your 
budget and he said we were a little late in getting our work 
done.
    With all due respect, we weren't, those folks on the north 
end of the building were. I would just like the record to 
reflect that.
    Mr. Cole. I stand corrected, and I am grateful for you 
pointing it out.
    Mr. Amodei. That is good enough then. I will stop there on 
that one. I appreciate it.

                  WASTEWATER AND SUPERFUND ACTIVITIES

    Mr. Amodei. And then the only other one--I guess the other 
thing I want to say as a lead-in is, on behalf of the other 40-
some-odd States who have, I guess, modest and humble lakes 
instead of Great Lakes, thank you for your consideration, you 
doing those lakes also. No offense to the people from Ohio or 
the Superior.
    I want to talk with you a little bit about kind of some 
meat-and-potatoes stuff for the Agency and that is this. It has 
been my experience that when we have visited your folks in 
Region 9 in San Francisco, in the prior administration and in 
this administration they have been very helpful.
    And so, I don't want that to go without mention in terms of 
what is going on, because even though we may not be blessed 
with a lot of water in my neck of the woods, our issues with 
respect to water are still very, very important.
    Your Agency has done a good job of partnering with the 
Nevada Division of Environmental Protection, working together 
in terms of how your jurisdiction is shared with them and how 
you folks end up of achieving the goals of maintaining clean 
water for those of us where it predominantly comes from 
groundwater systems. So I want to put that on the record and 
thank you.
    We want to visit just a couple things. And I am not going 
to take your time today, because I know you have been fully 
employed so far today and I know you probably have plenty of 
fun things to do tonight in terms of overtime.
    So I just want to put on the record with your folks that we 
are going to be getting ahold of you and we want to talk about 
a couple of wastewater situations that are the result of the 
huge winter that we had on the eastern slope of the Sierra that 
are not under your direct control, but it kind of gets into 
your jurisdiction.
    One of them is north of Reno in a place called Swan Lake, 
if you can believe that there are swans in the desert.
    Another one is an update on your Superfund activities in 
the State, because while you don't have a lot of them, some of 
them are kind of long range. By necessity we just kind of want 
to see where we are and what the status is under your 
administration in going forward in that.
    So with that, we will look forward to getting ahold of your 
legislative liaison folks. Thank you for your service.
    I yield back and thank the gentleman from Oklahoma for his 
contrition on that one.
    Mr. Pruitt. Mr. Chairman, may I first?
    Mr. Calvert. Mr. Pruitt.
    Mr. Pruitt. I just want to offer, because I think the point 
the Congressman makes about the State DEQs, the Departments of 
Environmental Quality and Departments of Natural Resources 
across the country, that has been an emphasis of ours at the 
Agency, to work with our State partners in a very, very close 
way with respect to these, technical assistance. We were 
talking about that earlier.
    So I really appreciate hearing that Region 9 and others are 
doing that effectively because it has been a point of emphasis.
    Mr. Calvert. I want to point out, too, that the lake that 
the gentleman is referring to is shared with the great State of 
California.
    Mr. Amodei. Thank you, Mr. Chairman. I was just referring 
to the better part of the lake.
    Mr. Calvert. Ms. Kaptur.

                           TOXIC ALGAL BLOOMS

    Ms. Kaptur. Thank you, Chairman Calvert and Ranking Member 
McCollum.
    Welcome back, Administrator Pruitt.
    I wore this color today for a reason. Last June I invited 
you, and I think it is fair to say Congressman Joyce joined me 
in this, to visit Lake Erie, the 12th-largest freshwater lake 
in the world and the shallowest of the five Great Lakes. That 
lake is choking, and it is choking deeply, due to phosphorus 
and manure runoff. In fact, 4 years ago the city of Toledo had 
to shut off its freshwater system to half a million people for 
3 days because of what is happening with toxic algal blooms.
    Now, I am a little offended you couldn't accept our 
invitation. I know you are a busy man, but I read in the paper 
that you in the past year traveled to Italy and Morocco, and 
that the trip to Italy alone cost more than $120,000.
    Did you travel to those two countries last year?
    Mr. Pruitt. I did, Congresswoman.
    Ms. Kaptur. You did.
    Mr. Pruitt. And to the G7 in Italy.
    Ms. Kaptur. Do you have any idea what a plane ticket to 
Cleveland, Ohio, might cost you to come and visit?
    Mr. Pruitt. Probably less than the trip to Italy.

                   GREAT LAKES RESTORATION INITIATIVE

    Ms. Kaptur. It would cost you a great deal less, yes. It 
would be about $200, $250, somewhere in that range.
    According to a Federal judge, who ruled just recently, you 
have ignored your duty as the Administrator of the 
Environmental Protection Agency for this Nation under the Clean 
Water Act. I am sure that court proceedings will bring out the 
truth in all of that.
    The President's budget for this year recommended 
elimination, zeroing out of the Great Lakes Restoration 
Initiative. What I would like to know is, did you recommend 
that to the President?
    Mr. Pruitt. I did not.
    Ms. Kaptur. All right. The budget you are submitting this 
year cuts the Great Lakes Restoration Initiative by 90 percent, 
$270 million, which isn't even enough. Even if we got $300 
million, which we have had in the past, it wouldn't be enough 
to deal with what we are struggling with right now.
    Your budget cuts our Section 106 pollution grants by 33 
percent. You eliminate Section 319 nonpoint source pollution 
management grants. I want you to know that all of those cuts 
and programs, if they were funded, represent half of Ohio EPA's 
budget, half.
    All right. So our States depend on this funding. I would 
like to know if you recommended to the President to cut those 
programs?
    Mr. Pruitt. I did not.

                           REGION 5 STAFFING

    Ms. Kaptur. I also want to let you know that the Superfund 
program, which is very important to us, is terribly short-
staffed in Region 5. And I am sorry to be provincial, but we 
have all talked about our parts of America. That is what the 
House does, we represent all places in our Nation.
    In that region there are zero hydrogeologists, who are the 
people who determine how the toxins may spread and endanger 
other citizens. Also, there are zero civil investigators, who 
find out who is responsible for these billion-dollar messes 
that we have to clean up, and require them to fund the cleanup.
    As we sit here today, just so you know, Region 5 has lost 
at least 90 employees under your leadership, and there have 
been only two hires that you have made, and they are both 
political.
    What I want to know is, do you have any intention, and can 
you fully commit, to fully staffing Region 5, not just for 
Superfund, but for all of the programs to protect human health 
and the environment in our fragile region?
    Mr. Pruitt. The good news is that OMB has actually lifted 
the hiring freeze. For Region 5, we can act with respect to 
those deficiencies that you have identified.
    Ms. Kaptur. So what are you going to do for Region 5?
    Mr. Pruitt. The OMB has lifted the hiring freeze. For 
Region 5 specifically, we can act to address the deficiencies 
that you have raised.
    Ms. Kaptur. At what level do you expect you will be able to 
employ individuals to do the job?
    Mr. Pruitt. Well, with the omnibus I am sure that we are 
going to have more flexibility.

                            CLEAN WATER ACT

    Ms. Kaptur. All right. Now, do you understand that one of 
the reasons that the court is questioning your duty under the 
Clean Water Act is because, in terms of cleaning up Lake Erie, 
we needed to hear from Federal EPA because we have various 
States involved in this: Indiana, Ohio, Michigan, and actually 
Ontario, Canada. And the EPA sat on the bench, didn't do a 
thing.
    Mr. Pruitt. I don't know if you are referring to, 
Congressman, the water quality standards that Ohio submitted. 
We have been very diligent in responding to Ohio. In fact, we 
have asked for the data from the State of Ohio about those 
issues.
    Ms. Kaptur. You dragged your feet on declaring impaired 
status. The National EPA made our entire marine community, a $7 
billion industry, terribly worried. This is what it looks like.
    We invite you out. I invite you out this year. I will drive 
you myself if you don't like airplanes, but apparently you fly.
    For us this is a life-and-death issue, and I just don't see 
that the EPA is serious. I am old enough, I've been around when 
we past Earth Day. I remember Gaylord Nelson. I remember 
America becoming conscious in the last quarter of the 20th 
century that we have to live in communion with the Earth or we 
all will die. It is pretty clear.
    My grandmother said to me in 1952, when I was nearly 6 
years old, and she was an immigrant, but she was close to the 
land. She said: ``America will pay a great price for this.'' 
She pointed at our river, the same river that is sick today. 
She said: ``The people here don't understand what they are 
doing.'' She couldn't even speak English, but she knew what it 
meant to live in communion with the Earth. To have this kind of 
ignorance by the EPA, I consider at this point in our history, 
to be un-American.
    I need your help. We need the help of the Government of the 
United States to protect our people, to protect their economic 
activities, to protect their human health. I expect more than 
cursory answers in this committee.
    I will look forward to your letter of reply to questions I 
am submitting to the record.
    Thank you.
    Mr. Calvert. I thank the gentlelady. And rest assured the 
Great Lakes will be addressed in our appropriation, as it 
always is.
    Mr. Jenkins.

                             WEST VIRGINIA

    Mr. Jenkins. Thank you, Mr. Chairman.
    Mr. Administrator, thank you for being here.
    In your remarks you talked about restoring confidence. Let 
me tell you about the people of West Virginia. I don't use the 
word confidence, I say hope. And this administration, in your 
work, in your Agency, is restoring hope to the people of West 
Virginia.
    The last administration devastated us economically. The 
regulatory overreach put almost one half of our coal mining 
jobs, coal miners out of work and on the unemployment line.
    We want to talk passionately about the environment and 
protecting what we have. Let me tell you about protecting the 
livelihoods of people of West Virginia, people who lost their 
homes, their cars, their life, literally, as a result of the 
heavy overreach that decimated our State and its people.
    What a difference, candidly, an election makes, the fact 
that one candidate called the people of West Virginia 
deplorable, one candidate that callously stood up and said her 
policies would put a lot of coal miners out of work, after we 
had just gone through 7 years of being economically devastated.

                              RULE OF LAW

    If you don't like the message too often people attack the 
messenger. I am not apologizing for any of the actions that you 
have taken with regard to secure communications or travel. 
Those are issues you are going to have to respond to and you 
are going to have to be held accountable for and you are going 
to have to address. But I do applaud you for being pointed in 
saying you respect the rule of law.
    And it was a powerful comment made a little bit ago when a 
member here said: Get creative. That is exactly what the prior 
administration did. Gina McCarthy sat as far from me to you as 
we are today. I challenged her to come to West Virginia. I 
asked her had she ever been, and she said no.
    It is not your job to be creative, to advance an agenda. I 
think it is your job to respect the rule of law. If folks don't 
like what the law says, then we need to change the law. It is 
not your responsibility to get creative. We have had enough of 
that.
    It is amazing to me what a difference a year makes, 2 years 
make, because it was Gina McCarthy, sitting here just feet from 
me, when the EPA had been found by the inspector general of 
having violated antilobbying laws by using social media to 
promote their WOTUS program.
    And I could go through the litany, the failure to share 
information, the documentation that backed up the rules that 
they were advancing. The litany of misdeeds, inappropriate 
actions from the prior administration put us out of business in 
West Virginia. Today we are back in business, thanks to this 
administration and the promise and the commitment that you made 
to the coal miners of West Virginia.
    We are an energy State. We have got abundant coal, natural 
gas, oil. We have fueled the Nation. We have forged the steel 
that has won world wars. We have good people. They didn't 
deserve the last administration that absolutely deprived them 
of their livelihood.
    I appreciate the fact that you are respecting the rule of 
law, and I appreciate the good work of this administration 
getting us back in business.
    Thank you, Mr. Chairman.
    Mr. Calvert. I thank the gentleman.
    Ms. McCollum.

                           STAFF RETALIATION

    Ms. McCollum. Thank you, Mr. Chairman.
    I have had a few minutes to look over the document that was 
given to us by Administrator Pruitt. I don't see anything in 
here, just for the record, because I want to make sure that Mr. 
Art Elkins, the Inspector General, his name doesn't appear on 
this. This appears to be a log that talks about Mitch McConnell 
and others. So I know it is in the record, but this is not a 
satisfactory answer to me, what you handed me. I just wanted 
you to know that, sir.
    I want to go back to the science question I had because one 
of my colleagues said, well, he wanted to get back to the 
budget. What my question on the science focused on is that you 
are proposing dismantling ways in which scientific health data 
was gathered before and making it more public.
    We had this discussion in the House. There is a bill that 
was introduced by one of our colleagues in the Science 
Committee, Mr. Smith. And so this proposal has been scored. 
This is a budget question.
    What the EPA would be doing would be spending $250 million 
annually over the next few years to supposedly ensure 
transparency, which does not seem to be a problem in putting 
together scientific evidence in medical journals that has been 
used in tobacco cases, other cases, and concluding what we need 
to do to protect the public health from harms that are being 
made by certain substances.
    I just wanted folks on the other side of the aisle to know 
my question did have a $250 million attachment to it of money 
that, in my opinion, would be wasted.
    Mr. Pruitt, EPA staff has been under attack during your 
tenure. You publicly blamed your staff instead of taking 
responsibility for your wasteful spending. And I heard what you 
said: I take full responsibility. But yet when someone asks a 
direct question it is always: Well, someone signed this, or 
someone did that, or someone did this, and I was under the 
impression. It seems to be a pattern.
    You are supporting a budget that nearly slashes 4,000 
employees, and you have imposed a hiring freeze and staff 
buyouts. I am glad to know you are going to lift the freeze--or 
a portion of the freeze, we will see how big it is--in Region 
5.
    My colleagues on the Energy and Commerce Committee spent 
much of the morning chronicling your numerous ethical 
transgressions, including reports that you reassigned several 
employees in retaliation for voicing their concerns about the 
spending and management of the Agency. In fact, some of them 
are gone.
    I would like to hear from you, because this is out in the 
public. I have to say that when you don't have the confidence 
of the public and the people that you directly have to report 
to--I have lost all confidence in the way that you handled some 
of the questions and the way that you said you took 
responsibility but then, in fact, deflected the responsibility.
    How do you think these ethics scandals are affecting 
employee morale? How are you going to overcome your reputation 
so staff do not fear retaliation? Because there is documented 
retaliation as far as I am concerned.
    How do you expect to maintain the scientific or the 
technical recommendations from independent peer-reviewed 
scientists, that have been used for decades, by Republicans and 
Democrats across the board, both Presidents and people in 
Congress.
    When somebody speaks out against your agenda they appear to 
be retaliated against, removed from a board, or just deflected.
    So what are you going to do to regain not only the trust of 
your staff, but you have lost my trust?
    Mr. Pruitt. I would say to you unequivocally, I am not 
aware of any instance that any employment action has been taken 
against someone for any advice or counsel they have been given 
with respect to spending. I am not aware of any instance of 
that.
    Ms. McCollum. Is Mr. Chmielewski, is he still in your 
employment?
    Mr. Pruitt. I am not aware of any instance in that regard.
    Ms. McCollum. Is Mr. Chmielewski still working for the EPA?
    Mr. Pruitt. It is my understanding he is not.
    Ms. McCollum. He is not.
    Mr. Pruitt. He resigned I think late last year.
    Ms. McCollum. He resigned? And he resigned because he 
actually publicly has gone on the record with a Mr. Jackson and 
a Mr. Reeder and a Mr. Allen a couple of times pointing out to 
you directly about your spending. They had questions about 
things going on in the office and desks and hardening of cars 
and other things like that. They looked at your travel plans, 
and a couple of times their pushback prevailed.
    And then Mr. Chmielewski, who had been very vocal about it, 
all of a sudden found himself the target. I find this kind of a 
curious thread. He found himself the target after he came back 
from a trip from Asia with Mr. Pence. He was asked to resign, 
turn in his credentials.
    Mr. Pruitt's aides informed the White House that they were 
dissatisfied with Mr. Chmielewski's unresponsiveness during his 
travel plans, including a time when he could not be reached in 
Hawaii when he was preparing for a visit by Mr. Pence.
    There were anonymous complaints filed with the EPA 
inspector general that alleged Mr. Chmielewski could not get 
the appropriate level of security clearance for his duties 
because of various indiscretions.
    After an investigation the inspector general dismissed all 
allegations in the complaint and found it unfounded. And it 
appears that Mr. Perrotta, who I had mentioned earlier, who is 
under an ethics investigation, was a person out to discredit 
him.
    Is Mr. Chmielewski, deserving of an apology? How do you 
tell other employees that if they speak up, they speak out, 
that the same thing won't happen to them?
    Mr. Pruitt. I can only say to you what I said earlier, 
which is I am not aware of any instance that actions have been 
taken from an employment status with respect to those issues.
    I do want to address the science issue, because, again, I 
think that to characterize this as somehow being selective in 
the kind of science that is going to be used at the Agency is 
just simply not reflective of the decision we have made. This 
is a proposal that affects all science, irrespective of the 
source.
    I think this committee, some members of this committee, 
would probably be upset if the API issued some sort of findings 
with respect to methane that didn't provide methodology and 
data to the Agency to support rulemaking and we didn't publish 
that as part of our decisionmaking.
    So this is----

                              RESIGNATION

    Ms. McCollum. Mr. Chair, I am reclaiming my time.
    I have been through this with the tobacco industry. I have 
been through this with Monsanto and other things in the ag 
industry. I think I have a good handle on what is going on.
    And you had an opportunity today to come here and say you 
were going to support peer-reviewed science that has been used 
for decades. You had an opportunity to say you were taking full 
responsibility for any ethical lapses that you had. And you had 
an opportunity to explain why, the ozone and the methane rule 
that you took to court, it was sloppy work, the court rejected 
it, and you didn't. You kind of not answered that directly.
    So I just really feel, and I have held back on doing this 
as some of my other colleagues have, but I think I am going to 
say it clearly and straight to you, because I think you deserve 
that, but, Mr. Pruitt, I think it is time that you resign.

                          CLEAN AIR ACT WAIVER

    Mr. Calvert. Thank you.
    I would like to talk to you, Administrator, about clean 
air. Obviously, I am from California. Clean air remains 
critically important to me and to my constituents in 
California. Not only was California the first State to start 
regulating air quality when the Clean Air Act was written, 
California already had pollution rules in place.
    I think we have talked about that before. Because of this, 
in writing the Clean Air Act of 1970 California was provided a 
unique authority to write its own rules and set its own 
standards.
    Earlier this month the Administration took steps to 
reconsider and likely roll back standards set by the previous 
administration related to emissions for cars and light trucks 
for model years 2022 to 2025.
    As part of this revaluation you mentioned that you would 
also be reexamining California's waiver and the ability to set 
stricter standards for vehicle emissions. While the California 
waiver was not currently under review at the time of this 
hearing last year when I asked you about plans to continue the 
waiver in the future, you noted: It is important that we 
recognize the role of the States achieving good air quality 
standards and that it is something we are committed to in the 
Agency.
    As an advocate for States' rights, I think it is important 
to note that in my home State transportation accounts for about 
50 percent of California's greenhouse gas pollution, about 80 
percent of its smog and other air pollutants. These standards 
play an important role in curbing air pollution, improving air 
quality for my constituents.
    So my question is, Administrator, do you plan to continue 
the Clean Air Act preemption waiver that the Agency granted to 
California.
    Mr. Pruitt. Yes, Mr. Chairman, we are actually in active 
discussions with CARB in California. Mary Nichols and others 
have sent staff to discuss the MTE as well as the impending 
potential or proposed rule with respect to the CAFE standards.
    It is my hope and it is my commitment to you to work very 
diligently to try to find an answer with California and the 10 
or so States that follow their lead, because it is very 
important, as best we can, to have a national standard.
    We have a role to play and so does California and that 
collaboration is important. We are committed to it. We dedicate 
our resources to it and will continue to work through the 
process to try to achieve commonality and an answer for both 
California, and those States and our agencies.
    Mr. Calvert. The history of this, as you know, President 
Reagan was very much involved in maintaining the waiver in the 
State of California. Certainly our former chairman and 
colleague, Jerry Lewis, who wrote a lot of the clean air 
standard laws in the State of California when was in the State 
assembly, before he came to Congress. And, of course, my 
colleagues on the Democratic side of the aisle in California.
    Of course, we were the most--we had--we still have 8 out of 
the top 10 most polluted areas in the United States because of 
our population and geographical reasons and other reasons.
    But we appreciate your attention to this problem. I just 
wanted to make sure that you understood my position.
    Mr. Pruitt. We are working hard with California to try to 
find an answer.
    Mr. Calvert. Thank you.
    Ms. Pingree.

                             CAFE STANDARDS

    Ms. Pingree. Thank you very much.
    Thank you again, Administrator Pruitt.
    I appreciate my colleague and the chair bringing up this 
question from the perspective of many States. We are very 
grateful for California in setting higher air standards and 
that they have often moved the rest of us forward.
    I brought up CAFE standards before and I just want to go 
back on that a little bit. I am concerned about some of the 
changes in the Administration around CAFE standards, greenhouse 
gas emissions, and the relationship to that, and the idea that 
there would be any loosening of that standard.
    I look at clean air in kind of the big picture here. As I 
have told you ad nauseam, I come from the State of Maine. We 
are also at the end of tailpipe when it comes to the Clean 
Power Rule, which clearly you disagreed with.
    We are one of the States where, if there are coal-fired 
power plants, and I certainly sympathize with the coal miners 
and the challenges of those communities, but on the other hand, 
we get the bad air. We have high rates of childhood asthma, we 
have red air alert days. For a State that you think of as 
pristine and clean and has a huge tourism industry, it is 
surprising that we would end up with this bad air.
    So I have no idea why would you want to roll back emission 
standards on vehicles. There is always, of course, pressure 
from the industry, but there are a lot of studies and 
statistics that show that we have all saved a lot of money for 
having higher fuel efficiency standards. I know Mainers are 
very pleased that they pay less money at the gas pump.
    We have amazing technology now. We have jobs that have been 
created, whether it is hybrid cars or electric cars. I can say 
that I drive a Volt, it is a hybrid car, and I have to fight 
over my electric parking space in the garage now and I am 
getting kind of grumpy about it, because there did not used to 
be anybody else down there. But I think there are Republicans 
taking my space and I want to do something about that.
    There is money in this and all car companies are moving to 
this.
    So I guess my question is, it seems to me you don't have, 
just like climate change, our best interest at heart, that you 
are not on our side on this. I want to give you some time to 
talk about it.
    The other thing is this idea that the Administration is 
rolling back the ``once in always in'' policy. I know that gets 
a little obscure and complicated, but basically when we have 
identified sources of pollution before, we have forced them to 
stay with any reductions that have been made to make it simple. 
And so in January you also announced you are going to roll back 
that rule.
    It just seems to me that you don't take this seriously that 
there is something going on in our atmosphere, whether it is 
about the public health and asthma and all the concerns we have 
around that or climate change and the emissions that we have in 
our atmosphere. Why are you on the other side of this?
    Mr. Pruitt. Thank you for a couple of things about each of 
those issues.
    As you know, the time period that those standards are 
typically set are for 5 years. In the 2010-2011 timeframe, the 
previous administration adopted those standards up until 2022, 
2025.
    That is very difficult to predict the market conditions 
over that long period of time. What is the price of gas? What 
is consumer demand? All the issues that drive the decisions 
with respect to those standards, it is very difficult to be 
predictive over that long period of time, which is why the 
midterm evaluation was put in place.
    As the midterm evaluation was evaluated in April of this 
year, the data that was reviewed showed that the assumptions 
made in 2011 didn't match what was in the marketplace in 2018 
with respect to the fuel cost, the fuel demand, and other 
related issues.
    What we don't want to see happen is to set the standard so 
high, Congresswoman, that the manufacturers manufacture cars 
that people don't purchase. Because what happens is that people 
stay in older vehicles, which actually increases emissions 
because they don't have the choice. We should be focused upon 
efficiency for cars that people are actually wanting to 
purchase.
    So as we go through this process, we have not concluded 
anything yet. All we did in the midterm evaluation is to say we 
need to evaluate that based upon current data. There will be a 
proposed rule that will take place with DOT and a process where 
comments will be received and informed decisions will be made 
about whether the 54 miles per a gallon, approximately, was 
appropriate.

                             AUTO EMISSIONS

    Ms. Pingree. With all due respect, we do have a pretty good 
sense of what is happening. You hear from most car companies, 
they are moving to electric cars. There are people lined up to 
buy Teslas, there are people who are talking about electric 
semi, tractor trailer trucks. There is a movement in that 
direction.
    So to say that suddenly we are uncertain about it or to say 
that somehow we should favor the oil and gas industry because 
maybe there have been less sales or the price is going down 
doesn't make any sense to me. There was a lot of certainty in 
which direction we were going and it seems to me you are 
reversing that decision.
    Mr. Pruitt. The other area, was it ozone? I can't remember.
    Ms. Pingree. My other question was around ``once in always 
in.''
    Mr. Pruitt. Oh, ``once in always in.''
    Ms. Pingree. And you rolled that back in January.
    Mr. Pruitt. My perspective on that is that you have major 
emitters and you have minor emitters under the statute. 
Previous policy said to those that were in the major emitter 
category that though they invested sometimes hundreds of 
millions of dollars to improve their outcomes, they always had 
to stay in that major emitter category. And to me, that is a 
disincentive.
    Ms. Pingree. My understanding was that they always had to 
comply with the level. They couldn't suddenly go back up again. 
They were required once they had reduced their emissions to 
keep those emissions reduced.
    Mr. Pruitt. They could never be----
    Ms. Pingree. They could never emit again.
    Mr. Pruitt. You could never go in the minor emitter 
category despite investments you had made to reduce emissions. 
That seems to me to be a disincentive to companies across the 
country to invest to improve outcomes.
    Ms. Pingree. It seems to me a disincentive to pollute. And 
no matter--we are obviously at an impasse here so we will stop.
    But I just want to say, I don't know how the head of 
Environmental Protection Agency can have so little concern 
about climate change, so little concern about the impact on 
public health of these emissions, and make so many decisions 
that go in the opposite direction when it is clear we shouldn't 
be doing that. For all of us who have constituents and people 
and public health to protect, you don't seem to be serving our 
interest.
    Mr. Calvert. I thank the gentlelady for her questions.
    Just as a point, when you are looking at the causes of 
asthma, years ago we were looking at that on the Science 
Committee. It is important to look at indoor air pollution. 
Because of some of the pollutants that are in our homes are 
irritants that may have an impact on asthma also.
    Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    I am going have a question here at the end of this, a 
really short one, but I have to make a couple of statements 
first.
    I am pleased that gentlelady is plugging in her car 
downstairs and supporting the coal industry that is providing 
that electricity that charges that car.
    One of the problems with electricity----
    Ms. Pingree. I am being very bipartisan.

                             SOLID SCIENCE

    Mr. Simpson. Yeah. And I support electric vehicles. One of 
the challenges you have is that in Idaho I might drive 500, 
600, 700 miles a day. I don't have 4 hours to charge a battery 
halfway there or a third of the way there two or three times.
    Now, we are working on that. A lot of that work is done at 
the Idaho National Laboratory. You are going to have more 
electric cars in the future and more hybrid automobiles. That 
is a good thing as far as I am concerned.
    But I was told that since transparency of science is in 
fact a budget question by my ranking member, who is a good 
friend, I guess I can ask her about that or make a statement 
about that.
    I have a hard time believing--and it came with her opening 
statement where twice she used the words solid science. The 
question is, what is solid science if you don't have the 
transparency behind it to determine whether it was created in a 
fashion that makes it solid science? Based on who? Based on 
what? Whether it is the New England Journal of Medicine or a 
Bazooka comic book. I am not trying to equate the two.
    But I can't believe that anybody would have a problem with 
saying: Let's see how you came up with this science. How did 
you come to this conclusion? Can I repeat your experiment and 
come up with the same conclusion? If I can't, there is 
something wrong here. Then maybe we ought to look at it 
further.
    To me, that is what I think you are trying to accomplish 
here.
    Now the ranking member has said: I think I know what is 
going on here. I would like to know what is going on here, if 
that is it or not.
    But as I said in the opening round, I have heard more and 
more industries, businesses, associations saying: I don't how 
they came up with this. We can't duplicate it.
    And without transparency, how do you know whether it is 
good science or bad science? Good science is the science which 
I agree with, bad science is the science which is on the other 
side of the aisle, I guess. That is no way to do it.
    Ms. McCollum. Would my good friend--my good friend from 
Idaho invoked me, so I will be brief and then let the 
administrator say something.
    Mr. Simpson. But only if I yield, right?
    Ms. McCollum. Right. I am asking if you would.
    Mr. Simpson. Go ahead.

                           HEALTH DATA: HIPAA

    Ms. McCollum. Thank you.
    So we are talking about health data. Scientists are able to 
collect health data because they pledge to keep a patient's 
name and personal information confidential because of HIPAA.
    Mr. Simpson. Reclaiming my time.
    Didn't the Administrator say that that could be kept 
confidential under the proposal that they are making? Is that 
what you indicated originally?
    Ms. McCollum. At $250 million.
    Mr. Pruitt. Yes, Congressman, that is correct. I think you 
have said it eloquently and passionately, much better than I 
have today. I think your assessment is absolutely right.
    The science that is reproducible and transferrable should 
drive our decisions at the Agency. We should be agnostic about 
the source.
    You know, what it is interesting about this discussion is 
that we are talking about third-party studies, studies that are 
not done at our Agency. These are not studies being done by 
ORD, they are not being done by a lab, they are not being done 
by a programmatic office. They are being done by a third party 
that is not under the same controls or guidance that we have as 
an Agency.
    As those third-party studies are produced to us, they 
undergird rulemaking. They are actually what we use to say: 
This is action we are taking that will apply as laws of general 
applicability to Americans across the country.
    To say that as those third-party studies come in that they 
should be subject to reproducibility and transferability, data 
and methodology should be a part of the conclusions, to me make 
abundant sense. That is the proposal.
    The concern about personal information data, confidential 
business information, all that will be addressed as we go 
through the proposed rulemaking process because it is important 
to protect that data.
    Mr. Simpson. Thank you.
    I was going to also comment on what Mr. Jenkins had. I have 
been kind of astounded here hearing people say: You need to get 
creative. Find a way to enforce the law.
    As I have studied politics since junior high school, I 
guess, I understood that it was the legislative branch that 
wrote the law, with the help of the administrative branch, and 
that the President could either veto or not veto a bill, that 
that became the law and it was your job to carry out the law as 
passed by Congress.
    And if you saw a problem that the law didn't address that 
needed to be changed, it was your responsibility to try and 
tell Congress or submit a proposal to change it so that you 
could address it. But otherwise it is your job to carry out the 
law as it exists.
    Mr. Pruitt. That is correct. There are certain areas within 
the statute, in fact we have talked about these, like New 
Source Review. I mean, I think there needs to be clarity in the 
statutes with respect to background levels and exceptional 
events and different things that affect the ozone 
determinations.
    Mr. Simpson. That is the same thing with WOTUS.
    Mr. Pruitt. Exactly. So there is work to be done there. I 
think the executive branch should be working with the 
legislative branch to provide that kind of clarity so that we 
know what our job is.

                              IRIS PROGRAM

    Mr. Simpson. One quick question, Mr. Chairman.
    The report language in the fiscal year 2018 omnibus 
appropriation legislation noted progress is being made by the 
Agency to implement the critically important recommendations 
made by the National Academy of Sciences in their 2011 and 2014 
reports on IRIS. It also expressed support to ensure that IRIS 
programs focus its work on the near-term regulatory needs of 
the EPA program offices.
    Can you describe how you will make sure that the IRIS 
program reflects the priority needs of the program offices? And 
what is the prioritization process? And how will the public be 
informed?
    Mr. Pruitt. Well, I am aware of the language to which you 
refer. We are actually in the process of funding the IRIS at 
prior year enacted levels. These are the steps we are taking.
    Mr. Simpson. OK.
    Mr. Calvert. Thank you.
    Mr. Kilmer.

                         SECURITY DETAIL REVIEW

    Mr. Kilmer. Thank you, Mr. Chairman.
    It is alleged that the head of your security detail helped 
direct your Agency to pay his business partner to conduct a bug 
sweep. Do you think it is ethical for a public servant to hire 
a firm he has interest in to do government business?
    Mr. Pruitt. No, and that is under review.
    Mr. Kilmer. Did you know about it?
    Mr. Pruitt. I was not aware of that at all.
    Mr. Kilmer. So you do now. Do you intend to take any 
action?
    Mr. Pruitt. Well, it is under review by the inspector 
general and the Agency.
    Mr. Kilmer. Let me just ask. It seems today like your 
security team has made a lot of decisions that you now disagree 
with or have concerns with. Is anybody being held accountable?
    Mr. Pruitt. Well, what I referred to, Congressman, earlier 
is the assessments made by the security does impact, obviously, 
travel and those kinds of issues. I did take steps to change 
that earlier this year, with respect to the first class travel 
back to coach. That was something I felt was something right to 
do.

                              PUGET SOUND

    Mr. Kilmer. Your job, and I think you heard this from my 
colleagues as well, is to protect our constituents. They need 
help to protect their homes from rising sea levels. Last year I 
asked you about that, you sat in that chair and you said: That 
is a good idea, we are just short on the money do something 
about it.
    Last year and this year again your budget had exactly zero 
dollars to protect Puget Sound, which you said was a good idea 
last year and you said we just don't have the money, we had to 
make some tough choices. And it seems like you have spent a lot 
of money on trips and security and sound proofing.
    You know, EPA stands for Environmental Protection Agency, 
not Executive Protection Agency. So why are you spending money 
on executive protection, but not environmental protection?
    Mr. Pruitt. The security decisions that have been made at 
the Agency are made by law enforcement personnel and I have 
heeded their counsel. The reason I have heeded their counsel is 
that I have a responsibility to do so.
    Now, I have made decisions. I just mentioned one with 
respect to how we travel.
    But on the issue as far as the funding for Puget Sound, 
that is something the omnibus, obviously, addressed. I have 
shared with you that we will continue to communicate the 
importance of that, as with the Great Lakes Initiative, and 
with our partners at OMB.
    That is something we engage in active discussion, we have 
engaged in pass-back communications, both last year and around 
budget discussions going forward. I will continue to advocate 
for these regional programs that matter to the environment of 
the Puget Sound and other areas that you have been raising 
today.

            OFFICE OF RESEARCH AND DEVELOPMENT REPROGRAMMING

    Mr. Kilmer. I hope they are listening.
    I want to ask you about your Office of Research and 
Development laboratory. EPA sent more than 40 employees notices 
that they are being reassigned to other parts of country or 
else they will be separated from Federal service.
    The omnibus contained very clear instruction which requires 
agencies funded by this act to submit reorganization proposals 
for committee review prior to their implementation.
    It specifies--and I am just quoting--reprogramming 
guidelines apply to proposed reorganizations, workforce 
restructure, reshaping, or transfer of functions presented in 
the budget justifications, or bureau-wide downsizing, 
especially those of significant national or regional 
importance, and include closures, consolidations, and 
relocations of offices, facilities, and laboratories presented 
in the budget justifications.
    So my questions are, will you be submitting a programing 
request to the committee? And can you commit to us that one 
will be provided?
    Mr. Pruitt. Well, I have made a comment earlier that I 
think those labs across the country are extremely important at 
helping our State partners and local partners do their job. 
Some of the recommendations that have actually been made, if 
not all, actually occurred in the Obama administration.
    I am reconsidering regional lab closures at this point and 
may not make any changes there at all. If there are changes, I 
will submit them to Congress. But at this point I am revisiting 
those regional decisions.
    Mr. Kilmer. Thank you.
    Thanks, Chairman. I yield back.

                           PERSONAL SECURITY

    Mr. Calvert. I am going to recognize Mr. Cole here pretty 
soon, but first I want to make a point, Administrator. I think 
I can speak for the entire committee that no one wishes you 
physical harm on your job. And so we want to make sure that the 
proper security is provided and that you and your family are 
kept safe. I think that is important.
    With that, Mr. Cole.

                          CLEAN AIR ACT WAIVER

    Mr. Cole. Thank you, Mr. Chairman.
    And I want to be very careful how I phrase this, because I 
don't want to get on the opposite side of my friend the 
chairman at all.
    This is a curiosity question, but has a real economic 
impact in my area. One of largest private employers I have is 
York air conditioning, which is a division of Johnson Control. 
It employs about 600 or 700 people, they are moving up to 1,100 
people. They are clearly doing well.
    And the facility has been there for--you know it, you have 
driven down I-35 plenty of times, it is right off there on the 
east side of the road, been there since the early 1970s.
    I was recently was visiting there and there is a testing 
lab and they had multiple bays. And they explained one of their 
great problems was the fact that, while I am a big believer in 
federalism, waivers do cause them, particularly when it is 
something like California, a gigantic problem, because they are 
driven by markets. It is not like all States are equal, and 
California is an economic powerhouse.
    And that is actually one of the issues they raised with me. 
And again, not critical of anybody in California or anything 
like that in their view. It is that we need some measure of 
uniformity here if we are going to produce for a national 
market.
    So does that go into the economic consequences? It would be 
one thing if Oklahoma asked for a waiver on something, we are 
not very big, but Texas or Florida or California really are.
    So you see the ripples of that out through the whole 
economy. And sometimes that has actually been a force for the 
good. It has been a driver in innovation and what have you. But 
how do you weigh that out when you are wrestling with those 
decisions?
    Mr. Pruitt. This waiver issue has long been a point of 
contention. In fact, it was the Bush administration, I think in 
2007-2008, that actually rejected the waiver.
    There are statutory criteria that you have given me to 
evaluate with respect to the waiver. I think you are speaking 
more to a practical issue, Congressman, as Congressman Calvert 
did earlier.
    I think it is very important that as we do our work at the 
EPA that we do it in collaboration and partnership with all 
States across the country. We have a job to do and we seek to 
work with California and others to do that job.
    But what I have said, and I think Congresswoman Pingree 
said earlier, we can't have one State dictating to the rest of 
the country, and I have said that. I think that it is almost 
like having a diplomacy effort in some respects, a State 
Department internal to the EPA, to work through these issues.
    So all I can tell you is we have dedicated staff. The head 
of my Air Office, Bill Wehrum, has spent substantial time in 
California working directly with Ms. Nichols, and that will 
continue. I am hopeful and optimistic that we will be able to 
have a decision that will benefit the entire country, take into 
consideration California, obviously, and their role, and 
achieve good outcomes.
    Mr. Cole. And, again, I don't mean to be critical of 
anybody here. And I actually brought the issue just to show 
some of the complexities you have to wrestle with in these 
issues. Because it is clear all States are equal under the 
Constitution, but they are not equal in terms of their economic 
impact or significance or how they can affect the market.
    Nothing wrong with that, it is just the way it is. But 
sometimes you are not in a very good position to satisfy people 
at both sides of this today.
    Mr. Calvert. If the gentleman would yield.
    Mr. Cole. Certainly yield to the chairman.

                       L.A. BASIN--NONATTAINMENT

    Mr. Calvert. I think one of the reasons why California has 
had a waiver that is particular to the State is just the L.A. 
Basin itself. The L.A. Basin has significant geographic issues. 
It traps emissions in an area where 26 million people reside. 
It is the most concentrated large area in the United States.
    And so that is one of the reasons why it has been important 
for us to help regulate our own air quality.
    Mr. Pruitt. May I? I think, like on ozone, this issue is 
particularly important to the West Coast because of 
international transported pollution from Asia.
    I mean, we have made tremendous progress as a country 
reducing our levels with respect to ozone, but a lot of the 
challenges we have with nonattainment occur because of 
transported pollution from international sources.
    There are efforts that I have been engaged in with respect 
to Mr. Lighthizer and some discussions. 85 percent of the 
pollution and nonattainment in El Paso as an example, is caused 
by issues south of the border.
    So we domestically are impacted by decisions that are being 
made internationally, and we must use all efforts to achieve, 
get better outcomes there. This is one of those issues, 
particularly for your State.

                            AQUIFER RECHARGE

    Mr. Cole. Well, again reclaiming my time.
    Again, I respect my friend, and I understand you are going 
to have to have something different with the conditions that he 
is talking about and living with then we might have on the 
plains. I am just glad to know there is a process that you work 
this through and try to come to an equitable decision, because 
it does have real consequences economically.
    One other quick question. In our part of the world, my part 
of the world, and much of the Plain State, aquifer levels have 
been going down for a long time. It is a real problem for us. 
Obviously, it is a problem agriculturally. It is a problem in 
terms of long-term water supply in that area.
    Could you give me some sort of overview of whether or not 
you are focusing on aquifer recharging? Where does that rank in 
the priorities within the department?
    Mr. Pruitt. Well, I think that ORD has been very involved 
in that and working with the States to address that. As you 
know, Congressman, Utah, the second-most dry State in the 
country, is different than Minnesota with respect to the issues 
that were faced on water. So I think what is important----
    Ms. McCollum. Our aquifers are disappearing, too. USGS is 
helping us.
    Mr. Pruitt. Well, not just with respect to aquifers. I 
think what is important is that our office work with State 
partners to determine priorities, and we are in fact doing 
that.
    Mr. Cole. I appreciate that. I just wanted to flag it 
because, again, it is a hugely important problem for the future 
of our State.
    With that, Mr. Chairman, I yield back my time.
    Mr. Calvert. Thank the gentleman.
    Ms. Kaptur.
    Ms. Kaptur. It would be interesting to witness that 
personally, Congressman Cole. It would be interesting to have 
you make a presentation to us about Oklahoma.
    Mr. Cole. You probably don't have that much time.

                           REGION 5 STAFFING

    Ms. Kaptur. Administrator Pruitt, thank you for your 
endurance here today.
    On a previous round of questioning, I got into detail with 
you about Region 5 staffing, and you stated that the hiring 
freeze had been lifted. But if that is so, why are no job 
openings listed?
    Mr. Pruitt. I am not sure why that has taken place. I just 
know OMB has suspended that hiring freeze for Region 5.
    Now, they did it April 12. So that may be why it has not 
taken place yet. So it has just been within the last 2 to 3 
weeks.
    Ms. Kaptur. Two to three weeks. Do you----
    Mr. Pruitt. No, I am sorry, that is 2017, actually 2017. So 
it has been over a year that that has been suspended by OMB.
    Ms. Kaptur. Yes. So why don't you have any job openings 
listed for Region 5? Under the information that I have been 
given, they aren't listed. So, if you are going to hire, how do 
people know there are jobs available, especially since many 
people have left the region already.
    Mr. Pruitt. Well, I will check into that and provide the 
information.
    [The information follows:]

                           Region 5 Staffing

    As of May 10, 2018, EPA Region 5 has 3 EPA-internal job 
announcements listed on USAJobs.com.
          1. Enforcement Investigator
          2. Senior Analytical Chemist
          3. Supervisory Life Scientist/Physical Scientist/
        Environmental Engineer

                           TOXIC ALGAL BLOOMS

    Ms. Kaptur. Great. Thank you very much for that.
    My next question really revolves around toxic algal blooms.
    Mr. Pruitt. Ma'am, one thing I would say to you with 
respect to those decisions is we didn't get a Region 5 regional 
administrator until recently. So it could have delayed, 
obviously, an assessment of those deficiencies.
    Ms. Kaptur. It took an inordinate amount of time.
    Mr. Pruitt. Yes, it did.

                            CLEAN WATER ACT

    Ms. Kaptur. Last year, I asked you about the U.S. EPA's 
acceptance of Ohio's Clean Water Act assessment of the waters 
of Lake Erie. You countered that the State had not actually 
assessed the waters, as if that was an acceptable response when 
you, as the Federal Administrator, are required to assess those 
waters every 2 years under the Clean Water Act.
    So, what we had was a tennis match between the Federal 
Government and the State of Ohio; neither of which showed that 
much concern about what was happening to Lake Erie.
    Now, there is a Federal court case in which a Federal judge 
has stated that, in fact, the U.S. EPA had given Ohio a pass.
    A new report by the State of Ohio shows that, in fact, the 
runoff problems are getting worse. This is despite millions of 
dollars of voluntary efforts to try to deal with the largest 
watershed in the entire Great Lakes. If we can get it right 
here, we can get it right everywhere, but we can't get it right 
here yet, and the days are ticking.
    All people concerned in this feel that we as a country will 
miss the target of 20 percent reduction of phosphorus by 2020. 
That is not that far away.
    So my question really is, what practical steps can you take 
on an expedited basis to reach the 40 percent reduction goal 
that was set by international treaty agreement with the Nation 
of Canada by 2025?
    Mr. Pruitt. If I could first, it is the State's 
responsibility to prepare and submit lists of impaired waters 
to EPA under Clean Water Act 303(d). The issue with Ohio is 
that they were saying they could not or would not include an 
assessment of the open waters of Lake Erie as part of their 
2016 impaired water list. The delay that you are referring to 
is our office and our Agency going back to Ohio saying it was 
really their responsibility.
    Now, this is subject to litigation----
    Ms. Kaptur. You also have authority every 2 years under the 
Clean Water Act. You have the authority of the Federal 
Government.
    Mr. Pruitt. If the State refuses to do it. This is subject 
to litigation and we are, obviously, evaluating that. But that 
was what caused the delay that you are talking about, the 
communications between the EPA and the State of Ohio.
    Ms. Kaptur. One could say that over the last couple of 
years that there wasn't any real willingness on the Federal 
level, nor on the State level, to deal with this lake that is 
so sick.
    Mr. Pruitt. We are committed to doing that.

                           TOXIC ALGAL BLOOMS

    Ms. Kaptur. I am really glad to hear that. Could you tell 
me what steps you will take, practical steps, to stop the toxic 
algal blooms that are killing that lake?
    Mr. Pruitt. I believe that those conversations, not just 
for Ohio but the States in the entire region, there has been a 
commitment through cooperation to reduce those phosphorus 
levels.
    Certain States seem to do more. I think that we have to 
look at TMDL opportunities to address that if States refuse to 
take the steps that they were supposed to take.
    Ms. Kaptur. Well, I reissue my invitation to you, and I 
think I speak for Mr. Joyce as well. Mr. Administrator, come to 
our area. You need to have EPA personnel on the lake, and they 
need to work with our people. It is not getting any better, and 
probably, oh my goodness, I don't how many tens of millions of 
dollars have been spent; we are not getting it right yet.
    Rotary has made this their number one priority, as high as 
their selection of eliminating polio years ago. You have 
international Rotaries interested in helping, but to what end? 
We need a leader. We need your department, your Agency, to 
engage fully, and I am really begging you to do that.
    Mr. Pruitt. Well, we should proceed to set up that trip.
    Ms. Kaptur. Thank you.
    Mr. Calvert. Thank you. Thank the gentlelady.
    Mr. Pruitt. And Congressman Joyce should be a part of that 
as well.
    Ms. Kaptur. Absolutely. We are locked at the hip. He is at 
one end of the state, I am at the other.
    Mr. Calvert. Thank you.
    Mr. Jenkins.
    Mr. Jenkins. Thank you, Mr. Chairman.
    I, too, would like to extend the invite. I think you are 
going to be doing a lot of traveling this next period.
    A lot of people want to invite you to their State to see 
concerns, see problems, seek action. As I stated in my remarks 
a moment ago, I want to extend and invite to you to see 
success, see progress, see people back to work.
    So I hope you will come to West Virginia. And yes, express 
our gratitude, but also see what work we are doing. We do care 
deeply about clean air, clean water. We have got scenic beauty 
second to none. So I hope you will come to West Virginia.
    Will you do it?
    Mr. Pruitt. Oh, absolutely.

                      WATERS OF THE UNITED STATES

    Mr. Jenkins. Thank you.
    A couple of quick questions. For the term that I have been 
here on this committee, every work product out of this 
committee we have put limitations of funding to implement the 
Clean Power Plan, limitations of funding to implement waters of 
the U.S. Obviously, Democratic opposition to that or no action 
in the Senate.
    My question to you is, give me a status of Clean Power 
Plan, waters of the U.S., and the actions you are taking to 
reverse the implementations of those. What are you able to do? 
Do you have the resources in order to wind those down back to 
within the parameters of the statutory authority that we talked 
about under Clean Air and Clean Water Act earlier? Can you give 
me a status check, a report on this?
    Mr. Pruitt. With respect to WOTUS, there are actually two 
rules in the marketplace presently. One is a proposed 
withdrawal of the 2015 definition to which you refer, and there 
is also a rule that has been finalized extending the compliance 
dates with respect to the obligations under that 2015 rule.
    What is not in marketplace yet is a proposed replacement of 
the waters of the United States rule, and that is anticipated 
for OMB review in the month of May and no later than June. It 
is my hope that we will have the rescission of the 2015 rule 
and the comment period on the proposal to revise the definition 
closed by the end of 2018.

                 NAVIGABLE WATERS AND CLEAN POWER PLAN

    Mr. Jenkins. So with regard to the proposal to withdraw the 
definition of navigable waters and the other issues that are 
already out there, when do we think that would become finalized 
and when would we see a rescission of that Obama era rule?
    Mr. Pruitt. As far as the proposal and the replacement, 
that won't occur until next month or in June. So you would see 
that potentially being finalized by the end of year.
    With respect to the proposed withdrawal, there is some 
contemplation about doing a supplemental notice that we would 
send out in the marketplace for a short time, possibly 30 days, 
to get some additional data on the purposes of the withdrawal. 
That is something I am reviewing now. But that could happen 
very soon, and then we could finalize that in the near future.
    But with respect to the Clean Power Plan, as I mentioned 
earlier, we have, obviously, the proposed withdrawal that has 
been discussed, but also an advance notice of proposed 
rulemaking that is in the marketplace on a potential 
replacement to the CPP, soliciting comment on our authority 
under Section 111. So that is the process we are going through.
    Mr. Jenkins. Are there any actions that we need to take 
budgetarily to give you the full resources to pursue those 
steps that you have outlined?
    Mr. Pruitt. Not that I am aware of now, Congressman.
    Mr. Jenkins. Thank you.
    Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    And thank you, Administrator, for your testimony today. I 
know it has been a long day for you. I appreciate your coming 
up here to testify. And don't forget about DERA and Targeted 
AirShed grants. It is important to not just California. I 
appreciate your being here.
    Ms. McCollum. Mr. Chairman, we are going to be able to put 
in questions for the record. I have one on advisory panels.
    Mr. Calvert. Certainly, additional questions will be 
submitted to you, Administrator. We would like to have the 
answers to those to be submitted for the record.
    Mr. Pruitt. Thank you, Mr. Chairman.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
  
    



                        I N D E X

                       ----------                              

               Department of the Interior
             FY 2019 Budget Oversight Hearing
                     April 11, 2018

                                                                   Page
Acting Assistance Secretary--Fish, Wildlife, and Parks 



Advisory Board: International Wildlife Conservation Council......   128
African American Civil Rights Network Act........................   140
African Elephant Sport Trophy-Hunting............................   125
AML Pilot Program................................................    37
Arctic National Wildlife Refuge Drilling.........................   142
Arlington Memorial Bridge........................................    77
Asian Carp 



Biography--Denise Flanagan.......................................    24
Biography--Olivia Barton Ferriter................................    23
Biography--Secretary Ryan Zinke..................................    21
BLM Budget.......................................................    33
BLM Law Enforcement..............................................    75
Bureau of Indian Affairs Tiwahe Initiative.......................   144
Climate Change 





Consultation.....................................................    30
Department Senior Level Vacancies................................    59
Earthquake Early Warning System..................................    56
Elwha Water Facilities...........................................    44
Endangered Species Act 



Fiscal Year 2019 Budget Request..................................    59
Fisheries........................................................    45
Fundamental Science Practices....................................   124
GAO High Risk Programs in Indian Country.........................    60
GAO High Risk Programs: Education................................    63
GAO High Risk Programs: Indian Energy............................    65
Grants...........................................................    39
Grazing Permits..................................................   119
Great Lakes 




Greater Sage-Grouse Conservation.................................    78
Habitat Conservation Plans.......................................    71
Hurricane Emergency Supplemental.................................   137
Invasive Species.................................................    58
King Coal Highway................................................    38
Land and Water Conservation Fund.................................   147
Landsat..........................................................    58
Leadership.......................................................    51
Maintenance......................................................    46
Maintenance Backlog..............................................    45
Mineral Withdrawal: Superior National Forest.....................   145
Monuments 




National Park Entrance Fees 



National Park Service Predator Control Rule......................   141
Native Plants/National Seed Strategy.............................    82
NPS Acting Director Smith........................................   140
Office Expenses..................................................   136
Office of Inspector General......................................   110
Office of the Solicitor 



Offshore Development 







Offshore Wind 



Opening Remarks of Chairman Calvert..............................     1
Opening Remarks of Chairman Frelinghuysen........................     5
Opening Remarks of Mrs. Lowey....................................     6
Opening Remarks of Ms. McCollum..................................     3
Opening Remarks of Secretary Ryan Zinke..........................     7
Payments in Lieu of Taxes (PILT).................................    60
Public Lands Infrastructure Fund.................................    62
Questions for the Record from Chairman Calvert...................    59
Questions for the Record from Mr. Simpson........................   119
Questions for the Record from Ms. McCollum.......................   120
Questions for the Record from Ms. Pingree........................   147
Reorganization 







Reprogramming....................................................    31
Royalty Policy Committee.........................................   142
Science 



Solicitor's Opinion on Migratory Bird Treaty Act.................   138
Southern Nevada Public Lands Management Act......................    33
State Staffing Levels............................................    83
Statement of Secretary Ryan Zinke................................     9
Sue and Settle...................................................    39
Topographical Map................................................    58
Travel...........................................................    32
Twin Metals......................................................    49
Update on new Grant Review Process and Timeliness of Getting The 
  Funding Out....................................................   137
USGS Budget......................................................    57
USGS National Geospatial Program U.S Topographic Program.........   108
Veteran Photography on National Mall.............................   147
Wild Horses and Burros 



Wild Horses and Burros: Comprehensive Plan to Congress...........   144

                        Smithsonian Institution
                    FY 2019 Budget Oversight Hearing
                             April 12, 2018

Arts and Industries Building 



Biography--Secretary Skorton.....................................   165
Collections Management...........................................   178
Deferred Maintenance.............................................   169
Energy Savings and Sustainability................................   177
Expanded Outreach................................................   173
Introduction of Smithsonian Curators and Objects.................   153
National Air and Space Museum Funding............................   170
National Air and Space Museum Revitalization.....................   166
National Fundraising Campaign....................................   175
National Zoological Park Security................................   172
Opening Remarks of Chairman Calvert..............................   149
Opening Remarks of Mr. Cole......................................   166
Opening Remarks of Ms. McCollum..................................   150
Opening Remarks of Secretary Skorton.............................   151
Parking..........................................................   168
South Mall Campus................................................   175
Statement of Secretary Skorton...................................   155

                         Indian Health Service
                    FY 2019 Budget Oversight Hearing
                             April 17, 2018

Accreditation....................................................   221
Accreditation Emergencies........................................   227
Behavioral Health................................................   206
Biography--Acting Director RADM Michael Weahkee..................   192
Biography--Ann Church............................................   195
Biography--Gary Hartz............................................   194
Biography--RADM Michael Toedt, M.D...............................   193
Care Coordination Agreements.....................................   197
Centralized Credentialing........................................   232
Construction Backlog.............................................   231
Credentialing....................................................   199
Current Services.................................................   213
Current Services: Inflation......................................   226
Current Services: Pay Costs......................................   224
Current Services: Population Growth..............................   226
Denied and Deferred Services.....................................   232
Discretionary Funding............................................   196
Equipment........................................................   218
Facilities.......................................................   215
Fiscal Year 2019 Budget 



GAO High Risk Report.............................................   228
Great Plains.....................................................   198
Great Plains Crisis..............................................   234
IHS Health Workforce.............................................   240
Indian Health Care Improvement Fund 



Legislative Proposals............................................   225
Maintenance Backlog 




Maternal and Child Health........................................   237
Naloxone 



Native American and Native Alaskan Veterans......................   242
Needs-based Budget for Full Funding..............................   236
Opening Remarks of Acting Director RADM Michael Weahkee..........   184
Opening Remarks of Chairman Calvert..............................   181
Opening Remarks of Ms. McCollum..................................   182
Opioid Prevention, Treatment, and Recovery Supports..............   241
Opioids 





Partnering with Law Enforcement..................................   205
Per Capita Spending 



Population Served................................................   208
Purchased/Referred Care 



Quality Health Care..............................................   234
Questions for the Record from Chairman Calvert...................   223
Questions for the Record from Mr. Simpson........................   232
Questions for the Record from Ms. Katpur.........................   240
Questions for the Record from Ms. McCollum.......................   234
Recruitment 



Reimbursable Funding Report Directed in FY 2018 Omnibus..........   236
Reimbursement for Medical Airlift................................   202
Reimbursement from Third Party Collections.......................   235
Staffing 





Statement of Acting Director RADM Michael Weahkee................   186
Substance Abuse..................................................   209
Telemedicine.....................................................   220
Urban Indian Health Programs 



Veterans 




                    Environmental Protection Agency
                    FY 2019 Budget Oversight Hearing
                             April 26, 2018

Advisory Panels..................................................   363
Algal Blooms 





Anaerobic Digesters..............................................   331
Antideficiency Act (ADA) Violation/Financial Controls............   347
Aquifer Recharge.................................................   310
Australia Trip...................................................   362
Auto Emissions...................................................   303
Background Ozone.................................................   320
Biography--Administrator Scott Pruitt............................   257
Biography--Holly Greaves.........................................   259
CAFE Standards 



Clean Air Act Waiver 



Clean Power Plan and Methane.....................................   317
Clean Water Act 



Clean Water Act--Snake River.....................................   281
Clean Water Act Preemptive Votes.................................   326
Clean Water Act: Enforcement.....................................   371
Climate Change 




Condo Door Repayment.............................................   347
Disneyland Trip..................................................   362
Electric Pathway: Optimal Solution...............................   369
Electric Pathway: Timeline.......................................   369
Electric Pathway: Anaerobic Digester Technology..................   368
Endocrine Disruptors Program.....................................   283
EPA Marine Engine Waivers........................................   322
Ethics Review: Condo Lease.......................................   271
Executive Orders and Deregulatory Actions........................   317
Fiscal Year 2018 Appropriation...................................   294
Fiscal Year 2019 Budget 



Great Lakes Advisory Board.......................................   290
Great Lakes Restoration Initiative 



Greenhouse Gas Emissions.........................................   293
Harmful Algal Bloom Coordinator..................................   331
Health Data: HIPAA...............................................   305
Inspector General's Death Threat Assessment......................   261
Integrated Risk Information System (IRIS) 




Issues Reported in the Press.....................................   260
Italy Trip.......................................................   359
Kerr Water Lab, Ada, Oklahoma....................................   285
L.A. Basin--Nonattainment........................................   310
Lab Closures in contravention of Reprogramming Requirements......   338
Memorandum from Inspector General and Protection of Personal 
  Information....................................................   335
Mid-term Evaluation & the California Waiver......................   323
Morocco Trip 



Navigable Waters and Clean Power Plan............................   314
No Discharge Zone................................................   293
Office of Research and Development Reprogramming.................   308
Opening Remarks of Chairman Calvert 


Opening Remarks of Mr. Pruitt....................................   247
Opening Remarks of Ms. Lowey.....................................   246
Opening Remarks of Ms. McCollum..................................   245
Personal Security................................................   308
Proposed Rule: Transparency in Science...........................   271
Prosed Rule: Methylene Chloride..................................   282
Puget Sound......................................................   307
Questions for the Record from Chairman Calvert...................   315
Questions for the Record from Mr. Joyce..........................   331
Questions for the Record from Mr. Kilmer.........................   366
Questions for the Record from Mr. Simpson........................   329
Questions for the Record from Mr. Young..........................   333
Questions for the Record from Ms. Katpur.........................   368
Questions for the Record from Ms. McCollum.......................   335
Region 5 Staffing 



Regulatory Rollback..............................................   365
Reid Vapor Pressure (RVP)........................................   333
Renewable Fuel Standard (RFS) Electric Pathway...................   366
Renewable Fuel Standard: Waivers.................................   369
Renewable Fuel Standard: Wood Biomass Exclusion..................   329
Rent and Space Consolidation.....................................   321
Resignation......................................................   301
Rule of Law......................................................   298
Rural Water Assistance Program...................................   281
Science and Peer Review..........................................   337
Security Detail Review...........................................   307
Small Refinery Exemptions........................................   333
Solid Science....................................................   305
Staff Retaliation 



State and Tribal Assistance Grants (STAG) 



Statement of Administrator Pruitt................................   250
Superfund and Brownfields: Budget Request vs. Actual Needs.......   318
Superfund Special Accounts: $3.3 billion Waiting to Spend on 
  Cleanups.......................................................   319
Tier 4 Restrictions for Generators...............................   323
Wastewater and Superfund Activities..............................   294
Water Infrastructure Finance and Innovation Act..................   282
Waters of the United States......................................   313
West Virginia....................................................   297
WIFIA Implementation and Job Creation............................   315
WOTUS: Rescinding the 2015 Rule and Rewriting the Definition of 
  ``Waters of the U.S.''.........................................   316

                                  <all>
</pre></body></html>
